<html>
<title> - THE CRISIS IN KOSOVO</title>
<body><pre>[Senate Hearing 105-649]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-649

 
                          THE CRISIS IN KOSOVO

=======================================================================

                                HEARINGS

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                        MAY 6 AND JUNE 24, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                      ----------------------------

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 1998





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD. G LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)





                            C O N T E N T S

                              ----------                              
                                                                   Page

                         Hearing of May 6, 1998

DioGuardi, Hon. Joseph, Volunteer President, Albanian-American 
  Civic League...................................................    29
Fox, John, Director, Washington Office, Open Society Institute, 
  Washington, DC.................................................    24
Gelbard, Hon. Robert S., Special Representative of the President 
  and the Secretary of State for Implementation of the Dayton 
  Peace Accords..................................................     2
Hooper, James R., Director, The Balkan Institute, Washington, DC.    19

                        Hearing of June 24, 1998

Abramowitz, Hon. Morton I., International Crisis Group; and 
  former Assistant Secretary of State for Intelligence and 
  Research.......................................................    63
D'Amato, Hon. Alfonse, a United States Senator from the State of 
  New York.......................................................    48
Dole, Hon. Robert, Chairman, International Commission on Missing 
  Persons in the former Yugoslavia, Washington, DC...............    51

                                 (iii)

  

                                APPENDIX
                         Hearing of May 6, 1998

Response of Ambassador Gelbard to Question asked by Senator Biden    79
Response of Ambassador Gelbard to Questions asked by Senator 
  D'Amato........................................................    81
Response of Ambassador Gelbard to Questions asked by Senator 
  Biden and Senator D'Amato......................................    83


                          THE CRISIS IN KOSOVO

                              ----------                              


                         WEDNESDAY, MAY 6, 1998

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith (chairman of the subcommittee), presiding.
    Present: Senators Smith and Biden.
    Senator Smith. Ladies and gentlemen, I will call this 
hearing to order. We expect the arrival of some other Senators 
soon, when their conferences, lunches, break up, but we welcome 
you all.
    Today the Foreign Relations Committee is convened to 
discuss the crisis in Kosovo and its potential ramifications on 
stability throughout the region. Our first panel will consist 
of Ambassador Robert Gelbard, Special Representative of the 
President and the Secretary of State for implementation of the 
Dayton Accords.
    After we hear from Ambassador Gelbard, the committee will 
welcome Mr. James Hooper from the Balkan Institute, Mr. John 
Fox of the Open Society Institute, and former Congressman 
Joseph DioGuardi, who currently is the volunteer president of 
the Albanian-American Civic League.
    I appreciate the willingness of all of our witnesses to 
appear before our committee this afternoon. I confess that I am 
deeply concerned about the situation in Kosovo today. Since 
February of this year approximately 150 people have been killed 
in a particularly appalling fashion, and the Serbian police 
have attacked and murdered innocent women and children in their 
effort to crack down on the Kosovar Albanian separatist 
movement.
    The Albanian movement in Kosovo has shown remarkable 
reserve in their pursuit of the autonomy that was revoked in 
1989 and 1990, but as we have all seen, that patience has worn 
thin. The gathering strength of the Kosovo Liberation Army and 
their quest for an independent Kosovo and their violent tactics 
to achieve their goals leads me to believe that things in 
Kosovo yet get even worse.
    The Serbs have shown in recent months that they are more 
than willing to use overwhelming force in response to 
separatist activity in Kosovo, and I do not expect that 
attitude to change.
    I sincerely hope that our administration does not consider 
President Milosevic's role in the Bosnian peace process, 
however great or small, as justification for leniency with 
regard to his abhorrent behavior in Kosovo.
    The Contact Group established to coordinate policy on the 
conflict in the former Yugoslavia has met several times since 
the violence in Kosovo broke out in February. Despite 
statements of outrage and condemnation from the Contact Group, 
the Serbs have continually ignored its limited demands.
    President Milosevic thus far has successfully exploited the 
historical and economic interest in Serbia that shade the views 
of some of our friends in Europe. Though there are merits to 
using the Contact Group in dealing with the situation in 
Kosovo, at some point in the future the Contact Group may yet 
prove to be an unsuccessful at contributing to the resolution 
of the conflict. Then the United States must pursue an 
appropriate policy unilaterally.
    I realize the policy challenges facing the United States 
and the international community in responding to the Kosovo 
crisis. Secretary of State Madeleine Albright has used strong 
words of warning to President Milosevic, but I must say, the 
direction of the United States policy on this issue is 
unfortunately unclear.
    As I mentioned earlier, the Contact Group has been 
ineffective at forcing Mr. Milosevic to cease his terrorist 
tactics in Kosovo. Given the potential this conflict has to 
spread to the rest of the Balkans and beyond, even involving 
our NATO allies, Greece and Turkey, I think it is critical for 
the administration to clearly state its policy on this 
question.
    In December 1992, then President Bush delivered an 
unequivocal warning in a letter to President Milosevic that the 
United States was prepared to intervene militarily if Serbia 
attacked the ethnic Albanians in Kosovo. President Clinton 
repeated this so-called Christmas warning after he took office 
in 1993. It would serve the interests in furthering public 
debate on the issue if, Ambassador Gelbard, you will publicly 
state what this warning consists of, and whether this will 
continue to be U.S. policy.
    I look forward to discussing these issues and other 
questions with all of our distinguished witnesses before us. 
So, Mr. Ambassador, we especially welcome you and invite your 
statement.

STATEMENT OF HON. ROBERT S. GELBARD, SPECIAL REPRESENTATIVE OF 
THE PRESIDENT AND THE SECRETARY OF STATE FOR IMPLEMENTATION OF 
                    THE DAYTON PEACE ACCORDS

    Ambassador Gelbard. Thank you very much, Mr. Chairman. I 
would, with your agreement, like to submit my entire statement 
for the record and give an abbreviated version of it.
    Senator Smith. Without objection.
    Ambassador Gelbard. Thank you, Mr. Chairman.
    I am very pleased to have this opportunity to appear before 
the subcommittee again. A great deal of progress has been made 
in Bosnia since I appeared last July, which I would like to 
outline briefly for you before I conclude my remarks today.
    However, we also now are faced with the outbreak of 
violence in Kosovo which has the potential, if allowed to 
spiral out of control, as you said, to threaten stability not 
just in the Federal Republic of Yugoslavia but in the region as 
a whole.
    Therefore, I will focus the bulk of my remarks this 
afternoon on developments in Kosovo and our efforts to stop the 
violence and get dialog on a political solution for Kosovo 
started.
    Our interests in dialog are based not only on our concern 
for the people of Kosovo, but also on the impact on the 
surrounding regions and the need to ensure that our substantial 
investment in Bosnia is secure.
    We remain deeply concerned about the situation in Kosovo 
and the potential for further violence. The escalating conflict 
threatens wider regional stability. Albania, which only 
recently returned from the brink of anarchy, and the former 
Yugoslav Republic of Macedonia, are particularly vulnerable.
    A parenthetical phrase here. I realize it is a subject 
still in dispute, but for brevity's sake in the course of my 
statement I would like to refer to the former Yugoslav Republic 
of Macedonia as Macedonia. It does not imply any political 
decision on our part.
    The United States and other members of the international 
community have made a significant investment in the stability 
of South Central Europe. We are determined to see that these 
efforts succeed. Securing a political solution to the problem 
of Kosovo is a fundamental objective of U.S. policy toward the 
region.
    Since the outbreak of serious violence in late February, 
the level of tension, interethnic hostility and arms in the 
province of Kosovo have continued to rise. In late February, in 
retaliation for an ambush of Serb police, an attack which left 
a number of the police dead, by individuals believed to belong 
to the so-called Kosovo Liberation Army, or UCK, Serb special 
police, paramilitaries, were sent in to reinforce the local 
police in very large numbers and conduct a cleanup operation, 
as they called it.
    Supported by attack helicopters and heavy weapons, the 
operation lasted for a day. The total number killed by regular 
and special police was some 80 people, mostly noncombatants, 
including large numbers of children and women.
    Though the Serb and FRY Governments described this as a 
police action, no democratic country in the world would allow 
this kind of behavior by police to go unpunished.
    Since that time, the Belgrade Government has tripled the 
number of special police, essentially paramilitary units, or 
internal troops, as communist countries have called them in the 
past, deployed to Kosovo, and have recently deployed Yugoslav 
Army, VJ, infantry and armor and artillery units on the borders 
and to key hot spots in the interior.
    This represents a substantial escalation, and the 
deployments on the border with Albania are particularly 
troubling. Nations do have a right to protect their borders. 
However, Belgrade's stated desire to prevent or stop cross-
border weapons smuggling carried out by small groups of people 
through remote mountain passes, does not track with the large-
scale deployment of tanks and artillery to the border.
    Moreover, Belgrade has issued a threatening public 
statement accusing the Government of Albania of conspiring to 
undermine the territorial integrity of the FRY.
    We in the Contact Group have warned the FRY against staging 
any cross-border operations into Albania or Macedonia. In 
response to Belgrade's use of excessive force and the lack of 
movement toward unconditional dialog, the U.N. Security Council 
adopted on March 31 an arms embargo against the FRY, blocking 
planned arms purchases by Belgrade.
    This embargo also prohibits the sale or provision of 
weapons or other equipment or training for groups engaged in 
terrorist activities. Introduction of further weapons into the 
region, either to Belgrade or to extremist groups, will only 
increase the violence and make it more difficult to bring about 
negotiations and a political solution to the already bitter 
dispute over Kosovo's status.
    Even in the face of provocation, however, Governments have 
a greater responsibility for ensuring that the rule of law is 
respected and the rights of its citizens protected than any 
armed extremist groups. Belgrade's failure and refusal to 
uphold that responsibility has made Kosovo an international 
problem. They are the ones who have internationalized Kosovo, 
and we and our allies have no intention of standing by and 
ignoring continued repression and escalation of violence into 
war.
    Despite repeated warnings, Belgrade so far has blocked 
unconditional dialog. Instead, internal security forces have 
been reinforced in ways that compound the sense of intimidation 
and insecurity on the part of the local Kosovar Albanian 
community. The violent activities of the Kosovo Liberation Army 
have heightened insecurity among Serbs and Belgrade's heavy 
handed use of force and atrocities is producing increased 
radicalization.
    This will only weaken the moderate Kosovar Albanian 
leadership, led by Dr. Ibrahim Rugova, which has advocated 
nonviolent political solutions. Meanwhile, the UCK has 
continued to carry out attacks against police and clearly is 
trying to arm itself and improve its capabilities.
    Belgrade's brutal tactics also have helped this formerly 
unknown group gain worldwide notoriety and find an increasingly 
sympathetic audience in Kosovo among the Albanian diaspora in 
Europe and the United States, and among radical groups ranging 
from Iran to Chechnya looking to make inroads into Europe.
    I want to be very clear. Extremists on both sides are the 
only ones who will gain by a delay in getting dialog started. 
The violence will increase, and the chances for finding a 
peaceful solution will slip away. The biggest losers will be 
the citizens of Kosovo and the FRY in general. Support for 
radicals will increase the likelihood for an even more violent 
crackdown by Belgrade, and the UCK eventually will transform 
itself into a full-fledged insurgent group.
    Those who argue, the worse the better, are profoundly 
mistaken. Neither the Kosovo Albanians, the Serb people, nor 
the international community can afford another war in the 
Balkans. The problems of the region can only be resolved 
through unconditional dialog. We have taken steps to increase 
the pressure on Belgrade to engage the Kosovo Albanian 
leadership in negotiations.
    Starting with the Contact Group ministerial meeting on 
March 9 in London we, under Secretary Albright's leadership, 
have led international action to impose new punitive measures 
against Belgrade, already under the outer wall of sanctions, as 
a means of creating greater pressure on the FRY Government to 
negotiate.
    These sanctions, including a ban on Government financing 
for investment or privatization, a financial asset freeze, 
denial of visas for Government officials responsible for the 
violence, and the arms embargo, have moved Belgrade in the 
right direction. If Belgrade continues to block negotiations, 
Contact Group countries other than Russia will take action as 
soon as this Saturday to ban all new investment in Serbia.
    The position of the United States has not changed. We 
oppose independence for Kosovo. Further atomization will not 
contribute to regional peace and security. Neither can we 
accept a continuation of the status quo. The Kosovar Albanians 
are denied the basic human rights and political freedoms that 
are the foundations of a stable democracy.
    Between these two extremes, however, we believe there is a 
wide range of possibilities which can only be developed and 
articulated through dialog. We firmly support an enhanced 
status for Kosovo within the FRY that would provide for 
meaningful self-administration. How this is accomplished is for 
the parties to decide in the course of negotiations.
    There is a significant role for the international community 
to play, however, in bringing the parties together. The gap 
between the two sides is both side and deep. The trail is 
littered with shattered promises and broken commitments. In 
Rome last week, the United States and the other Contact Group 
countries urged the two sides to adopt a framework for dialog 
and endorsed a stabilization package that we believe could help 
jump start negotiations if and when the parties agree to 
participate.
    The framework we have proposed is based on fundamental 
principles that the parties must accept, including the 
rejection of violence as a tool for achieving political goals, 
and international involvement in talks to overcome mistrust and 
ensure realistic prospects for success.
    The stabilization package must include, at a minimum, first 
the return of the OSCE, the three OSCE missions of long 
duration to the FRY, including in Kosovo, Sanjak and Voivodina, 
the cessation of repression by the authorities in Belgrade, and 
a strong condemnation of violence and terrorism by the Kosovar 
Albanian leadership.
    If President Milosevic begins this process, we are prepared 
to work closely with him to begin the process of reintegrating 
the FRY into international organizations and institutions. The 
agreement to begin talking and concrete progress on key 
stabilization measures are the only clear evidence we can 
accept that Belgrade is serious about reaching a political 
outcome.
    A continued stalemate will only ensure continued isolation 
for the FRY, as a result of which, together with extremely bad 
economic policies, the Serbian economy is already in rapid 
decline. The dinar has been devalued about 80 percent, GDP has 
fallen precipitously, and the FRY's balance of payments debt 
has skyrocketed.
    The FRY's international status, and unfortunately the 
economic woes of the Serbian people, will not change until 
Belgrade has made significant progress in addressing the 
legitimate grievances of the Kosovar Albanian community.
    The situation in Kosovo is, for the United States, a 
central element of the outer wall of sanctions against the FRY. 
We have been careful to exempt Montenegro from these new 
restrictions.
    Reform-minded President Milo Djukanovic's election is one 
of the most encouraging developments in the FRY scene. He 
recently conducted a very successful visit to Washington and 
New York, and is demonstrating his commitment to democratic and 
economic reforms that could serve as a model for the FRY. 
President Djukanovic currently faces extreme political pressure 
from President Milosevic's Government, however, to try to fall 
in line with Belgrade's policies.
    Elsewhere within the FRY and the region, Belgrade has 
adopted a hard nationalist line. The recent alliance between 
President Milosevic's party and the ultranationalist radical 
Vojislave Seselj within Serbia, has already produced increased 
intimidation of independent media.
    At the same time, in contrast to his earlier support for 
moderates in Republika Srpska and Bosnia, President Milosevic 
has made moves in recent weeks to try to undermine the 
Republika Srpska Government, led by Prime Minister Milorad 
Dodik, a blatant attempt, in our view, to distract the 
international community from the Kosovo situation.
    We and our allies have made extremely clear that the 
situation in Kosovo must be resolved, and that meddling in 
Bosnia is unacceptable. We are determined not just to maintain 
the substantial progress made in Bosnia, but to expand on it.
    We will also hold Croatia to its obligations, including for 
return of refugees and displaced persons.
    Now for the good news, Bosnia. You never thought you would 
hear me say that.
    We continue to see good progress on Dayton peace 
implementation in Bosnia. The election of Prime Minister Dodik 
in the Republika Srpska and the more active use of the High 
Representative's powers are paying dividends. Recently, there 
have been a number of breakthroughs.
    These include, freedom of movement has dramatically 
expanded, with routine travel between the entities and the 
issuance of new nondescript common license plates.
    An inter-entity agreement to reintegrate Bosnia's rail 
system, a step which will bring substantial benefits to the 
Bosnian economy.
    Political changes in the Republika Srpska, which should 
allow its economy to begin to recover.
    Both entities, and the Central Government, have met the 
requirements for an IMF stand-by agreement as well as a World 
Bank structural adjustment loan, the first step to reintegrate 
Bosnia into international financial markets. In fact, there 
will be a Bosnia donor's conference beginning tomorrow, which I 
will be leaving for this afternoon.
    Since the beginning of the year, five indictees have 
voluntarily surrendered, and three have been captured by S4 and 
brought to The Hague Tribunal.
    This brings the total indictees brought to justice to 33, 
about 40 percent of the known indictees, including a number on 
The Hague Tribunal's most wanted list.
    As I have said, Milosevic is putting pressure on Dodik 
specifically to bring in hard line radicals and members of 
Karadzic's party into his Government to form a nationalist all-
Serb coalition. So far, Prime Minister Dodik has resisted.
    Our response is to continue to support legitimate freely 
elected leaders like Dodik, and Republika Srpska President 
Plavsic, and help them maintain independence from Belgrade. The 
assistance that the international community has provided for 
Plavsic and Dodik has created political space to follow 
pragmatic pro-Dayton policies.
    Progress in the Republika Srpska highlights some of the 
shortcomings on Dayton implementation in the Federation. The 
Bosniak leaders have been too hesitant to genuinely share 
power, and there continues to exist a strong hard line faction 
among the Bosnian Croats who oppose reintegration and actively 
undercut joint institutions.
    We continue to press both sides, and there is a consensus 
behind strong action by the High Representative against 
obstructionists.
    As I said, I am leaving tonight for the annual Bosnian 
donor's conference in Brussels. We expect new pledges of up to 
$1.1 billion for continuing the economic restructuring and 
reform of Bosnia. The United States will pledge $250 million in 
additional assistance for a whole range of economic 
democratization and police reform programs.
    Despite all that we have accomplished in Bosnia, there 
continues to be a strong need for donor assistance. We have 
made a tremendous amount of progress in Bosnia over the last 
year, but the gains we have made these past 2 years are 
unfortunately still reversible.
    On the refugee return front, we expect a major acceleration 
of minority returns this year. We are working with S4, the 
United Nations, international police task force, the U.N. High 
Commissioner for Refugees, and the High Representative, to 
foster better planning to prevent the type of violence we have 
seen in recent weeks in Drvar and Derventa.
    Perhaps most importantly, national elections will be 
conducted in Bosnia September 12 and 13 for virtually all 
elected officials at the national and entity levels. These 
elections provide the best opportunity to promote pluralism in 
Bosnia and help bring new leaders to power.
    While much progress has been made, there is still a great 
deal of work ahead of us to ensure the gains are consolidated. 
The international community will forge ahead with civilian 
implementation efforts and will continue to support the active 
use of the High Representative's authority to impose decisions 
on key issues when the parties cannot or will not agree.
    Similarly, S4's mandate will be extended by NATO to ensure 
that implementation can continue to move ahead in a stable and 
secure environment. S4 has provided critical support to all 
these implementation efforts, and a precipitous withdrawal 
could well threaten all of this positive momentum.
    We are working with NATO to develop benchmarks and criteria 
by which to measure the success and completion of S4's mission, 
and will conduct periodic reviews of progress designed to 
ensure that troop levels continue to reflect the threat on the 
ground.
    As you can see, we have come a long way in Bosnia since 
last July. We cannot, therefore, allow the situation in Kosovo 
to unravel further, jeopardizing not only what we have 
accomplished in Bosnia, but the security of the entire region.
    We are engaged in a vigorous diplomatic effort on the 
Kosovo issue to get the two sides to the table, and we will 
continue to up the pressure if Belgrade refuses to engage.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Gelbard follows:]
                Prepared Statement of Robert S. Gelbard
    Mr. Chairman, it is a pleasure to have this opportunity to appear 
before the subcommittee again. A great deal of progress has been made 
in Bosnia since I appeared last July which I would like to outline 
briefly for you before I conclude my remarks today. We also now are 
faced with the outbreak of violence in Kosovo which has the potential, 
if allowed to spiral out of control, to threaten stability not just in 
the Federal Republic of Yugoslavia, but in the region as a whole. I 
will focus the bulk of my remarks this afternoon on developments in 
Kosovo and our bilateral and multi-lateral efforts to stop the violence 
and get dialogue on a political solution for Kosovo started. Our 
interests in achieving these goals quickly are based not only on our 
concern for the people of Kosovo, but on the impact on the surrounding 
regions and the need to ensure that our substantial investment in the 
Bosnian Peace Process is not threatened by renewed inter-ethnic 
violence in the Federal Republic of Yugoslavia (FRY).
Kosovo--Deteriorating Security Situation
    We remain deeply concerned about the situation in Kosovo and the 
potential for further violence there. The escalating conflict threatens 
wider regional stability. Albania--which only recently returned from 
the brink of anarchy--and the Former Yugoslav Republic of Macedonia 
(FYR Macedonia) are particularly vulnerable. The United States and 
other members of the international community have made a significant 
investment in the stability of South-Central Europe. And, we are 
determined to see that these efforts succeed. Securing a political 
solution to the problem of Kosovo is a fundamental objective of U.S. 
policy toward the region.
    Since the outbreak of serious violence in February, the level of 
tension, inter-ethnic hostility, and arms in the province of Kosovo 
have continued to rise. In late February, in retaliation for an ambush 
of Serb police by individuals believed to belong to the so-called 
``Kosovo Liberation Army,'' UCK-Albanian--an attack which left a number 
of police dead--ill-prepared, unprofessional Serb police retaliated 
immediately, attacking a village where the perpetrators were believed 
to live. They essentially went on a rampage, killing entire families in 
the Drenica region. Rather than attempt to locate and arrest the 
perpetrators of the ambush, Serb Special Police--paramilitaries--then 
were sent in to reinforce the local police with 20-millimeter cannon. 
The operation, supported by attack helicopters and heavy weapons, 
lasted for a day and resulted in the massacre of some 80 people, mostly 
non-combatants. Though the Serb and FRY Governments describe this as a 
``police action,'' no democratic country in the world would allow this 
kind of behavior by police to go unpunished.
    Since that time, there has been no attack of the same scale, but 
the Belgrade government has tripled the number of special police--
essentially paramilitary units--deployed to Kosovo and has recently 
deployed Yugoslav Army (VJ) infantry, armor and artillery units, in 
depth, on the borders and to key hot spots in the interior. This is a 
substantial escalation in light of the signal it sends: that Belgrade 
is prepared to use the full force of the military against its own 
citizens.
    The deployments on the border with Albania are particularly 
troubling. We recognize the right of all nations to protect their 
borders. That said, it is hard to reconcile Belgrade's stated desire to 
prevent or stop cross-border smuggling of weapons--most of which is 
reportedly carried out by small groups of men through remote mountain 
passes--with the large-scale deployment of tanks and artillery to the 
border. This type of force is incompatible with the mission. Moreover, 
the Ministry of Foreign Affairs in Belgrade has issued a threatening 
public statement accusing the government of Albania of conspiring to 
undermine the territorial integrity of the Federal Republic of 
Yugoslavia.
    We, along with our Contact Group partners, have made clear to 
Belgrade that we consider this a dangerous provocation, and warned the 
government in no uncertain terms against staging any cross-border 
operations into Albania or FYR Macedonia. In response to Belgrade's use 
of excessive force, and the lack of movement toward unconditional 
dialogue, the U.N. Security Council adopted March 31, an arms embargo 
against the FRY, blocking planned arms purchases by Belgrade. This 
embargo also prohibits the sale or provision of weapons or training for 
groups engaged in terrorist activities. Responsibility for enforcement 
lies with neighboring states and arms-exporting countries. The United 
States opposes introduction of further weapons into the region, either 
to Belgrade or to extremist groups, as increased violence will only 
make it more difficult to bring about negotiations and a political 
solution to the already bitter dispute over Kosovo's status.
    Even in the face of provocation, however, governments have a 
greater responsibility for ensuring that the rule of law is respected 
and the rights of its citizens protected than armed extremist groups. 
Belgrade's failure to uphold that responsibility has made Kosovo an 
international problem, and we and our allies have no intention of 
standing by and ignoring continued repression and escalation of 
violence into war.
Belgrade's Tactics Produce Increased Radicalization
    Despite repeated warnings by the United States, our Contact Group 
partners, the European Union and many others, Belgrade so far has 
blocked unconditional dialogue. Instead, internal security forces have 
been reinforced in ways that compound the sense of intimidation and 
insecurity on the part of the local Kosovar Albanian community. The 
violent activities of the Kosovo Liberation Army have heightened 
insecurity among Serbs, and the heavy-handed Belgrade resort to force 
rather than dialogue is producing increased radicalization. This trend 
will only serve to weaken, and ultimately undermine, the moderate 
Kosovar Albanian leadership, led by Dr. Ibrahim Rugova--which 
traditionally has advocated non-violent, political solutions.
    Meanwhile, the Kosovo Liberation Army--or the ``UCK'' as it is 
known in the region--has continued to carry out attacks against police 
and clearly is trying to arm itself and improve its capabilities. 
Belgrade's brutal tactics also have helped this formerly unknown group 
gain world-wide notoriety, and find an increasingly sympathetic 
audience in Kosovo, among the Albanian Diaspora in Europe and the 
United States, and among radical groups from Iran to Chechnya looking 
to make inroads into Europe.
    I want to be very clear. Extremists on both sides are the only ones 
who will gain by a delay in getting dialogue started. The violence will 
increase, and the chances for finding a peaceful solution will slip 
away. The big losers will be the citizens of Kosovo and the FRY in 
general. Support for radicals will increase the likelihood for an even 
more violent crack down by Belgrade. Such a response will produce still 
further radicalization, and the ``UCK'' eventually will transform 
itself into a full-fledged insurgency. Those who argue ``the worse, the 
better'' are profoundly mistaken. Neither the Kosovar Albanians, the 
Serb people, nor the international community can afford another war in 
the Balkans. For that reason, the United States condemns the resort to 
violence by either side--Kosovar Albanian extremists or Serb 
paramilitary police--to seek to resolve the Kosovo question by force.
Urgent Need for Dialogue
    We continue to believe that the problems of the region can only be 
resolved through unconditional dialogue. Together with our Contact 
Group partners, the European Union and others, the United States has 
taken steps to increase the pressure on Belgrade to engage the Kosovar 
Albanian leadership in negotiations. Starting with the Contact Group 
Ministerial March 9, in London, the U.S. has led international action 
to impose new punitive measures against Belgrade, already under the 
outer wall of sanctions, as a means of creating greater pressure on the 
FRY government to negotiate. These sanctions--which included a ban on 
government financing for investment or privatization, a financial asset 
freeze, denial of visas for government officials responsible for the 
violence as well as the arms embargo--are aimed to move Belgrade in the 
right direction by denying the FRY and Serbian governments badly-needed 
infusions of foreign capital which have been keeping the economy 
afloat. If Belgrade continues to block negotiations, as agreed at Rome, 
Contact Group countries other than Russia will take action to ban all 
new investment in Serbia.
No Support for Independence
    The position of the United States has not changed. We oppose 
independence for Kosovo. Further atomization will not contribute to 
regional peace and security. Neither can we accept a continuation of 
the status quo. The Kosovar Albanians are denied the basic human rights 
and political freedoms that are the foundation of a stable democracy. 
Between these two extremes, however, we believe there are wide range of 
possibilities which can only be developed and articulated through 
dialogue. We firmly support an enhanced status for Kosovo within the 
FRY that would provide for meaningful self-administration. How this is 
done is for the parties to decide.
    In all of the repeated calls for dialogue, the international 
community has made clear that it is not seeking to impose any 
particular outcome in negotiations. The future of Kosovo is for the 
parties themselves to determine. Neither side should be asked to 
abandon their positions in advance of talks.
    Although the ultimate responsibility for improving the situation in 
Kosovo lies with authorities in Belgrade and the leadership of the 
Kosovar Albanian community, there is a significant role for the 
international community to play as well. The gap between the two sides 
is both wide and deep. The trail is littered with shattered promises 
and broken commitments. In Rome, April 29, the United States and the 
other Contact Group countries urged the two sides to adopt a framework 
for dialogue, and endorsed a stabilization package that we believe 
could help jump-start negotiations if the parties agree to participate.
    The framework we have proposed is based on fundamental principles 
that the parties must accept, including the rejection of violence as a 
tool for achieving political goals, and international involvement in 
talks to overcome mistrust and ensure realistic prospects for success. 
The stabilization package--a series of measures and steps designed to 
reduce tensions and build confidence between the two sides--must 
include, at a minimum, the return of the OSCE missions of long duration 
to the FRY, including in Kosovo, the cessation of repression by the 
authorities in Belgrade, and a strong condemnation of violence and 
terrorism by the Kosovar Albanian leadership. If President Milosevic 
begins this process, we are prepared to work closely with him to begin 
the process of reintegrating the FRY into international organizations 
and institutions. The agreement to begin talking--and concrete progress 
on key stabilization measures--are the only clear evidence we can 
accept that Belgrade is serious about reaching a political outcome.
    Authorities in Belgrade, particularly President Milosevic, must 
understand that there is no alternative to negotiations. The FRY 
remains isolated from the international community--it is not a member 
of any international organization, it does not have access to 
international financial institutions, and it does not have normal 
relations with the United States. As a result of this isolation, and of 
extremely bad economic policies, the Serbian economy is in rapid 
decline. The Dinar has been devalued, GDP has fallen precipitously, and 
the FRY's international balance of payment debt has skyrocketed.
    The FRY's status--and unfortunately the economic woes of the 
Serbian people--will not change until Belgrade has made significant 
progress in addressing the legitimate grievances of the Kosovar 
Albanian community. The situation in Kosovo is a central element of the 
Outer Wall of sanctions against the FRY. In addition, the economic 
measures adopted by the international community in response to the 
latest outrages in Kosovo will only increase the pressure on this very 
troubled economy.
    I should note here that we have been careful to exempt Montenegro 
from these new restrictions. The election of the reform-minded Milo 
Djukanovic as president of Montenegro is one of the most encouraging 
developments in the FRY. President Djukanovic--who was recently in the 
United States on a very successful visit to Washington and New York--is 
committed to democratic and economic reforms that could serve as a 
model for the FRY. President Djukanovic currently faces extreme 
political pressure from President Milosevic's government, however, to 
fall in line with Belgrade's policies.
    Elsewhere within the FRY and the region, Belgrade has adopted a 
hard, nationalist line. The recent alliance between President 
Milosevic's party and the ultra-nationalist radical Vojislav Seselj 
within Serbia has already produced increased intimidation of 
independent media.
    At the same time, in contrast to his earlier support for moderates 
in Republika Srpska, President Milosevic has made moves in recent weeks 
to undermine the Republika Srpska Government led by Milorad Dodik--a 
blatant attempt, in our view, to distract the international community 
from the Kosovo situation.
    We and our allies have made extremely clear, through words and 
actions, that the situation in Kosovo must be resolved and that 
meddling in Bosnia is unacceptable. We are determined not just to 
maintain the substantial progress made in Bosnia, but to expand on it, 
particularly within the Federation, where progress is lagging. We also 
will hold Croatia to its obligations, including for return of refugees 
and displaced persons.
Bosnia--A Good News Story
    Now for the Good News: Bosnia. If anyone had told me last July that 
I would be able to say that in less than a year, I would not have 
believed it. But we continue to see good progress on Dayton Peace 
implementation in Bosnia.
    The election of Prime Minister Dodik in the Republika Sipska (RS) 
and the more active use of the High Representative's powers are paying 
dividends. Recently, there have been a number of breakthroughs. These 
include:
  <bullet> Freedom of movement has dramatically expanded--individual 
        Bosnians can and do routinely travel between the entities, the 
        new non-descript common license plates that are currently being 
        issued will further this trend.
  <bullet> RS Prime Minister Dodik and Federation Prime Minister 
        Bicakcic recently signed an agreement to reintegrate Bosnia's 
        rail system--a step which will bring substantial benefits to 
        the Bosnian economy.
  <bullet> The Bosnian economy continues to recover and grow, 
        especially in the Federation and given the political changes in 
        the Republika Srpska, its economy will now also begin to 
        recover.
  <bullet> Both Entities and the Central Government. have met the 
        requirements for an IMF standby loan, as well as a World Bank 
        Structural Adjustment Loan. These eventually will amount to 
        over $100 million dollars in assistance to Bosnia and 
        Herzegovina, which will spur necessary economic reform and 
        economic growth. Most importantly, it is the first step to 
        reintegrate Bosnia into the international financial markets.
  <bullet> We also continue to make progress on bringing war crimes 
        indictees to justice. Since the beginning of the year 5 
        indictees have voluntarily surrendered and 3 have been captured 
        by SFOR. This brings the total indictees brought to justice to 
        33, about 40 percent of the known indictees, including a number 
        on the Hague Tribunal's most wanted list.
    As I said, Milosevic is putting pressure on Dodik, specifically to 
bring in hardline radicals and members of Karadzic's party into his 
government, to form a nationalist, all-Serb coalition. So far, Dodik 
has resisted.
    Our response is to continue to support legitimate, freely-elected 
leaders like Dodik and RS President Plavsic and help them maintain 
independence from Belgrade. The assistance that the international 
community has provided for Plavsic and Prime Minister Dodik has created 
political space to follow pragmatic, pro-Dayton policies. For instance, 
Dodik recently de-linked the RS from the FRY Dinar, insulating the RS 
from further economic decline and devaluation in the FRY. This action 
has the concomitant effect of strengthening local support for the new 
Bosnian currency, and economic maturity.
    Progress in the RS highlights some of the shortcomings on Dayton 
implementation in the Federation. The Bosniak leaders have been to 
hesitant to genuinely share power and there continues to exist a strong 
hardline faction within the Bosnian Croats who oppose reintegration and 
actively undercut joint institutions. Over the past several months the 
international community has increasingly turned its attention to the 
Federation. There is a consensus behind strong action by the High 
Representatives against obstructionists. A recent meeting of the 
Federation Forum (under the guidance of the United States and the 
Office of the High Representative) agreed on a process for dismantling 
the illegal war-time shadow institutions and fostering the 
reintegration of the divided city of Mostar.
Dayton Implementation: Next Steps
    I am leaving tonight for the annual Bosnia Donors' Conference in 
Brussels. We expect new pledges of $1.1 billion for continuing the 
economic restructuring and reform of Bosnia. The U.S. will pledge $250 
million in additional assistance for a whole range of economic, 
democratization and police reform programs, among others. Despite all 
that we have accomplished in Bosnia, there continues to be a strong 
need for donor assistance. We have made a tremendous amount of progress 
in Bosnia, but the gains we have made these past two years are 
unfortunately still reversible. To disengage prematurely either 
militarily or economically would jeopardize our substantial investment 
in peace and stability in Bosnia and the region. It is critical that 
Bosnia begin to stand on its own as quickly as possible, and we have 
developed criteria and benchmarks for a self-sustaining Bosnian economy 
which include elements common to the other transitional economies of 
Central Europe, plus a heavy focus on reconstruction required by 
Bosnia's unique war-time destruction.
    On the refugee return front, we expect a major acceleration of 
minority returns this year. We are working with SFOR, the UN 
International Police Task Force, the UN High Commissioner for Refugees, 
and OHR, to foster better planning to prevent the type of violence we 
saw in Drvar and Derventa. Perhaps most importantly, national elections 
will be conducted in Bosnia September 12-13 for virtually all elected 
officials at the National and Entity levels. These elections provide 
the best opportunity to promote pluralism in Bosnia and help bring new 
leaders to power. We are working actively toward that goal--through 
support for independent media, opposition parties, and grassroots NGOs. 
It is clear that many of Bosnia's current leaders are not working 
effectively in the interests of the Bosnian people--they remain 
entrenched, too focused on the past and on personal power to make the 
comprises necessary to achieve a lasting peace.
    While much progress has been made, there is still a great deal of 
work ahead of us to ensure the gains are consolidated. The 
international community--in the form of the Peace Implementation 
Council (PIC) and NATO--will effectively set the agenda for the next 
year in a series of meetings in May and June. The PIC Steering Board 
Ministers--representing all of the major donors to Bosnia--will meet in 
early June, to review implementation progress this year and set agenda 
for remainder of 1998. We will continue to support the active of use of 
the High Representative's authority to impose decisions on key issues 
when the parties can't or won't agree.
    Similarly, SFOR's mandate will be extended by NATO to ensure that 
implementation can continue to move forward in a stable and secure 
environment. SFOR has provided critical support to all of these 
implementation efforts and a precipitous withdrawal could well threaten 
all of this positive momentum. We are working with NATO to develop 
benchmarks and criteria by which to measure the success and completion 
of SFOR's mission, and will conduct six-month reviews of progress. This 
type of dynamic review process was designed to ensure that troop levels 
and composition continue to reflect the threat on the ground, and that 
they can be reduced over time as porgies is made.
    As you can see, we have come a long way since last July. We cannot 
allow the situation to unravel further, or to threaten what we have 
accomplished in Bosnia. We are engaged in a vigorous diplomatic effort 
on the Kosovo issue to get the two sides to the table, and we will 
continue to up the pressure if Belgrade refuses to engage.
    Thank you.

    Senator Smith. Thank you, Mr. Ambassador. I have a 
statement provided to the subcommittee from Senator Robert 
Dole, former Majority Leader. If there is no objection, I will 
include it in the record.
    [The prepared statement of Senator Dole follows:]
                 Prepared Statement of Senator Bob Dole
    Mr. Chairman:
    I am sorry that I cannot be with you today to discuss the most 
pressing crisis in Europe today: the dangerous escalation of violence 
in Kosova. However, I hope that you will be able to consider the 
following observations during your deliberations on this grave matter.
    First, I must say that I cannot help but feel a strong sense of 
deja-vu at this moment. Nine years ago, Slobodan Milosovic in a bid to 
increase his power and authority, whipped up nationalist sentiments 
among Serba and placed Kosova under martial law. Soon after, Slobodan 
Milosevic began orchestrating violent attacks in Croatia which were 
followed by war against Slovenia, Croatia and Bosnia-Herzegovina. As 
the crisis was developing into a full-blown conflict, there was a great 
deal of talk among diplomats and leaders about how the situation should 
be ``contained.'' However, all this talk was not matched by action, and 
the consequences speak for themselves: a quarter of a million people 
dead, two and a half million displaced, and a fragile peace secured by 
a multi-billion dollar peacekeeping effort. As Chairman of the 
International Commission on Missing Person, I have seen the horrors of 
war in Bosnia and Croatia up close. There are still at least 20,000 
persons registered as missing--most of whom will be found in mass 
graves which are in the process of being exhumed. I recently returned 
from Bosnia where I visited mass graves with the remains of men, women 
and children.
    And so today, I am once again gravely concerned that while Western 
policy makers discuss the dangers of a new war in the Balkans, that war 
is already beginning. In recent weeks, President Slobodan Milosevic has 
dispatched thousands of troops to Kosova, where they have literally dug 
in to continue their terror campaign against the region's ethic 
Albanian population. Just this weekend, more civilians, including women 
and children, were killed in attacks led by Serbian forces.
    This is disturbing not only on its face, but also in that it 
provides demonstrable proof of the woeful inadequacy of the Contact 
Group's response to the crisis. In recent weeks, the Group has met 
three times to discuss Kosova, but it has yet to formulate a policy 
that will deter Milosevic in achieving his goals for the region. Yes, 
the Group agreed to immediately freeze Yugoslav assets and 
international investments in the near future, but that does not 
constitute a policy. Moreover, the demands made of Milosevic fall far 
short, namely his acceptance of international mediation. At the very 
minimum, the United States and the West must demand that the ethnic 
Albanians be provided full civil and human rights, and the ability to 
rule themselves--ideally in accordance with international law and as a 
full republic.
    Mr. Chairman, the developments in Kosova should come as no 
surprise. When the international community had the opportunity to try 
to resolve the unacceptable status of this ethnic Albanian majority 
entity, it did not. Before Dayton, during Dayton and after Dayton, 
American and European leaders refused to come to grips with this 
problem. As a result, the situation was not resolved--only deferred.
    Let us be clear, Milosevic's goals have not changed. He intends to 
achieve in Kosova precisely what he has achieved in Kosova. He seeks 
absolute control, and he intends to purge at least part of the land of 
its non-Serb population. The two million ethnic Albanians in Kosova 
understand this. They have lived under police-state conditions for a 
decade. Now they are in mortal fear that Milosevic's final onslaught 
has begun. Without Western support, they will have no choice but to 
defend themselves. Indeed, we should not be shocked that support for 
the terrorist group KLA is increasing among this vulnerable population.
    In my view, the United States must lead the European powers to 
support a credible threat of force. Warnings, asset-freezes, and other 
punitive economic measures are steps in the right direction--but as we 
saw in Bosnia, they are clearly not enough to stop Milosevic and his 
military and police.
    Under Presidents flush and Clinton, the United States issued the 
so-called ``Christmas warning'' which reflected a clear understanding 
that the credible threat of force may be necessary to prevent the 
escalation of a conflict in Kosova to a wider war involving neighboring 
countries in the region.
    Rather than retreating, this ``Christmas warning'' should be 
reiterated immediately and publicly by President Clinton himself and 
our allies should articulate publicly their support. Of course, this 
will require our allies to take a longer term view and set aside their 
short term business aspirations. Leaders in France, Britain, Germany, 
in particular, will need to recognize that time and time again over the 
past eight years, Milosevic has demonstrated that he respects only one 
thing: force.
    Let us not fool ourselves negotiations not backed by the credible 
use of force will not produce anything but more empty promises. The 
Dayton settlement would never have been possible had the U.S. Congress 
not voted overwhelmingly to lift the U.S. arms embargo and had the 
Clinton administration not followed with NATO air strikes. Indeed, 
perhaps a better and more comprehensive settlement would have been 
achieved had NATO's air strikes been more decisive.
    Strong U.S. leadership and resolute Western action are the only 
answer to this crisis. The horrors of Bosnia provide an indelible 
indication of what is in store for Kosova--and us in the West--if we 
fail to act now. Politically, economically and morally, we cannot 
afford to fail.

    Senator Smith. Mr. Ambassador, before we hear from Senator 
Biden, I must ask you, is there a Christmas warning that is a 
policy of this Government, and are there any steps being taken 
to implement that warning?
    Ambassador Gelbard. The United States continues to work on 
all possible options that are available regarding our desire to 
find a peaceful solution in Kosovo. All options are on the 
table and available. We have not ruled anything out. President 
Milosevic is well aware of that.
    Senator Smith. It seems to me history shows Mr. Milosevic 
will respond to force, and that force used early may well 
prevent a great deal of difficulty later, as we have learned in 
Bosnia. I just wonder if perhaps we ought to be more visible 
with preparations backing up a Christmas warning.
    Ambassador Gelbard. Well, first, President Milosevic and 
his Government I think are very well aware of U.S. Government 
policy overall on all these issues and, as I said, we continue 
to be prepared to exercise every avenue possible to try to find 
a way to get a peaceful solution.
    I fully agree with what you said in your opening statement, 
Mr. Chairman, about the way this appalling situation has 
escalated. In my frequent visits to Belgrade and to Preshyna 
over the last several months I have been trying and 
representatives of other Governments have been trying to make 
every effort to bring the two sides together. We are continuing 
to do so, and we continue to try to find every way possible to 
get this to happen.
    There are some sensitive aspects to U.S. policy, and I 
would be happy to talk with you and other Members of the Senate 
privately about some of these.
    Senator Smith. I appreciate that. It is not U.S. policy to 
support the creation of a Kosovo State, opening up many 
boundary issues all around, I suppose, if we were to do so, but 
are there some conditions where, if this gets out of control 
and there is territory occupied, at what point would we be 
prepared to recognize Kosovo as a State?
    Ambassador Gelbard. As I said in my statement, Mr. 
Chairman, we feel that independence should not be an option. 
There has been too much fragmentation already. We worry about 
further fragmentation that could occur if this were to happen, 
and based on the fundamental principles of the U.N. Charter, 
the OSCE Charter, and other documents, we accept and support 
the territorial integrity of Yugoslavia.
    We also expect Yugoslavia to support the territorial 
integrity of their neighbors, including the former Yugoslav 
Republic of Macedonia and Albania.
    What we feel has to be accomplished is, with real urgency, 
the two sides have to drop any kind of preconditions, and they 
have to be in a position where there are no conditions for 
dialog.
    Obviously, in terms of any talks, they are free to state 
any positions they have and, of course, Belgrade has stated 
repeatedly that they feel a solution has to be inside of 
Serbia. Dr. Rugova has said it has to be--he is talking about 
independence. That is part of a negotiation.
    We do not have a position as to a final outcome, except to 
say, as I mentioned in my statement, that we do not support the 
status quo, and we do not support independence, and I cannot 
envision accepting the idea of independence either.
    Now, what is truly worrisome are the increasing stories we 
are hearing that what Belgrade may have in mind is the idea of 
partition of Kosovo. That is something we would oppose too. 
That has a ring of ethnic cleansing to it, and this goes back 
to a story that came up in the late eighties, when the Yugoslav 
Academy of Sciences did a study in which they proposed such an 
outcome, and there are increasingly people, both in Yugoslavia 
and outside Yugoslavia who talk about this as something that 
Belgrade has in mind. I think that would prove to be an 
absolute disaster.
    Senator Smith. Thank you, Mr. Ambassador. I would invite 
you to talk with me privately, Senator Biden I am sure would 
also appreciate it, privately if necessary, as to whether or 
not there is a Christmas warning, if it is in effect, the 
policy of this Government, and what we are going to do about 
it. Senator Biden.
    Senator Biden. Thank you very much. It is good to see you 
here. I think the last time I saw you we were in Bosnia 
together, and you have done a great job, you really have.
    I was saying to the chairman, it is ironic that a witness 
would spend more time talking about Bosnia than this subject, 
because Bosnia is easier to deal with now than the other 
subject. That is progress.
    I want you to understand--and I am being a bit facetious, 
but it is interesting that in a bizarre way, that what are in 
my view part of Milosevic's tactic and strategy relates to the 
success we are having in Bosnia, but that is another question.
    Let me speak to Bosnia for a second, then get to Kosovo.
    You have personally, and the administration has generally, 
and I have specifically been pushing in every way we could in 
Bosnia to give nonnationalists of any stripe or denomination an 
equal chance of footing and opportunity to participate in the 
social and political and cultural life of a country still one 
entity, although it is divided into the Republic of Srpska and 
the Federation.
    I read with interest and some dismay--and I know this is 
not totally your all,by any stretch of the imagination--RFERL 
May 6 broadcast today, ``A spokesman for the OSCE, which is 
supervising the September general elections, said in Syria that 
only the new parliament will be able to change the rules for 
the election of the three-member joint presidency, RFERL South 
Slavic Service reported.
    ``Several NGO's and representatives of nonnationalist 
parties have suggested that the OSCE change the rules now so 
that each of the three is elected at large, and not just by one 
ethnic constituency. Recent polls suggest that such changes 
would sweep the current three members of the presidency from 
office and replace them with nonnationalists.''
    Why is that not a good idea?
    Ambassador Gelbard. I actually think it is a very good 
idea. We have, of course, striven to try to support multiparty 
democracy inside Bosnia between the entities inside the 
entities. The great irony right now, as you know, Senator, is 
that in the Republika Srpska we have a multiethnic coalition 
that is governing, led by Prime Minister Dodik.
    When I last met with him in Banjaluka, in fact, in the face 
of the threats that they have been receiving to try, as I 
mentioned in my statement, because of Belgrade's pressure to 
reform his coalition into what they call a Government of Serb 
unity, he has maintained firmness, and he has a significant 
group of Bosniak members of his coalition as well as Croats.
    We are continuing, through NGO's, particularly the National 
Democratic Institute, to help train political parties, and I 
have got to say, of course, Prime Minister Dodik's party was 
one of the ones, as well as President Plavsic's party, that 
have received campaign help, and we are going to continue to do 
that among all the various groups.
    One of the really interesting pieces of good news I have 
seen is that there are multiethnic coalitions coalescing now in 
the Federation as well as in Republika Srpska leading toward 
the September election. We want to support that, and I have 
been very pleased that High Representative Westendorp has been 
actively supporting this, too.
    Senator Biden. Well, that is a great answer, but a 
nonanswer.
    Ambassador Gelbard. I was going to get to that.
    Senator Biden. I agree with everything you said, but----
    Ambassador Gelbard. Obviously, because this is today's 
news, I have not seen this, but I will be in Brussels tomorrow. 
I am sure the OSCE people will be there. I am going to be 
seeing Carlos Westendorp, and this is a subject I would like to 
raise with him.
    Senator Biden. I guess the question I have, Mr. Ambassador, 
I do not expect you to answer it now, but maybe you can answer 
it for the record, and that is, is there a legal impediment to 
having at-large elections rather than the way they are now 
slated for the presidency?
    There is, and I see your staff shaking his head there is.
    Ambassador Gelbard. Yes. As I thought, it is in Dayton they 
would be elected that way, and I think it is built into the 
constitution of Bosnia-Herzegovina, so it would, I think, 
require some kinds of significant parliamentary reaction, but 
what I will do is research this and get you an answer for the 
record.
    Senator Biden. Maybe your staff behind you, who seems to 
know the answer, can before he leaves come up and tell me, and 
I am not being facetious, because I am not sure. I do not know 
the answer to the question. I should know it. I do not know the 
answer to the question.
    But if there is any way, it would seem to me what an 
incredible positive signal it would send if the polling data is 
correct, that the body politic, including all--including 
Bosniaks, Croats, Serbs, all, a majority believed that, and 
that is a question I do not know the answer to. I am just 
reading you this one clip from the radio broadcast.
    It seems to me that would be certainly very strong evidence 
that your evidence are taking some root here if that was a 
consensus view of the citizens of Bosnia-Herzegovina. I do not 
know that it is. All I am reading you is this. So I would like 
to at some point return to that. I mean, after the hearing, 
return to that issue with you all, if I may.
    You also said that it is the administration's position that 
we are opposed to an independent Kosovo, yet you indicated that 
the idea of everything being on the table, including 
independence--and I assume that's what it means--in upcoming 
negotiations, in any negotiations, was basically a good thing. 
Is that correct?
    Ambassador Gelbard. Well, I think that is the essence of 
any negotiation, but what there cannot be--what there has been 
so far on the part of Belgrade has been preconditions 
established before they are willing to sit down at the table. 
Once people sit down at the table, obviously they can argue any 
position they want, but we cannot accept, we reject totally the 
idea that there would be any preconditions on either side 
before they sit down and start negotiating.
    Senator Biden. We are about to hear from a very 
distinguished former Congressperson, and a person who is at his 
present status is a spokesperson for Albanians in the diaspora, 
Albanian-Americans here, ostensibly others as well, and one of 
the things that I am going to ask him is what I would like to 
ask you now.
    There is a letter I received, and it asserts the following: 
The national question, which calls for the liberation of 
occupied Albanian lands, national identity, and self-
determination. Now, that sounds to me like a Greater Albania. 
If we start off with this as an assertion, that these are 
occupied Albanian lands, I am not sure where all this goes. 
Actually, I am fairly sure where it all goes.
    But have you had much contact, or has the administration 
had much contact with Albanians in Kosovo in terms of a sense 
of what their agenda is?
    Now, obviously, I take no back seat to anyone in terms of 
my speaking out and calling for the use of force against the 
atrocities of Milosevic. I have said to his face and I say 
again I think he is a war criminal. I have not the slightest 
bit of empathy, sympathy, or any positive--I see no social 
redeeming value to the man, and that is me, and I make no bones 
about it.
    But--but, I think Kosovo is a very different circumstance 
than Bosnia, very different circumstance, and so one of the 
things that I would like to know is, what is your assessment of 
the size, the capabilities, the resources, the organization of 
the UCK, and does the administration view it as the legitimate 
political bargaining unit, or does it view it as a terrorist 
organization, or what do you think of its political leaders?
    Do we have a formal position relative to--as opposed to--as 
opposed to the Democratic League for Kosovo?
    Ambassador Gelbard. First, we do not accept the idea of 
Greater Albania. We respect the territorial integrity, as I 
said earlier, of Yugoslavia, just as we do Albania and 
Macedonia.
    The elected leaders of Albania have said that they oppose 
independence for Kosovo, too, and they support the territorial 
integrity of Yugoslavia.
    We work with Dr. Ibrahim Rugova, with other democratically 
oriented Kosovar Albanian leaders, we have a wide range of 
contacts, including me, with people in Kosovo. I go there 
frequently. We have an embassy presence there through a USIA 
cultural center, and have had for quite some time, and there 
are people from the embassy who visit Pristina and other parts 
of Kosovo constantly, and I mean constantly.
    We feel that Dr. Rugova, as the person who has been elected 
by about 85 percent of the Kosovar Albanian population, is the 
legitimate representative of the Kosovar Albanian people. He 
has put together an advisory group of 15 people who represent a 
wide range of opinion. They do not necessarily--first they are 
not all part of his party and, second, they do not necessarily 
share his ideological beliefs, but they represent a good, 
strong cross-section of views within Kosovo.
    From that, he has formed a negotiating team which he says 
are prepared to negotiate with a team that President Milosevic 
designates.
    Senator Biden. Is the UCK represented on that negotiating 
team?
    Ambassador Gelbard. Not that I am aware of, unless there 
are people who have affiliations other than those which I 
believe they have.
    Senator Biden. To state the obvious, I mean, it is fairly 
transparent, my concern here, and that is, is the good doctor 
able, does he have the legitimacy----
    Ambassador Gelbard. Well, he does----
    Senator Biden.[continuing]. to negotiate or is this Kosovo 
Liberation Army, has that essentially usurped----
    Ambassador Gelbard. Senator, what has happened is, this 
group, which was very small and had a very small base of 
support, has now achieved significantly greater status within 
Kosovo and worldwide because the Yugoslav Government has 
handled this in the worst way imaginable.
    Everything we know about counterinsurgency theory, 
doctrine, policy, goes 180 degrees in the opposite direction 
from the way they have been handling this, whether it is 
militarily, politically economically, socially. The Government 
has played right into the hands of the UCK, and I have to 
wonder, in my pessimistic moods, whether there is some kind of 
intrinsic alliance between the two sides of wanting to polarize 
the situation and wanting to weaken the moderate leadership of 
Dr. Rugova and others inside Kosovo.
    But as a result of what has happened, particularly since 
February, I do believe that the UCK has received dramatically 
greater support both inside Kosovo and outside. We have seen a 
huge increase, in terms of people, weapons, and money flowing 
in, and the problem now is to create circumstances where we can 
have a serious, legitimate negotiation between the two sides to 
try to resolve this with urgency to achieve a serious political 
result.
    Senator Biden. Well, I, speaking only for myself--the 
chairman may have a different view. We have not discussed this. 
But as one who you know probably was the most consistent voice 
the last 5 years for us to intervene in Bosnia, I want to say 
to anybody who is listening if the UCK thinks that the move for 
independence is likely to find support here in the Congress I 
think they are making a tragic mistake, a tragic mistake.
    I may be wrong, but I think that to reinforce the point you 
made, that it seems like this is an unholy alliance to enhance 
the prospect that we do not do anything, that they cannot gain 
a consensus here in the Congress to support the administration 
efforts, because nobody I know of is talking about the 
independence of Kosovo as a separate entity, as part of a 
Greater Albania, and I just think that--again, I speak only for 
myself, but I think there is going to be a tragic strategic and 
tactical miscalculation to think that there would be any help.
    The one thing that is likely to allow those who do not even 
want to be involved anywhere in the Balkans to be able to say 
that this is a civil war of independence, and you will find 
everybody walk away here--I think. I could be dead wrong.
    Ambassador Gelbard. If I could just add a point to that, we 
also worry about the imitation effect this would have in 
Macedonia, too.
    Senator Biden. That is why everyone would walk away.
    Ambassador Gelbard. Twenty-three percent of the population 
in the former Yugoslav Republic of Macedonia are also ethnic 
Albanians, and there are some, including in the United States, 
who envision the idea of cutting off part of Macedonia along 
with Kosovo to create this kind of new country.
    This is a recipe for real regional instability.
    Senator Biden. Woodrow Wilson is dead, and his idea was not 
so hot in the first place.
    I just think--I really get a sinking sense, as this goes 
on, that the more people like me and the chairman and you and 
the President and others who speak up about the atrocities that 
are being waged by Milosevic in Belgrade, the more we may be--
and there is no alternative but to speak out against that, so I 
am not suggesting that be silenced.
    But I think some people are reading the wrong message from 
that, that that means that we believe that there should be an 
independent State of Kosovo, or some changed statutes as it 
relates to sovereignty within Yugoslavia, and it seems to--I 
just hope that message is not one that--I think it would be a 
misreading of our revulsion of Milosevic and his policies to 
conclude that those of us, speaking again for me, that I think 
that means there should be an independent State of Kosovo.
    I do think autonomy--I do think the status, 
predisintegration of the greater Yugoslavia, is important, and 
I do think we should participate in providing a fora, or at 
least indirectly through the Contact Group of bringing about a 
change in the behavior on the part of Belgrade, but I again 
suggest the one thing that will probably curtail any consensus 
on that effort would be if, in fact, the statement that I read 
was viewed as the policy, a national question which calls for 
the liberation of occupied Albanian lands, national identity, 
and self-determination.
    I do not have any further questions.
    Senator Smith. Thank you, Senator Biden.
    Mr. Ambassador, Senator D'Amato of New York had hoped to be 
with us to ask you a few questions. He is tied up in another 
hearing, but if there is no objection I will leave the record 
open and he will submit to you some written questions.
    Mr. Ambassador, we thank you. We appreciate your time and 
your work, and we will now call up our second panel. We 
recognize James Hooper with the Balkan Institute, John Fox with 
the Open Society Institute, and former Congressman Joseph 
DioGuardi with the Albanian-American Civic League.
    We would ask each witness to limit their opening statement 
to 5 or 10 minutes to allow time for questions.
    We welcome our second panel, and if the room can come to 
order, let's begin with Mr. Hooper. Sir, we thank you for 
coming and invite your statement.

 STATEMENT OF JAMES R. HOOPER, DIRECTOR, THE BALKAN INSTITUTE, 
                         WASHINGTON, DC

    Mr. Hooper. Senator, thank you very much. I appreciate the 
invitation. I am very glad to be here.
    The Serbian crackdown in Kosovo presents the United States 
with a Bosnia-like situation. Remain on the sidelines and watch 
ethnic cleansing unfold, or muster the political will to 
intervene early and forcefully to prevent escalation, genocide, 
and spillover to neighboring States that will destroy NATO's 
credibility and upset the Dayton Peace Accords.
    The level of political courage in Washington will determine 
the level of slaughter in the Balkans. Serbian strong man 
Slobodan Milosevic's troops have been attacking villages since 
late February in defiance of the Christmas warning. The 
credibility of the Christmas warning conveyed to Milosevic from 
President Bush in December 1992 and renewed in 1993 by then-
Secretary of State Warren Christopher on behalf of the Clinton 
administration has eroded.
    That very specific threat of force helped keep the peace in 
Kosovo for over 5 years, but Milosevic in February crossed the 
line that Bush and Clinton had drawn with impunity, if not with 
our blessing.
    A resolute U.S. policy has given a de facto green light 
that Milosevic has exploited with predictable effectiveness. 
The only thing that will stop him now is a credible threat of 
force by the President of the United States.
    Could President Clinton mobilize Congress, the American 
public, and the allies to support a tough conflict prevention 
strategy in Kosovo? Milosevic is betting that the President 
will not try and has calculated that in any case he would not 
succeed. Once again, Serbia confronts Washington with a 
defining moment in the Balkans.
    At stake is the belief in American power, purpose, and 
resolve to deal with the toughest postwar security problems in 
Europe, preventing genocidal conflict and spillover of local 
disputes into broader regional war, sustaining the credibility 
of NATO, and ensuring the continued implementation of the 
Dayton peace agreement in Bosnia.
    Clinton blamed Bush for inheriting Bosnia. You cannot blame 
Bush for Kosovo. Clinton administration officials conveniently 
suggested during the Bosnia conflict that crises are best 
nipped in the bud. In Kosovo, this is the bud. Confronting a 
population ratio of 9 to 1 in the Kosovar Albanians' favor, 
Milosevic has only two choices for altering the balance: Ethnic 
cleansing, and/or partition.
    The intensity of the conflict is escalating rapidly. Small-
scale ethnic cleansing, begun on President Bill Clinton's 
watch, also threatens to expand in the coming weeks. We will 
not have long to wait to determine whether nip-in-the-bud 
represents policy conviction or the basis for a new genocide 
apology.
    The administration's crisis approach represents four points 
of a political compass, rhetoric, economic sanctions, 
diplomacy, and wishful thinking. Navigating with this compass 
will steer the U.S. toward inevitable military involvement in a 
Balkan-wide conflict after it becomes too late to prevent 
conflict, and when our forces will have to shoot their way in 
rather than deploy peacefully.
    The consequences of a policy whose purpose is the avoidance 
of risk, engagement, and responsibility, rather than the 
deterrence of war, will be significantly greater risks, violent 
engagements, and burdensome responsibilities for resolving 
Kosovo, repairing NATO, and resuscitating Dayton.
    A forceful strategy, as outlined in the following 
proposals, will be needed to prevent conflict in Kosovo. The 
administration should:
    First, renew the Christmas warning threatening Milosevic 
with military intervention if he continues to crack down in 
Kosovo.
    Second, restore the credibility of the Christmas warning by 
disbanding the ineffective Contact Group and shifting the venue 
for U.S. leadership and actio to NATO. NATO engagement is 
critical.
    Third, establish a NATO no-fly zone over Kosovo as an 
immediate down-payment on a conflict prevention strategy.
    Fourth, deploy a NATO observer mission to Kosovo. This will 
relieve tensions there, undercut growing support for the Kosovo 
Liberation Army, and provide justification for Kosovo Albanians 
to engage in serious negotiations with Belgrade.
    Fifth, link the NATO observer mission to NATO mandates to 
take over the U.N. preventive deployment force in Macedonia and 
establish a similar force in Albania.
    Sixth, request that the War Crimes Tribunal in The Hague 
send the prosecutor immediately to Kosovo and Belgrade to 
stress that the tribunal will hold Serbian officials, beginning 
this time at the top, accountable for crimes against humanity 
committed in Kosovo.
    To show we mean business, NATO should apprehend indicted 
Bosnian Serb war criminal Radovan Karadzic immediately. The 
U.S. should also publicly call upon the tribunal to begin 
preparing an indictment of Milosevic for crimes against 
humanity in Bosnia.
    Seventh, appoint a special envoy of recognized public 
stature with responsibility only for Kosovo. This will reduce 
Milosevic's incentive to trade off cooperation in Bosnia for 
freedom of action in Kosovo and will give our diplomacy more 
leverage.
    Eighth, launch a major and sustained initiative to buildup 
Serbia's democratic forces, to establish democracy and civic 
society in Serbia. The root cause of our problems in the 
Balkans is the U.S. failure over the past decade to advance 
democracy in Serbia. It is time to make clear to everyone that 
Milosevic is the troublemaker, not the peacemaker of the 
Balkans, and so long as he is in power, the U.S. will be forced 
to repeatedly confront him.
    The conflict prevention proposals outlined above impose 
considerable burdens on policymakers for ideas and 
implementation, the Congress for support of the risks involved, 
and especially on the President for leadership.
    Better such risks and burdens in preventing conflict than 
dealing with the consequences of an action and an American 
political debate over who lost NATO.
    Thank you very much.
    [The prepared statement of Mr. Hooper follows:]
                 Prepared Statement of James R. Hooper
    The Serbian crack down in Kosovo presents the United States with a 
Bosnia-like situation: Remain on the sidelines and watch ethnic 
cleansing unfold. Or, muster the political will to intervene early and 
forcefully to prevent escalation, genocide and spill over to 
neighboring states that will destroy NATO's credibility and upset the 
Dayton peace accords.
    The level of political courage in Washington will determine the 
level of slaughter in the Balkans. Serbian strong man Slobodan 
Milosevic's troops have been attacking villages since late February, in 
defiance of the Christmas warning. The credibility of the Christmas 
warning--conveyed to Milosevic from President Bush in December 1992 and 
renewed in 1993 by then-Secretary of State Christopher on behalf of the 
Clinton administration--has eroded. That very specific threat of force 
helped keep the peace in Kosovo for over five years. But Milosevic in 
February crossed the line that Bush and Clinton had drawn, with 
impunity, if not our blessing. Irresolute U.S. policy has given a de 
facto green light that Milosevic has exploited with predictable 
effectiveness. The only thing that will stop him now is a credible 
threat of force by the President of the United States.
    Could President Clinton mobilize Congress, the American, public and 
the allies to support a tough conflict prevention strategy in Kosovo? 
Milosevic is betting that the president will not try, and has 
calculated that in any case he would not succeed once again, Serbia 
confronts Washington with a defining moment in the Balkans.
                         U.S. Stakes in Kosovo
    The stakes for the U.S. in this escalating crisis are self-evident 
and compelling. First, the credibility of an enlarging NATO is at risk. 
Ethnic cleansing in Kosovo and an expanding war in the Balkans will 
undermine the viability of the alliance just as surely as did U.S. 
inaction in Bosnia. Failure by the U.S. and its allies to prevent 
genocidal conflict in Kosovo will hollow out the alliance. The 
inevitable spill over of large-scale violence across the borders of 
neighboring states will shift NATO's focus to messy conflict 
containment, as Albania--no matter the wishes of its weak government--
is drawn into the fighting. Macedonia's delicate internal political 
balance will be disrupted with harmful regional consequences. Greece 
will find itself preoccupied with anticipating Turkey's response to the 
war. The policy risks of forceful U.S. conflict prevention pale in 
contrast to the burdens and dangers posed by battlefield ``facts'' 
being created by Belgrade.
    Second, it is wishful thinking to expect that the Dayton peace 
accords will somehow remain unaffected by the dynamic of conflict set 
in motion in Kosovo. If NATO fails to stay Milosevic's hand in Kosovo, 
he will be emboldened to up the ante in Bosnia. Tenuous reforms 
promoted by some Bosnian Serbs will immediately be jeopardized. If 
escalation in Kosovo occurs in conjunction with the September Bosnian 
elections, we can look forward to an electoral campaign that lights up 
the Balkan skyline with the fireworks of ultranationalist politicking.
    Third, genocidal conflict in Kosovo will likely reinforce the trend 
toward greater tolerance of intolerance that we see occurring 
throughout much of Europe. Growing extreme nationalist and neo-fascist 
political movements are steadily increasing their support, moving from 
the margins toward the political mainstream and becoming an 
increasingly worrisome minority in eastern Germany, France, Italy, 
Austria, Denmark, and some of the former communist states of East 
Central Europe. In Russia they have already entered the mainstream. 
This will increase the temptation for democratic political parties and 
governments to compromise with the anti-pluralist and anti-democratic 
agendas of the extreme nationalists, many of whom openly identify with 
Milosevic's policies and values.
    Fourth, Kosovo is a challenge to U.S. leadership and resolve. The 
Kosovo crisis tests the belief in American power, purpose and resolve 
to deal with the toughest post-Cold War security problems in Europe. 
Regrettably, until now the purpose of U.S. policy in Kosovo has been to 
avoid risk, forceful engagement and responsibility for the outcome. The 
United States needs to stop dithering and follow a conflict prevention 
strategy that will deter conflict.
                        Background to the Crisis
    The Serbs regard the province of Kosovo as the touchstone of their 
national identity. But 90 percent of Kosovo's neatly two million 
inhabitants are Kosovar Albanians and only ten percent are ethnic 
Serbs. Milosevic consolidated his power in Serbia in the 1980s through 
an ultranationalist appeal to restore Serb primacy in Kosovo. His first 
step toward destroying Yugoslavia was to remove Kosovo's status as an 
autonomous province in 1989. He did the same to the autonomous province 
of Vojvodina, which has a large population of ethnic Hungarians. This 
provided Serbia with two additional votes on the Yugoslav collective 
presidency and signaled at an early stage that Milosevic aimed to 
destroy pluralism in Yugoslavia. In Kosovo he redeemed his political 
promises by establishing martial law and removing the Kosovar 
Albanian's political, economic and educational rights.
    But he could not yet persuade Serbs to settle there.
    By 1992, with Serbia's war underway in Croatia and Bosnia, tensions 
were rising perceptibly in Kosovo. On Christmas Day in 1992, President 
Bush warned Milosevic, according to an authoritative New York Times 
article, ``In the event of conflict in Kosavo caused by Serbian action, 
the United States will be prepared to employ military force against the 
Serbs in Kosovo and in Serbia proper.'' Secretary of State Warren 
Christopher on behalf of the Clinton administration renewed the 
Christmas warning shortly after taking office one month later.
    For five years Washington's threat of force helped keep the peace 
in the volatile province. But Kosovar Albanians, who had been promised 
that the Dayton peace negotiations would address their concerns, were 
literally shut out of the 1995 peace talks. U.S negotiators, fearing 
that Milosevic would up the ante in Bosnia, succumbed to his demand 
that Kosovo remain off the table.
    The frustration felt by the Kosovar Albanians toward the West and 
some of their own leaders increased exponentially after Dayton. The 
Kosovo Albanians' elected president, Thrabim Rugova, found his 
leadership, assumptions about Western support, and advocacy of non-
violence increasingly questioned by students, journalists and other 
political figures. The first reports of a shadowy organization called 
the Kosovo Liberation Army, or KLA, moreover, date from the post-Dayton 
period. Belgrade's violent crack down against a number of Kosovar 
Albanian villages, beginning in late February, has significantly 
increased public sympathy for the KLA and projected the struggle as an 
insurgency that draws in ever-greater numbers of Serbian military 
troops as well as heavily-armed special police units reinforced by 
irregular paramilitaries led by veteran war criminals of the Bosnian 
and Croatian campaigns.
    Meanwhile, Milosevic continues to experience his own frustrations 
with a repressive status quo that has not improved the population ratio 
for the Serbs, who continue to resist settling in a province that is 
becoming steadily more volatile. Even homeless Serb refugees from 
Croatia and Bosnia, offered homes in Kosovo, have found the situation 
there so untenable that most of them depart shortly after arriving and 
advise their friends to shun Kosovo.
    To change the situation on the ground, Milosevic has two 
fundamental policy options: ethnic cleansing or parition. He has been 
rehearsing ethnic cleansing in Kosovo for the past two months, albeit 
on a small scale. Large-scale ethnic cleansing would lead to hundreds, 
then thousands, then perhaps tens of thousands of casualties and drive 
hundreds of thousands of Kosovar Albanians toward the nearest cross-
border sanctuaries in Albania, Macedonia and Montenegro.
    This century's history teaches that those who commit genocide once 
are likely to do it again, if permitted. Having already used ethnic 
cleansing to achieve the de facto partition of Bosnia, Milosevic has no 
compunctions about relying on it as a policy tool in Kosovo. That is 
why all eyes now turn to Washington look to the U.S. for leadership in 
preventing conflict. Balkan moderates understand that only the U.S. can 
constrain Belgrade from using genocidal force and provide realistic 
alternatives that could draw support from the advocates of violence.
    Milosevic sees Washington as the only potential impediment to 
achieving his objectives. That is why he has devoted such effort to 
sowing discord among the allies and enlisting the support of Moscow. 
While using Serbian troops to erase the red line that the U.S. drew 
with the Christmas warning, he has focused the political discourse on 
side issues: snookering Western diplomats into depicting his actions as 
an effort to subdue KLA ``terrorists,'' obtaining an international 
consensus that Kosovo is an ``internal issue,'' engaging the Contact 
Group in counterproductive debate over imposition of irrelevant 
economic sanctions, and implying that Western resistance to his aims in 
Kosovo will tempt him to cause more trouble in Bosnia. NATO inaction 
allows Milosevic to define the issues and lends credence to the belief 
that the U.S. has given him the green light for conflict.
                            Policy Proposals
    A forceful strategy, as outlined in the following proposals, will 
be needed to prevent conflict in Kosovo. The Clinton administration 
should:
1. Renew the Christmas warning, threatening Milosevic with U.S. 
        military intervention if he continues the crack down in Kosovo.
2. Restore the credibility of the Christmas warning by disbanding the 
        ineffective Contact Group and shifting the venue for U.S. 
        leadership and action to NATO. NATO engagement is critical.
3. Establish a NATO no-fly zone over Kosovo, as an immediate down 
        payment on a conflict prevention strategy.
4. Deploy a NATO observer mission to Kosovo. This will relieve tensions 
        there, undercut growing support for the Kosovo Liberation Army, 
        and provide the justification for Kosovar Albanians to engage 
        in serious negotiations with Belgrade,
5. Link the NATO observer mission to NATO mandates to take over the 
        UNPREDEP role in Macedonia and establish a force in Albania.
6. Request that the War Crimes Tribunal in The Hague send the 
        Prosecutor immediately to Kosovo and Belgrade to stress that 
        the tribunal will hold Serbian officials--beginning this time 
        at the very top--accountable for crimes against humanity 
        committed in Kosovo. To show we mean business, NATO should 
        apprehend indicted Bosnian Serb war criminal Radovan Karadzic 
        immediately. The U.S. should also publicly call upon the 
        tribunal to begin preparing an indictment of Milosevi for 
        crimes against humanity in Bosnia.
7. Appoint a special envoy of recognized public stature with 
        responsibility only for Kosovo. This will also reduce 
        Milosevic's incentive to trade off ``cooperation'' in Bosnia 
        for freedom of action in Kosovo and will give our diplomacy 
        more leverage
    8. Launch a major and sustained initiative to build up Serbia's 
democratic forces to establish democracy and civic society in Serbia. 
The root cause of our problems in the Balkans is the U.S failure over 
the past decade to advance democracy in Serbia. It is time to make 
clear to everyone that Milosevic is the troublemaker, not the 
peacemaker, of the Balkans, and so long as he is in power, the U.S. 
will be forced to repeatedly confront him.
    The conflict prevention proposals outlined above impose 
considerable burdens on policymakers for ideas and implementation, the 
Congress for support of the risks involved, and especially on the 
president for leadership. Better such risks and burdens than dealing 
with the consequences of inaction and an American political debate over 
who lost NATO.

    Senator Smith. Thank you very much, Mr. Hooper. Mr. Fox.

   STATEMENT OF JOHN FOX, DIRECTOR, WASHINGTON OFFICE, OPEN 
               SOCIETY INSTITUTE, WASHINGTON, DC

    Mr. Fox. Thank you, Mr. Chairman, Senator Biden. Thank you 
for the opportunity to speak here today.
    On his trip to the Balkans 6 weeks ago, Deputy Secretary of 
State Strobe Talbott offered a stark description of what is at 
stake for the West in the Kosovo crisis. ``The dangerous 
situation in Kosovo,'' he said, ``constitutes a dire threat to 
regional stability, and therefore it poses a threat to the 
vital interest of the United States.''
    Mr. Talbott went further: ``Kosovo could yet turn out to be 
the most explosive of all the powder kegs in this part of 
Europe. If Kosovo truly blows, it could be even worse than 
Bosnia, with the risk of war spreading in all directions, 
including south and east.
    ``The dire emergency there is directly related to the peace 
of Europe as a whole, and the implications are potentially 
disastrous.''
    The challenge to the international community, the Deputy 
Secretary said, is, ``to prevent the brutal policies of 
Belgrade from triggering a forth Balkan war in this century.''
    A strikingly similar assessment of U.S. national interests 
in Kosovo was rendered by both the Bush administration and by 
the first Clinton administration. More importantly, this 
strategic calculation was then backed by the credible threat of 
force.
    I would like to quote for the committee a portion of the 
``Christmas warning'' letter that President Bush sent to 
Slobodan Milosevic and to the Belgrade military leadership in 
December 1992. This letter was authoritatively leaked to the 
press at the time:
    ``In the event of the conflict in Kosovo caused by Serbian 
action, the United States will be prepared to employ military 
force against the Serbians in Kosovo and in Serbia proper.''
    Senior administration officials stated that this force 
would consist of air power, including strikes at Serbian air 
bases, supply lines and other military installations. The 
Christmas warning established a unilateral red line that 
Belgrade did not cross until this year, in fact, after American 
deterrence had been unaccountably let go by the second Clinton 
administration.
    What is the administration relying on instead of credible 
force to back its diplomacy now that the Kosovo powder keg has 
begun to blow? Rather than unilateral Christmas warnings, the 
U.S. has been part of setting new lows and lowest common 
denominator diplomacy through the six-nation Contact Group.
    The vital interests of the United States are being 
addressed with most of the hallmarks of failure that became 
familiar to all of us during the 1992 to 1995 war in Bosnia: 
empty threats, public wrangling with allies, endless 
international conferences, ritual hand-wringing, limited 
sanctions. And many of the same failed measures of the past 
have been pulled off the diplomatic shelf once more: A new U.N. 
arms embargo, a renewed assets freeze with plenty of advance 
notice, unconditional support for Yugoslavia's territorial 
integrity, robust finger-wagging at the parties to negotiate 
their own solution, and new monitoring missions to supply 
international spectators for the latest theater of conflict.
    While the U.S. crafted and brokered a compromise ``dialog 
and stabilization'' package for the April 29 Contact Group 
meeting, Belgrade was trampling on the former American red 
lines with impunity, including through major new force 
deployments and offensives led by the Yugoslav National Army in 
the interior of Kosovo.
    In response, the U.S. package dropped several demands that 
had been made on Belgrade at prior Contact Group meetings, 
including allowing humanitarian agencies access and cooperating 
with International War Crimes Tribunal investigations on war 
crimes committed in Kosovo.
    The April 29 package agreed in Rome watered down other key 
Contact Group demands on withdrawal of Serbian security forces 
and cessation of actions against the civilian population. It 
also substantially reduced the cost for Belgrade to escape 
future and current sanctions, including the diplomatic and 
financial outer wall.
    The Contact Group has even adopted a more respectful tone, 
``recommending'' rather than ``requiring'' these reduced 
measures, a gesture that was appreciatively noted by Belgrade.
    For their part, the Yugoslav Army, Serbian security forces, 
and Belgrade's extreme nationalist paramilitary units have been 
less respectful on the ground, particularly as concerns 
civilian lives.
    The familiar elements of the Bosnia and Croatia ethnic 
cleansing campaigns are out in force again: heavy weapons and 
helicopter gunships firing indiscriminately on villages; 
systematic slaughter of the elderly, women, and children; 
execution-style murders of unarmed men; extended seiges; sniper 
attacks against civilians; forcible expulsion of ethnic groups; 
a violent state propaganda campaign against the latest enemy.
    In the attacks in March and April that could be verified by 
international media and monitors, the great majority of the 
100-plus victims were ethnic Albanian civilians. In the intense 
attacks and fighting that have been conducted in recent weeks 
in areas mainly sealed to international coverage, there are 
strong indications that the proportions have been similar.
    Fighting has escalated sharply between Serbian forces and 
the local ethnic Albanian insurgency, the Kosovo Liberation 
Army. Where there were sporadic killings and attacks on Serbian 
police 3 months ago by the KLA, which observers then believed 
to number under 100 lightly armed men, since Belgrade's 
crackdown 10 weeks ago the KLA has grown swiftly. It is now 
estimated at many times that figure, and it is also thought to 
be getting heavier arms. This on a territory about the size of 
Connecticut, with 2 million residents, of whom more than 90 
percent are ethnic Albanian, primarily Muslim.
    The indiscriminate attacks on rural Albanian clans, in a 
manner guaranteed to inflame the population and broaden support 
for the insurgency, has drawn plenty of new volunteers for the 
KLA. Some commentators have ironically called Milosevic the 
KLA's top recruiting officer.
    Mr. Chairman, for the past decade the international 
community, and foremost the United States, has relied on the 
Kosovo Albanians to maintain their patient dedication to 
nonviolence to gain relief from the massive and violent 
repression imposed by Belgrade, and to see their human rights 
and political self-administration restored.
    The Pristina leadership was widely praised in the West, and 
told always to wait and their grievances would be addressed. 
Wait until after the break-up of Yugoslavia. Wait until after 
the war in Croatia and its settlement. Wait until after the war 
in Bosnia. Wait until after the international intervention. 
Wait until after Dayton. Wait until after Dayton turns the 
corner. Wait until after the disastrous results of earlier 
Balkan policy failures are sorted out. Just wait, and we'll get 
to you.
    The refusal of the U.S. to ensure that Kosovo was addressed 
at Dayton was a severe blow to the moderate Albanian leaders. 
Their credibility was further undermined when it became clear 
that war criminals and their sponsors would be rewarded with 
the Republika Srpska, a self-administered semi-State possessing 
key elements of sovereignty, including a standing army.
    For their heinous ethnic cleansing and seizure of territory 
by force, the Bosnian Serbs were enjoying the virtual State 
that Pristina longed for.
    For their disciplined nonviolence, the Kosovo Albanian 
leadership could only show photo ops and vague testimonials 
from a succession of U.S. and European leaders.
    The Kosovo Liberation Army stepped into this vacuum, and on 
the ground the moderates on both the Albanian and Serb sides 
are being eclipsed by the hard-liners. Among the complicating 
factors now is that there is no Sinn Fein-type political wing 
tied to the military KLA, which is itself, apparently, an 
amalgam of guerrilla groups.
    As usual in the former Yugoslavia, the international 
community has done precious little for the moderates when it 
counts.
    Although there were signs of seriousness on this emerging 
crisis in parts of the executive branch starting last year, the 
administration took the calculated risk that it could make 
Kosovo wait some more. The U.S. has decisively lost that 
gamble, and is now grasping at the straws of Contact Group, 
OSCE, European Union, United Nations, and even Russian 
diplomacy. Anything, that is, except NATO.
    U.S. Policy on Kosovo today is approximately where it was 
on Bosnia in 1992, a policy memorably summarized by one senior 
Bush administration official at that time as ``let it burn.''
    There are new illusions about containing the conflict in 
Kosovo, perhaps at the Albanian or Macedonian border, as if 
fire walls can be built in the midst of such a blaze while its 
source is ignored.
    The iron laws that were allegedly learned by the 
international community in Bosnia apply especially in Kosovo. 
The first, post-cold war U.S. and NATO interests ultimately 
cannot sustain a hemorrhaging of security and blood in the 
Balkans. Second, the more the fire of local conflict is treated 
as an internal affair, the faster and deeper it will become 
regionalized. And third, the weaker the Western intervention, 
the more it will cost, the longer it will last, the more 
dangerous it will be.
    There is a range of allied military force options that 
could back serious U.S.-led diplomacy to reach the necessary 
near-term outcome on Kosovo, measures not, however, sufficient 
for a permanent settlement. The aim would be withdrawal of 
Serbian security forces and establishment of self-
administration, which itself would have to be internationally 
guaranteed.
    The threat and possible use of force required to achieve 
these purposes must simply be summoned by the commander-in-
chief, unless we are all to continue taking our chances with 
``let it burn'' in the immediate vicinity of the most explosive 
of powder kegs in this part of Europe.
    Until the White House resolves itself to such action and 
leadership, the present drift and half-measures will lead to 
the inevitable result: Another chance for the President to 
apologize for sitting out another genocide on his watch, with 
the fourth Balkan War of this century raging and a fatally 
wounded NATO at the center of his international legacy.
    Thank you.
    [The prepared statement of Mr. Fox follows:]
                     Prepared Statement of John Fox
    Mr Chairman, Members of the Committee, Ladies and Gentlemen:
    On his trip to the Balkans six weeks ago, Deputy Secretary of State 
Strobe Talbott offered a stark description of what is at stake for the 
West in the Kosovo crisis. ``The dangerous situation'' in Kosovo, he 
said, ``constitutes a dire threat to regional stability and therefore. 
it poses a threat to the vital interests of the United States.'' Mr. 
Talbott went further: ``Kosovo could yet turn out to be the most 
explosive of all the powder kegs in this part of Europe. If Kosovo 
truly blows, it could be even worse than Bosnia ... with the risk of 
war spreading in all directions, including South and East ... The dire 
emergency there is directly related to the peace of Europe as a whole 
-- and the implications are potentially disastrous.'' The challenge to 
the international community, the Deputy Secretary said, is ``to prevent 
the brutal policies of Belgrade from triggering a fourth Balkan war in 
this century.''
    A strikingly similar assessment of U.S. national interests in 
Kosovo was rendered by both the Bush Administration and by the first 
Clinton Administration. More importantly, this strategic calculation 
was then backed by the credible threat of force. I would like to quote 
for the Committee a portion of the ``Christmas warning'' letter that 
President Bush sent to Slobodan Milosevic and the Belgrade military 
leadership in December 1992 (this letter was authoritatively leaked to 
the press at the time): ``In the event of conflict in Kosovo caused by 
Serbian action, the United States will be prepared to employ military 
force against the Serbians in Kosovo and in Serbia proper.'' Senior 
administration officials stated that this force would consist of air 
power, including strikes at Serbian air bases, supply lines and other 
military installations.
    The ``Christmas warning'' established a unilateral ``red line'' 
that Belgrade did not cross until this year, in fact after American 
deterrence had been unaccountably let go by the second Clinton 
administration. What is the administration relying on instead of 
credible force to back its diplomacy now that the Kosovo powder keg has 
begun to blow? Rather than unilateral Christmas warnings, the U.S. has 
been part of setting new lows in lowest-common-denominator diplomacy 
through the 6-nation Contact Group. The ``vital interests of the United 
States'' are being addressed with most of the hallmarks of failure that 
became familiar during the 1992-95 war in Bosnia: empty threats, public 
wrangling with allies, endless international conferences, ritual hand-
wringing, limited sanctions. And many of the same failed measures of 
the past have been pulled off the diplomatic shelf once more: a new 
U.N. arms embargo, a renewed assets freeze with plenty of advance 
notice, unconditional support for Yugoslavia's territorial integrity, 
robust finger-wagging at ``the parties'' to negotiate their own 
solution, and new monitoring missions to supply international 
spectators for the latest theater of conflict.
    While the US crafted and brokered a compromise ``dialogue and 
stabilization package'' for the April 29 Contact Group meeting, 
Belgrade was trampling on the former American red lines with impunity 
-- including through major new force deployments and offensives led by 
the Yugoslav National Army in the interior of Kosovo. In response, the 
U.S. package dropped several demands that had been made on Belgrade at 
prior Contact Group meetings, including allowing humanitarian agencies 
access and cooperating with International War Crimes Tribunal 
investigations on war crimes committed in Kosovo. The April 29 package 
agreed in Rome watered down other key Contact Group demands on 
withdrawal of Serbian security forces and cessation of actions against 
the civilian population. It also substantially reduced the cost for 
Belgrade to escape future and current sanctions, including the 
diplomatic and financial ``outer wall.'' The Contact Group has even 
adopted a more respectful tone, ``recommending'' rather than requiring 
these reduced measures, a gesture that was appreciatively noted by 
Belgrade.
    For their part, the Yugoslav army, Serbian security forces, and 
Belgrade's extreme nationalist paramilitary units have been less 
respectful on the ground, particularly as concerns civilian lives. The 
familiar elements of the Bosnia and Croatia ethnic cleansing campaigns 
are out in force again: Heavy weapons and helicopter gun ships firing 
indiscriminately on villages; the systematic slaughter of the elderly, 
women, and children; execution-style murders of unarmed men; extended 
sieges and sniper attacks against civilians; forcible expulsion of 
ethnic groups; a violent state propaganda campaign against the latest 
``enemy.'' In the attacks during March and April that could be verified 
by international media and monitors, the great majority of the 100-plus 
victims were ethnic Albanian civilians. In the intense attacks and 
fighting that have been conducted in recent weeks in areas mainly 
sealed to international coverage, there are strong indications that the 
proportions have been similar.
    Fighting has escalated sharply between Serbian forces and the local 
ethnic Albanian insurgency, the Kosovo Liberation Army (KLA). Where 
there were sporadic killings and attacks on Serbian police three months 
ago by the KLA (which observers then believed to number under one 
hundred lightly armed men), since Belgrade's crack down ten weeks ago 
the KLA has grown swiftly; it is now estimated at many times that 
figure and is also thought to be getting heavier arms. This on a 
territory about the size of Connecticut, with 2 million residents of 
whom more than 90% are ethnic Mbanian and mostly Muslim. The 
indiscriminate attacks on rural Albanian clans, in a manner guaranteed 
to inflame the population and broaden support for the insurgency, has 
drawn plenty of new volunteers for the KLA. Some commentators have 
ironically called Milosevic the KLA's best recruiting officer.
    Because of tight restrictions on field access, daily televised 
reports from the new killing fields are not as available as was often 
possible in Bosnia, but the trends are clear. I quote from a message 
sent this week by a Kosovo women's NGO whose information has been 
consistently reliable: ``War is ongoing, although no one wants to name 
it like that. Shellings happen every day at regions now known to public 
opinion, in Drenica and in the Western part of Kosova, bordering with 
Albania. Serbian troops are coming day by day. Tanks are doing their 
duties. `Accidental killings' can include today, 2 May, three people 
from the village of Vojnike two of them are women, killed in their 
home... It is quite clear attacks are happening against families. Being 
deployed in the woods of the villages, Serb forces are shelling houses 
from a distance. Only today 24 houses were destroyed completely in two 
villages of the Drenica region. People are trying to defend their 
doorsteps, but no use... Violence is becoming widespread, it is 
including other parts of Kosova. In Kacanik, bordering on Macedonia, 
clashes have started too... Serb forces are out of control. The 
situation is alarming.''
    Mr. Chairman, for the past decade the international community, and 
foremost the United States, has relied on the Kosovo Albanians to 
maintain their patient dedication to non-violence to gain relief from 
the massive and violent repression imposed by Belgrade, and to see 
their human rights and political self-administration restored. The 
Pristina leadership was widely praised in the West and told always to 
wait and their grievances would be addressed: wait until after the 
break-up of Yugoslavia; wait until after the war in Croatia and its 
settlement; wait until after the war in Bosnia; wait until after the 
international intervention; wait until after Dayton; wait until after 
Dayton turned the corner; wait until after the disastrous results of 
earlier Balkan policy failures were sorted out. Just wait and we'll get 
to you.
    The refusal of the U.S. to ensure that Kosovo was addressed at 
Dayton was an severe blow to the moderate Kosovo leaders. Their 
credibility was further undermined when it became clear that war 
criminals and their sponsors would be rewarded with Republika Srpska, a 
self-administered semi-state possessing key elements of sovereignty. 
For their heinous ethnic cleansing and seizure of territory by force, 
the Bosnian Serbs were enjoying the virtual state that Pristina longed 
for. For their disciplined non-violence, the Kosovo Albanian leadership 
could only show photo-ops and vague testimonials from a succession of 
U.S. and European leaders. The Kosovo Liberation Army stepped into this 
vacuum and on the ground the moderates on both the Albanian and Serb 
sides are being eclipsed by the hard-liners. Among the complicating 
factors is that there is no Sein Fein-type political wing tied to the 
military KLA, which is itself apparently an amalgam of guerrilla 
groups. As usual in the former Yugoslavia, the international community 
has done precious little for the moderates when it counted.
    Although there were signs of seriousness on this emerging crisis in 
parts of the executive branch starting last year, the administration 
took the calculated risk that it could make Kosovo wait some more. The 
U.S. has decisively lost that gamble, and is now grasping at the straws 
of Contact Group, OSCE, European Union, U.N. and Russian diplomacy. 
Anything, that is, except NATO. U.S. policy on Kosovo today is 
approximately where it was on Bosnia in 1992, a policy memorably 
characterized by one senior Bush administration official at that time 
as ``let it burn.'' There are new illusions about containing the 
conflict to Kosovo, perhaps at the Albanian or Macedonian border, as if 
fire walls can be built in the midst of such a blaze while its source 
is ignored.

    Senator Biden. Thank you very much. Congressman, welcome.

   STATEMENT OF HON. JOSEPH DIOGUARDI, VOLUNTEER PRESIDENT, 
                 ALBANIAN-AMERICAN CIVIC LEAGUE

    Mr. DioGuardi. Thank you, Senator. I recall being here in 
this very room, facing you in February 1991, just over 7 years 
ago, when you were concerned about what was going to happen in 
Yugoslavia. I remember ending that testimony by saying that I 
did not think that Yugoslavia was going to stay together. We 
were all hoping that it would. The United States was banking 
its foreign policy on it, and all we heard during that meeting 
was how Albanian terrorists and separatists and the quest for 
Greater Albania was going to destroy Yugoslavia. Now we see 
what really destroyed Yugoslavia. It was there all the time--
the quest for Greater Serbia.
    Slobodan Milosevic, walked into Kosovo in 1987 and brutally 
occupied it. He took away its legitimate status as one of the 
eight juridical units of the ConFederal Republic of Yugoslavia, 
where Kosova had an equal vote with Serbia--its Presidency 
rotated every year--and created in less than a few years not 
only an apartheid but a Warsaw Ghetto that still exists in the 
heart of Europe today.
    I would not be concerned, Senator, about Greater Albania. I 
would be concerned that we have already legitimized ethnic 
cleansing by creating a phony republic called Srpska. It never 
existed before but it is there now. Why? Because Slobodan 
Milosevic wanted it--the person who in the news last Sunday is 
targeted by his former friend, Rudovan Karadzic, in a book 
saying he's about to now go to The Hague and he is going to 
turn State's evidence. He is pointing the finger at his friend 
Slobodan Milosevic as the architect of some of the most brutal, 
unbelievable atrocities since the Nazi era, in Bosnia
    We do not have to worry about Greater Albania. We have to 
worry about what I was worried about in your hearing back in 
February 1991. At that time I could only wave in front of you a 
Serbian version of ``The expulsion of the Albanians,'' a paper 
presented by Milosevic's mentor, Vaslo Cubrilovic, a professor, 
former administrator of the Yugoslavia Government, in Belgrade, 
March 13, 1937. I am now going to give you the English 
translation. This is what Slobodan Milosevic has been weaned 
on.
    If you want to see what happened in Bosnia, what is 
happening in Kosova today, read word for word, line by line, 
exactly what is going on, their modus operandi, shelling 
villages, burning them down, getting rid of Albanians at all 
cost, because this is territory they want.
    Milosevic will not abandon this, and as we keep waffling in 
this body and in the State Department he will just go and take 
more and more and more.
    He bluffed his way right through Bosnia, and he got Srpska. 
He is bluffing his way right now. He knows there is no real 
resolve with the so called Christmas warning by President Bush, 
later ratified by President Clinton.
    But he sees and senses the waffling already. He hears 
strong words on the part of Madeleine Albright. Then Madeleine 
Albright is muffled by Clinton's National Security Adviser, 
Sandy Berger. Then we have questions coming up in Congressman 
Gilman's hearing a few weeks ago about the Christmas warning, 
and a very luke warm response by Ambassador Gelbard, that ``we 
have to meet with you in executive session.'' You heard it 
again today. No direct response!
    Don't you think Slobodan Milosevic is hearing those 
responses? Don't you think he is ready to do more and more, 
because he sees that the greatest superpower in the world has 
lost its resolve and has a foreign policy which has abandoned 
the principles upon which this country was formed?
    Our foreign policy should be based on fundamental human 
rights. That is one of the key determinants of our foreign 
policy.
    We have today, in Kosova, some of the most egregious 
examples of violations of those human rights. In fact, Senator 
Biden, during the hearing that you held in 1991--and it was a 
wonderful hearing: It was the first time that all the ethnic 
groups came together to talk about the problem. I had to fly in 
reports from the Council on Human Rights and Freedom from 
Pristina and other places--litanies of horror.
    I do not have to do that today. You know why? All you have 
to do is read our own State Department's U.S. country eport, 
brought from the State Department. Here it is, the 1997 
edition. But if you read the last 5 years you cannot believe 
the litany of horrors listed against the Albanian people of 
Kosova. What are we waiting for? Look at how many people have 
been killed and brutally tortured, and detained, and 
disappeared? Every criteria they use to measure a country's 
human rights record has been violated in Kosova.
    Why is there such a disconnect between these egregious 
violations and our professed adherence to human rights when it 
comes to foreign policy? Is there another deal in the wind?
    Perhaps you did not ask the right questions to Ambassador 
Gelbard. Are we placating Russia for some reason? They are 
always there, supporting their first cousins the Serbs. That is 
where the Serbs came from in the Sixth Century A.D., from the 
Ukraine. We know they are blood brothers, or at least blood 
cousins. And they are always there supporting them.
    But what has Russia done for us in Iran, Iraq, and China, 
and so many other places? They do not support us!
    Why are we giving such deference to Russia? Why are we even 
considering a Contact Group at this point, including Russia?
    This is an issue that should be led by the United States of 
America in NATO, without Russia. This is where it belongs.
    That is what solved Bosnia, and the only reason today 
Bosnia is not like Kosova, Mr. Chairman, is that we have troops 
there. Who are we kidding? When are we going to wake up?
    Another key element of our foreign policy that has been 
abandoned is that we will do everything to preserve the 
security of a vital area like the Balkans in Europe. If you 
look at international law and how it defines where you have a 
state of belligerency, you look at what the neighboring 
countries are saying about what is going on there. Every one of 
them is using language which is at the edge. Recently, the 
foreign minister of Greece said Kosova is like a hand grenade. 
If it goes any further, it is going to explode.
    A Turkish spokesman of foreign policy said that the Kosova 
crisis, if unchecked, could destabilize the Balkan region and 
therefore European security.
    NATO condemned the excessive use of force by the Yugoslav 
Army in Kosova and said that the North Atlantic Council is 
profoundly concerned about the deterioration of the situation 
there and was considering ``possible further means to 
maintaining stability in view of the risk of escalating the 
conflict in the region.''
    On April 27, a spokesman from the U.S. State Department 
said that if the Contact Group members did not agree to a new 
sanctions package the United States would act unilaterally.
    The United States reiterated, the U.N. and the Contact 
Group's call for the immediate withdrawal of the special police 
units--which are nothing more than the Yugoslav Army--from 
Kosova, and the need for unconditional dialog. Yet when the 
Contact Group met in Rome on April 29, the United States 
capitulated to a weak proposal for more sanctions under 
pressure, especially from Russia, which, as I said before, has 
gone out of its way not to support us in dealing with Iran, 
Iraq, China, and many other areas.
    It is obvious the sanctions are not really an issue to 
Belgrade, which has already survived 6 tough years of economic 
sanctions. In the meantime, how many Kosovar Albanians have to 
be killed?
    We talk about negotiations and we talk about so many 
things, like no conditions, but, when do we get the point where 
we say, wait a minute, thousands of Albanians are being killed! 
Are these negotiations working? Should we now learn from the 
experience we had in Bosnia, that Slobodan Milosevic 
understands only one thing--the use of force or the threat 
thereof. In the meantime, these sanctions will only serve to 
bolster nationalistic fervor on Mr. Milosevic's behalf.
    Only resolve will work, Mr. Chairman, and that will have to 
come from the only superpower left in the world, the United 
States of America taking the lead with our NATO allies.
    In conclusion, the 2 million ethnic Albanians of Kosova, 
who comprise more than 90 percent of the population there, have 
no human, economic or political rights of any kind. Slobodan 
Milosevic has illegally and brutally occupied Kosova for almost 
10 years. I am not going to go through the history of Kosova 
here, Mr. Chairman. I have a three-page addendum to my 
testimony and I would like to offer it and my entire testimony 
for the record. I am giving an abbreviated form of it here.
    Senator Smith. We would be happy to receive it.
    Mr. DioGuardi. But when you look at Kosova it is not a new 
story. Kosova was part of Albania until 1916, as was that 
population of Albanians in western Macedonia and Southeastern 
Montenegro. That is why they are all contiguous. If you drew a 
line around 7 million Albanians today, you have the former 
State of Albania that came out of Turkish occupation on 
November 28, 1912.
    They are not looking to change those borders. The only one 
looking to change borders is Slobodan Milosevic. But what 
Albanians want is some peace in their lives, self-determination 
and the ability to raise their families in peace, to be who 
they want to be, and to save their national identity.
    What we see right now is ethnic cleansing all over again, 
in Kosova as we saw in Bosnia. It is time for our State 
Department to understand that loose talk that brands the 
victims as terrorists for defending themselves, their families, 
their property--and I will even add, their sacred honor. It is 
important to Albanians the way it was important to our Founding 
Fathers, Mr. Chairman. This only serves to give the green light 
to the real terrorists, Slobodan Milosevic and his henchmen, 
who are massacring innocent people as we sit here speaking 
today.
    It is time for the United States to stand up for its own 
principles and demand compliance with international human 
rights conventions before more Albanians are needlessly 
slaughtered and a new Balkan War is triggered--this time 
involving neighboring Albania, Greece, Macedonia, Bulgaria, and 
Turkey.
    It is time for Congress to stand up and voice its outrage 
at a foreign policy in the Balkans that has obviously failed to 
preserve peace and security in this vital region of the world. 
It is time for the United States to back up its tough words 
with concrete actions, such as declaring a no-fly zone in 
Kosova as we did in Bosnia. What is wrong with that? They are 
using heavily armed helicopters right now to level villages; 
and ringing Serbia's borders with NATO troops, and moving an 
aircraft carrier off the coast of Montenegro.
    These actions would not only reaffirm our resolve to stop 
the escalation of the conflict in Kosovo, but I believe would 
lead to a lasting peace for the Albanian people and all ethnic 
groups in the Balkans.
    I would like to also submit for the record, Mr. Chairman, a 
book that I prepared a few years ago called, ``The Agony of 
Kosova.'' It is a good reference book--with a three page index. 
It shows what this body and the House has done since 1987, and 
it shows that what we are talking about here today is nothing 
new. It is just escalating. And our foreign policy is nothing 
new. We are still waffling.
    What we did in Bosnia, for some reason we are reluctant to 
do in Kosova. And, when the Serbian regime talks about the 
Albanian people as fundamentalists and terrorists, let us not 
forget what my good friend Ben Gilman did a couple of years ago 
at the Holocaust Museum in memorializing the Albanian people 
and the State of Albania, as the only nation in Europe that did 
not give one Jew to the Nazis.
    That is now part of the Yad Vashem Holocaust Memorial in 
Israel, and our U.S. Holocause Museum here in Washington. This 
book ``Rescue in Albania,'' was written by an American Jew--
Harvey Sarner--to memorialize that fact, and I want to leave 
you the letter that Ben Gilman sent to Members of this body and 
the House to say that.
    It is a shame that we cannot do something to save these 
innocent Albanian people. The terrorist groups that come from 
Belgrade--special police that are really criminals let out of 
jail and dressed in police uniforms and army uniforms--are 
running into Albanian homes to get bounty, to get currency. 
They take their gold and kill the families on the spot.
    In Drenica many women and children were killed in their 
living rooms and bedrooms. We are still not allowed to go 
there. There is a mass grave some place. We have testimony from 
the women. They heard their husbands and young sons scream; 200 
were taken away. There is a mass grave there someplace. We will 
find it sooner or later, as we did in Bosnia.
    But what are we waiting for? Is this the United States that 
we want to represent, a country that stands on the sidelines as 
a brutal dictator inflicts State-inspired terrorism on a group 
of 2 million people who are defenseless today in Kosova?
    What is wrong with a national liberation movement, Senator, 
when there is no one there to defend you? What are they going 
to wait for?
    There are many articles written about when enough is 
enough, and there was one just recently by my professor Hurst 
Hannum from Tufts University. He said there are two instances 
in which secession, as we did 222 years ago, should be 
supported by the international community.
    The first occurs when massive discriminatory human rights 
violations approaching the scale of genocide are being 
perpetrated. If there is no likelihood of a change in the 
attitude of the Central Government, or if the majority 
population supports the repression--as we just saw in that 
phony referendum that Slobodan Milosevic just held in Serbia 
because he does not want any international intervention--
secession may be the only effective remedy for the besieged 
group. This is international law.
    A second possible exception might find the right of 
secession if reasonable demands for local self-government or 
minority rights have been arbitrarily rejected by a Central 
Government, even without accompanying violence.
    So this is not an easy issue Senator Biden. It was not easy 
in 1991 when you held your first hearing on Yugoslovia and it 
is not easy today. But, let us not brand the victims as the 
terrorists and let us not talk about Greater Albania, since 
that is not on the table.
    What is on the table constantly for 50 years, certainly the 
last 10, is the quest for Greater Serbia, and we seem very 
willing to give Mr. Milosevic what he wants. I hope we are not 
going to do the same in Kosova as we did in Bosnia. It would be 
a tragedy of the highest proportions, and I think it would only 
lead to a very destabilized Balkans and a greater war later on.
    Thank you.
    [The prepared statement of Mr. DioGuardi follows:]
             Prepared Statement of Hon. Joseph J. DioGuardi
    Mr. Chairman, on behalf of 400,000 Albanians in America, I want to 
thank you for holding this important hearing on Kosova. For us and for 
seven million Albanians living side by side in their historic lands 
within and outside of the current State of Albania, U.S. foreign policy 
in the Balkans has failed.
    Serbian dictator Slobodan Milosevic managed to bluff and outwit the 
West in Bosnia until he faced military force. All that he faces today 
are more of the economic sanctions that he has managed to withstand for 
years. President George Bush's threat of force (the so called Christmas 
warning) kept Kosova relatively quiet for six years. As Milosevic again 
applies brutal paramilitary force against Albanians in Kosova, we now 
risk another Balkan war that this time will spill over into neighboring 
states.
    Six years ago, in 1992, Patrick Glynn wrote in an article entitled 
``Yugoblunder'' that ``U.S. handling of the Yugoslav crisis is in fact 
a case study in how not to conduct foreign policy in the post-cold war 
world, combining lack of intellectual rigor and carelessness with what 
[then] Senator Al Gore has termed `moral obtuseness' about the 
conflicts and issues at stake. ... The main factor in the Bush 
administration's mishandling of Yugoslavia was its devotion to 
geopolitical `stability' at the expense of democratic values and human 
rights.'' This is exactly what we are facing again today in Kosova.
    Incredibly, our foreign policy in the Balkans, which is failing day 
by day, is dependent on the cooperation of Slobodan Milosevic, who many 
believe should be brought up on charges for his barbaric actions in 
Bosnia and now in Kosova by the War Crimes Tribunal in The Hague. In 
fact, on May 3, 1998, the Associated Press reported that Radovan 
Karadzic, the Serbian warlord already indicted for crimes against 
humanity in Bosnia, is preparing to corroborate Western intelligence 
reports linking Milosevic directly to the July 1995 massacre of 
thousands of Muslims in Srebrenica, which is considered to be one of 
Europe's worst acts of genocide since the Nazi era. Yet we continue to 
treat Milosevic as an equal partner on the international diplomatic 
stage. Is this not a continuation of the ``moral obtuseness'' that Vice 
President Gore lamented as a senator?
    Are we going to repeat the failures in Bosnia that led us, finally, 
to use measured force three years too late, resulting in the deaths of 
more than 200,000 innocent civilians? It is happening already in 
Kosova, where since the end of February, one third of this formerly 
autonomous province has been completely surrounded by Serbian military 
and paramilitary units using tanks, armored personnel carriers, 
helicopters, and heavy artillery. As we speak, twenty villages in 
Kosova are under twenty-four-hour shelling. It is ludicrous to believe 
the Serbian press that this is a local police action, rather than a 
carefully orchestrated effort by Slobodan Milosevic to continue his 
campaign of ``ethnic cleansing'' of the Albanian population of Kosova 
and, ultimately, of the Balkans. He has made no secret of his designs 
for a ``Greater Serbia,'' and he is following in the footsteps of other 
Serbian ultranationalists, whose main goal and political platform has 
been the expulsion of the Albanians from their ancient lands in the 
Balkans. (To understand this, one need only read ``The Expulsion of the 
Albanians,'' a plan presented to the government in Belgrade in 1937 by 
Dr. Vaso Cubrilovic, a prominent Serbian academician and government 
minister.)
    One of the main failures of our U.S. foreign policy towards Kosova 
is the disconnect between our professed adherence to the fundamental 
principles of human rights and our failure to assume a leadership role 
in Kosova in the face of some of the most egregious examples of human 
rights violations in modern history. One need only look at the State 
Department's 1997 country report for Serbia to see a litany of horrors 
against a population of two million Albania civilians in Kosova. While 
the United States customarily places a premium on human rights in its 
dealings with the international community, when it comes to Kosova, it 
appears that we are bending over backwards to accommodate a war 
criminal and his Russian supporters.
    Why are we not adhering to our own stated foreign policy, set forth 
by President Bush as he was leaving office and embraced by President 
Clinton as he was entering office, that a ``line in the sand'' is drawn 
in Kosova and that the United States will not tolerate any Serbian 
troops there? Since the end of February, the Serbian army disguised as 
police has surrounded the Drenice and Decan regions of Kosova and 
slaughtered more than 150 people (many more are missing and seriously 
wounded) At a hearing on March 12, Ambassador Robert Gelbard, the 
president's envoy for the implementation of the Dayton Accords, 
verified that the Bush/Clinton warning is the current foreign policy of 
the United States. So why is the United States not enforcing its own 
policy and allowing the Albanians of Kosova to be slaughtered? It is 
clear by his actions that Milosevic views the United States as a 
``paper tiger,'' with sanctions and no action. This has been the case 
for the past ten years.
    Another key objective of our foreign policy is to preserve peace 
and security in Europe. As stated in Article 39 of the UN Charter, a 
threat to peace occurs, among other things, when civil strife within a 
state creates an immediate danger of a breach of the peace, and it goes 
on to say that civil strife constitutes a breach of the peace if 
actually recognized by most states as belligerency. This is clearly the 
case in Kosova.
    The Greek Foreign Defense Minister recently stated that ``Kosova is 
like a hand grenade, and if we pull the pin anymore, it will explode.'' 
Likewise, a spokesperson from the Turkish Foreign Ministry stated that 
``the Kosova crisis, if unchecked, could destabilize the Balkan region 
and therefore European security.'' Above all, NATO condemned the 
excessive use of force by the Yugoslav army in Kosova, and said that 
the North Atlantic Council is profoundly concerned about the 
deterioration of the situation there and was considering ``possible 
further means'' to maintaining stability, in view of the risk of 
escalating the conflict in the region.
    On April 27, a spokesperson from the U.S. State Department said 
that if the Contact Group members did not agree to a new sanctions 
package, the United States would act unilaterally. The United States 
reiterated the UN and the Contact Group's call for the immediate 
withdrawal of special police units from Kosova and the need for 
unconditional dialogue. And yet when the Contact Group met in Rome on 
April 29, the United States capitulated to a weak proposal for more 
sanctions under pressure especially from Russia, which has gone out its 
way not to support us in dealing with Iran, Iraq, and China
    It is obvious that the sanctions are not really an issue to 
Belgrade, which has already survived six years of tough economic 
sanctions In the meantime, how many Kosovar Albanians will die while 
the sanctions remain in effect? The Albanian American Civic League, for 
which I am the volunteer president, contends that sanctions will have 
no effect on the Belgrade regime whatsoever. They will only serve to 
bolster nationalistic fervor on Milosevic's behalf. Only resolve will 
work, and that will have to come from the only superpower left in the 
world, the United States of America taking the lead with our NATO 
allies.
    In conclusion, the two million ethnic Albanians of Kosova, who 
comprise more than 90 percent of the population there, have no human, 
economic, or political rights of any kind. Slobodan Milosevic has 
illegally and brutally occupied Kosova for almost ten years. (See 
addendum for a short history of Kosova.) Kosova is where he started the 
carnage that led to the rape and pillage in Bosnia1 and now will lead 
to an even greater Balkan war if we do not act now.
    It is time for our State Department to understand that loose talk 
that brands the victims as ``terrorists'' for defending themselves, 
their families, and their property only serves to give a green light to 
the real terrorists, Milosevic and his henchmen, to massacre innocent 
people.
    It is time for the United States to stand up for its own principles 
and demand compliance with international human rights conventions 
before more Albanians are needlessly slaughtered and a new Balkan war 
is triggered, this time involving neighboring Macedonia, Albania, 
Bulgaria, Greece, and Turkey.
    It is time for congress to stand up and voice its outrage at a 
foreign policy in the Balkans that has obviously failed to preserve 
peace and security in this vital region of the world. It is time for 
the United States to back up its tough words with concrete actions--
such as declaring a no-fly zone in Kosova, ringing Serbia's borders 
with NATO troops, and moving an aircraft carrier off the coast of 
Montenegro. These actions would not only reaffirm our resolve to stop 
the escalation of the conflict in Kosova, but, I believe, would lead to 
a lasting peace for the Albanian people and all ethnic groups in the 
Balkans.
    Thank you, Mr. Chairman.

                                ADDENDUM
               Testimony of the Hon. Joseph J. DioGuardi
 A History of Serbian ``Ethnic Cleansing'' of the Albianians in Kosova
          SERBIAN ``ETHNIC CLEANSING'' OF ALBANIANS IN KOSOVA
    Kosova lies in the south of former Yugoslavia, bordered by Serbia 
proper to the northeast, Montenegro to the north, Macedonia to the 
south, and Albania to the southwest. More than 90 percent of its 2 
million people are Albanian, and most of the rest are Serbs. Albanians 
also live in large numbers in all of the aforementioned areas bordering 
Kosova: 1 million in Macedonia; 100,000 in Montenegro; 50,000 in Serbia 
proper (Presheve, Medvegie, and Bujanovc); and 3.5 million in the State 
of Albania--a divided nation of about 7 million people living side by 
side.
                 THE KOSOVA PROBLEM SINCE WORLD WAR II
    The 1946 Yugoslav constitution recognized the separate identity of 
Kosova. At the same time, it divided Albanian-inhabited lands among 
Serbia, Albania, Macedonia, and Montenegro. In 1963, under the 
influence of Serbian secret police boss Alexander Rankovic, Kosova was 
incorporated as a commune in Serbia. After Rankovic's fall in 1974, 
Kosova was reinstated as an autonomous province and given federal 
representation equal to that of the six Yugoslav republics of Serbia, 
Croatia, Bosnia-Herzegovina, Macedonia, Slovenia, and Montenegro.
    Following Tito's death, persecution by Serbian government troops 
ensued, which led to massive student uprisings in Kosova in 1981. The 
Serbian police and troops killed at least twenty-two Albanians and 
beat, wounded, and arrested thousands more. From 1981 to 1988, official 
statistics confirm the arrest and jailing of more than 7,000 people and 
the incredible figure of 586,000 Albanians (more than 25 percent of the 
population) who passed through the hands of the police for one reason 
or another.
    Serbian determination to strip Kosova of its independence 
accelerated the violence. In 1989, the Serbian authorities forcibly 
abolished the autonomy of Kosova and sent Yugoslav tanks to patrol the 
streets. Six days of rioting ensued, during which more than 100 
Albanians were killed and more than 900 were arrested.
    In April 1990, facing more demonstrations, Serbia passed a special 
law extending prior emergency measures. The people of Kosova through 
their Assembly responded on July 2 with a declaration of independence. 
Three days later, Serbia suspended the Kosova Assembly, falsely 
purporting that the Serbian minority in Kosova was being oppressed by 
the Albanian majority. Serbia then seized some seventy-five 
enterprises, including hospitals and energy plants. On September 7, 
following a general strike, the Assembly met secretly, proclaimed 
Kosova a Republic within the Yugoslav federation, and adopted a 
constitution. By September 17, its 111 Albanian members had been 
arrested or had fled into hiding or exile.
    On September 28, 1990, Serbia adopted a new constitution that 
completely eliminated Kosova's autonomy. As of mid-1991, the people of 
Kosova held a referendum in which 87 percent of the population 
participated, resulting in a 99 percent vote in favor of an independent 
state. On October 19, 1991, based on this referendum, Kosova was 
declared a sovereign, independent state and a transitional government 
was formed. On May 24, 1992, the first multiparty elections for 
parliament and president of the Republic of Kosova took place. On June 
23, 1992, however, the Serbian police used armed vehicles to prevent 
the seating of the newly-elected government in Kosova.
    In the years that followed, life for the Albanian people of Kosova 
deteriorated dramatically. In spite of their policy of peaceful 
resistance, the barbaric treatment at the hands of the Serbian police, 
paramilitary, and military forces persisted unchecked on a daily basis.
                    KOSOVA UNDER SERBIAN OCCUPATION
    Serbian police have expelled nearly all Albanian physicians, 
dismissed 7,000 students, prohibited the use of Albanian as a language 
of instruction, closed the University of Prishtina, replaced Albanian 
judges with Serbian jurists, and engaged in random beatings, 
kidnappings, torture, house searches, and killing. The Serbian 
government has shut down Albanian radio and television operations and 
used its own media to promote anti-Albanian racism in the region.
    Economic strangulation has been a key element of Serbia's takeover 
of Kosova. ``Compulsory administration'' has been imposed on most of 
Kosova's more than one hundred economic centers, resulting in the 
collapse of Kosova's economy. More than 75,000 Albanian families are 
unemployed. It is estimated that close to half a million Albanians are 
suffering from food shortages, and there is a very real danger of 
widespread starvation. Many analysts believe that the Serbian 
government is trying to bring the Albanian population to its knees 
through hunger.
    With no real recognition and intervention by the international 
community to prevent the daily brutality inflicted on innocent 
civilians, Albanians had no choice but to resort to the self defense of 
their families, neighbors, property, and communities. The ill equipped 
Kosova Liberation Army emerged from this struggle to survive and it has 
declared itself as a defense force with no terrorist aims. The most 
recent events in Kosova, from February 28 to March 8, 1998 in the 
Drenica region, including the villages of Prekaz, Voynich, Llausha, and 
Likosan clearly demonstrate what has been feared all along; namely that 
the atrocities the world witnessed in Bosnia will be repeated in Kosova 
and will result in a completely lopsided conflict in which the unarmed 
civilian population of Kosova is massacred. A full-scale civil war is 
certain to involve the larger Albanian population of Macedonia, 
Montenegro, southern Serbia, and Albania, and this would make the 
nightmare of a second genocidal war in Europe in this century a 
reality.
                               CONCLUSION
    The Albanian American Civic league believes that the West must play 
an immediate role in stopping the Serbian assault on Albanian villages, 
which has as its aim the ``ethnic cleansing'' of the Albanians of 
Kosova. Because of the importance of the Balkans to our national 
security, President Clinton had already dispatched some three hundred 
American troops to neighboring Macedonia as observers, and we have 
committed a substantial contingent of American soldiers in Bosnia. With 
the recent, tragic Serbian assault on Kosova, it is now time to take 
strong measures to prevent further bloodshed.
    President Bush on his way out of office and President Clinton on 
assuming office clearly put Slobodan Milosevic on notice that ``a line 
had been drawn in the sand on Kosova.'' President Clinton should now 
make good on this foreign policy declaration by implementing a swift 
and powerful counter stroke against any further aggression against the 
Albanians in Kosova.

    Senator Smith. Thank you, gentlemen, all of you.
    I must confess, I am uncertain as to what the policy of the 
administration is in terms of a Christmas message, and what, if 
anything, we are doing to prepare to enforce such a policy. I 
hope to find out some answers myself on that, whether private 
or otherwise.
    But the Congressman has laid out some specific proposals, 
that we declare a no-fly zone, ring the area with NATO troops 
and park an aircraft carrier off the coast. I wonder if either 
of you two would care to comment on that, how long it would be, 
how effective it would be, and whether we ought to be doing it 
unilaterally or involving all of NATO, and what spillover there 
might be toward the peacekeeping in Bosnia.
    Mr. Hooper. Senator, I think the only way to--there is a 
lot of dissention now within NATO, and I think that is because 
the United States, the Clinton administration has been 
unwilling to exercise proper leadership on this issue.
    What I think we are advocating, and what Congressman 
DioGuardi is advocating, is conflict prevention, the kind of 
military measures that are credible enough to prevent the kind 
of conflict that will require even greater military measures, 
greater risk, greater burdens, or the more disastrous 
consequence if we do not act.
    Senator Smith. Are these proposals adequate?
    Mr. Hooper. I think some of them are, but I think it has to 
go further. Certainly NATO has to be involved, and the only way 
to involve the allies behind our leadership is to say that we 
are prepared to act unilaterally. Once we do that we can be 
sure they will be with us.
    I think these proposals are some, but we need to also get 
the tribunal involved to ensure that serious markers are put 
down on war crimes, and we need to ensure that there is a 
conflict prevention force, a NATO observation mission in Kosovo 
itself so that it is not just ringed around Serbia and then 
genocide could be allowed to take place within it, but that it 
is prevented within Serbia as well, and Kosovo.
    Senator Smith. Do you believe, Mr. Fox, anything short of 
that may lead us to holding a hearing here, say, in 5 or 6 
years, after lots of bloodshed, and trying to rally support for 
a NATO peacekeeping force to expand into that area?
    Mr. Fox. I think that the fuse on this one is very short, 
that without an enhanced Christmas warning which backs a U.S.-
led mediation for an interim settlement, we will not see much. 
We have a window now which is rapidly closing and may have 
already closed, and the cardinal error of this administration 
on Kosovo was to let go, to allow the Christmas warning to 
erode.
    It was really a reckless decision, one that needs, I think, 
much more examination, and there has certainly been an 
extremely active debate about it in the administration. Some of 
the positions that are reflected here today I think are well-
reflected within the administration. They are obviously not 
prevailing.
    If the U.S. is not prepared to match with that level of 
force the calculus of its national interest that was rendered 
by Brent Scowcroft, by senior leadership of the Bush 
administration and the first Clinton administration which 
certainly some very clear exponents of Clinton foreign policy 
have endorsed, then we are really in the soup and we will see, 
surely, a much larger U.S. ground intervention later on to sort 
out the fighting outside of Kosovo.
    The problem with some of the measures that are being 
considered, even on the margins, are in fact--I fear they would 
send another wrong signal of isolating Kosovo and respecting 
this issue as an internal matter.
    The Helsinki Accord should not be rewritten ad hoc by the 
U.S., of all countries. The Helsinki Accord is quite clear, as 
are our other international covenants, that the territorial 
integrity of a country, the respect for territorial integrity 
of a country in Europe goes hand-in-hand with its adherence to 
European standards, and that would certainly mean no use of 
brutal force, certainly not ethnic cleansing against its 
minorities.
    Senator Smith. The Congressman has raised the issue of the 
overlay of Russia's influence on Serbia or alliance with 
Serbia. I wonder if either of you have a comment on that. How 
does that impact American action?
    Mr. Fox. I think the refusal of the administration to take 
this to NATO has quite a bit to do with that fact, and in fact 
I think some of our European allies are putting a higher 
priority on keeping Russia as part of a lowest common 
denominator diplomatic effort than they are to really facing up 
to the fundamentals here.
    Russia has not been friendly to peaceful outcomes in the 
Balkans, and the Southern Balkans. I think it would be better 
for the administration to question why Russia insists on 
collecting war criminals and pariahs as its clients at this 
late date, and why they cannot find some other Serbs to ally 
themselves with.
    There is as difference between a pro-Serb policy and a pro-
Serbs policy. There are a lot of Serbs, a lot of moderate 
Serbs. There is not just one Serb, or one handful of Serbs, and 
I think a good deal could be done to remind Moscow of that.
    I think it would be more credible still if the U.S. had a 
record of supporting democratic forces in the former 
Yugoslavia, which it decidedly does not. We tend to take it as 
it lays, and then wonder why there is no Lech Walesa or Vaclav 
Havel.
    Senator Smith. Mr. Hooper, do you have any comment?
    Mr. Hooper. I think Milosevic has successfully tapped in to 
the ultranationalist political tendencies in Russia and used 
these very effectively to build support, because there is no 
good democratic reason for Russia to support what he is doing. 
In fact, quite to the contrary. It was against Yeltsin's 
democratic instincts, and I think it shows how effective 
Milosevic has been.
    I certainly believe that the only way--that peace and 
stability in the Balkans are not going to be safe and secure 
until there is democracy in Belgrade. That is the key. That is 
the bottom line.
    The only way you get there from here is by setting the 
ground rules, which the U.S. would have to do a credible threat 
of force to ensure that this does not get any worse, and then 
start working back until we have the kind of Government there 
that will check the kind of, I think virulent ultranationalism 
that we have seen in Belgrade that produces what we have seen, 
not what we are seeing in Kosovo and what we have already seen 
in Croatia and Bosnia.
    Kosovo was implicit in what Milosevic did in Bosnia and 
Croatia. We are now just seeing it become explicit.
    Senator Smith. Thank you, gentlemen.
    Senator Biden.
    Senator Biden. Gentlemen, welcome again.
    As Mr. Hooper and Mr. Fox remember, we have had discussions 
before, and I do not disagree with anything you have said about 
democracy in Belgrade is the ultimate requirement to have peace 
in the Balkans, but it seems to me we have a little bit of a 
selective memory here.
    My recollection of the Christmas warning, which I happened 
to support, was that that warning was given at the very time 
when the administration wanted to leave, the Bush 
administration refused to do anything about the situation in 
Bosnia and Herzegovina, and when they were supporting, when the 
Secretary of State said there was nothing we can do, and when 
there was the easiest call to make because the least was 
happening.
    So I find this a little bit fascinating, the bashing that 
is going on right now, but I happen to share your ultimate 
view, as long as you all acknowledge that the previous 
administration created the circumstance that allowed all of 
this to take place.
    You all make it sound like there was this Bush 
administration that came along and stood firm and was there, 
and while rape camps were set up, while tens of thousands of 
people were being massacred, while the proportions of the 
atrocities exceeded, not in kind but in number, by fiftyfold 
what is going on here, and we stood by and said, ah, do not 
move in Kosovo, but cross an international border, take the 
whole JNA over there, go ahead and blow everyone away over 
there--no problem. No warning, nothing. Remember that part?
    Mr. Hooper. Senator, I want to assure you that if I can 
speak for Mr. Fox here with me I think you are looking at the 
two people who were the most active.
    Senator Biden. You are looking at the one person who was 
the most active up here, so I mildly resent----
    Mr. Hooper. This administration's inaction, and when we 
were still in the State Department----
    Senator Biden. I remember. I just wanted to set the stage 
here.
    Mr. Fox. Senator, may I just say, I think the Christmas 
warning may be the only thing the Bush administration did right 
in the Balkans.
    Senator Biden. Cynical me thought it was done because it 
was the only one they thought they were not going to have to 
exercise any force on at the time, but that is just--I have 
been here too long. I am mildly cynical, based on everything 
else that was not done.
    Mr. DioGuardi. Senator, just to weigh in on that point, 
because I was a Republican Congressman and very critical.
    Senator Biden. I always thought you were a Democrat.
    Mr. DioGuardi. But I would tell you that I was very 
critical of the Bush administration. In fact, in my testimony, 
which I did not read because I gave it for the record, I cited 
an article 6 years ago by Patrick Glynn, Yugoblunder, where he 
said the U.S. handling of the Yugoslav crisis is in fact a case 
study in how not to conduct foreign policy in the post cold 
war, combining a lack of intellectual rigor, carelessness, with 
what then, Senator--and let me give a little plug--Al Gore 
termed moral obtuseness about the conflicts and issues at 
stake.
    The main factor in the Bush administration's mishandling of 
Yugoslavia was its devotion to geopolitical stability at the 
expense of democratic values and human rights.
    Senator Biden. I do not want to refight that political war, 
but I want to sort of set the stage here a little bit for about 
how, not the atrocities that are occurring, but the 
circumstances are different.
    It does not necessarily bring about a result different from 
what you all are suggesting, but I want to make sure that we 
know what we are talking about here, OK, or that I know what I 
am talking about. You all know what you are talking about. I 
want to make sure that I know what I am talking about and that 
I know what you are talking about.
    Now, this notion that the only solution now is to do 
something we are having trouble even maintaining doing now, I 
do not know if you remember, guys, we could not get anybody to 
do anything, including half the Democrats, on Bosnia. Remember 
that part? Have you got that part? Remember? And we are hanging 
on by our fingernails in terms of support for the maintenance 
of U.S. forces.
    There is a resolution introduced today by Senator Hutchison 
and Senator Byrd demanding and requiring--not a resolution, a 
piece of legislation. I have not seen it. I was just told about 
it by my staff--saying that American forces had to be drawn 
down to no more than 2,500 by the year 2001, or 2000.
    I mean, we are still fighting like hell just to keep--I 
mean, I am on the floor or in the caucus or in a Senator's 
office literally every week pleading the case, shuttling 
basically back to Bosnia to make the case, progress is being 
made, so the context in which this is all taking place now is 
not different--well, it is different, but it is a totally 
changed circumstance.
    Now, here is what the proposals are. You are suggesting--
the suggestion is that the only reason NATO is not moving, or 
we are not moving on NATO, is because of Russia. Well, the 
Italians and the Greeks own a telecommunications system there. 
You guys know this. I do not know why you do not say it. The 
French are the French--you understand that part better than I 
do--and the Germans are reluctant to move, ever, as it relates 
to anything having to do with Serbia.
    So we talk about all we have got to do is say, by the way, 
NATO, we are going and they will follow. Well, you may be 
right. You may be right, but I am not so sure that is right, 
number 1.
    Number 2, with regard to blaming the victims, I am not 
blaming the victims. What I am trying to get straight here is 
what this negotiation is supposed to be about and what we are 
demanding of Milosevic.
    It is real important, it seems to me, when we make a demand 
we know what it is, and what is the demand? The demand first 
and foremost is, is stop the atrocities. Nobody disagrees with 
that.
    The second demand is, at a minimum, at a minimum allow some 
autonomy, at a minimum. But at a maximum, what are we asking 
for? What should we impose? I mean, you have both said that 
this notion of negotiation and repeating the Contact Group 
involvement, all of those is just replaying all the wasted 
years in Bosnia before we finally got to a point where at least 
the atrocities have stopped, if not ratification of the 
cleansing having occurred.
    But what is it--you had a chance, as I have in the past, 
and will probably never get it again in the light of my 
attitude toward the man, but what do you say to Milosevic? What 
is the bottom line we demand? Big nations cannot bluff. What is 
the bottom line?
    I asked Mr. Hooper and Mr. Fox. I know what the bottom line 
is, but I will ask you as well, Congressman, because--anyway, I 
will ask you.
    Mr. Hooper. You start off with autonomy and work through 
negotiations to autonomy plus. I think there are a variety of 
solutions. One might well be Kosovo becoming a third republic 
in the Federation with an equal level, or equal to a Serbia and 
Montenegro. I think that would be an acceptable outcome to the 
Kosovars. I believe that.
    I think there are other outcomes that are possible as well. 
The best single way to restore the loyalty of the Kosovar 
Albanians to the Serbian State I believe is through democracy 
in Belgrade. If you had that, our problems would be over, the 
kind of conflict prevention we are talking about.
    Senator Biden. You and I both know Belgrade well, and I am 
being presumptuous in suggesting I know it well as well. We 
both know it well.
    I have been searching for that democratic middle in Serbia 
for a whole hell of a long time. Do you want to give me any 
names? Do you want to give me any ideas? You talk about who to 
support. I have made visits. I have met with all of the 
dissidents.
    One of the most destabilizing--how can I say it? That is 
the wrong word--most disappointing things was, I found that at 
least half the opposition was more rabid nationalist than our 
boy Milosevic was, so do you want to tell me--I mean, I am 
looking here. I am all for it. Find me--show me--identify me--I 
will go visit, literally--not figuratively, literally.
    I met with 120 dissidents, quote-unquote, opponents to 
Milosevic, went in a room with 60 or so in one room. I started 
talking. They looked at me like, no, no, no, you got this all 
wrong. We are more Serbian than Milosevic. They were literally, 
literally, literally critical of Milosevic for being too 
accommodating.
    So I am desperately seeking Susan, OK, desperately looking. 
The State Department is desperately looking. The West is 
desperately looking. Have you got any ideas for me?
    Mr. Hooper. Senator, they were not looking last year, and I 
think that is----
    Senator Biden. Forget them. I am looking now. Who do you 
have in mind?
    Mr. Hooper. Well, I would start with Vesna Pesic and Zoran 
Djindjic.
    Now, I realize these are leaders of two of the democratic 
parties. They are democrats. I am not talking about the kind of 
opposition ultranationalists who tried to trump Milosevic from 
the other side, but essentially we are going to have to start 
with people like that and buildup.
    This is not going to be something that is going to be done 
in 3 weeks, or 3 months. I do not know how long it will take.
    But we are not going to find that--we are not going to be 
able to tap into that democratic energy which I think is there 
in Serbia until we decide whether to we are prepared to look 
past Milosevic and start working with these people.
    Senator Biden. Well, again, I am taking too much of the 
chairman's time here, and I know we have got to go, but I would 
really like to meet with each of you together or individually 
to pursue this, because it has been something I have been 
trying to seek in earnest here, and it is a very--as you well 
know, if it is to be found, if it exists, the likelihood of it 
being developed as a reasonable alternative--and I was just 
pointing out that one of the two people you named boycotted the 
election, the last election, and he lost all of his influence 
when he did it, but it may change.
    But the bottom line is this. It is worth the effort. We 
should be pursuing it. I fully agree with you. I just think 
time--you just said the fuse is short. I see no ability to 
generate and produce that kind of indigenous democratic 
initiative that coincides with the timeframe that is left on 
the fuse.
    A last question I will ask, and this idea of engaging NATO 
and getting NATO involved, I think I have no hesitancy, and 
have had none for 6 years now, of suggesting the United States 
unilaterally suggest and promise and deliver on the use of 
force. That is not anything I have any trouble with.
    Here is the problem I have, the idea of thinking that you 
are going to be able to negotiate, even with that kind of 
commitment on the part of the United States, a NATO force that 
is going to circle--the phrase used by two of you, I believe 
the Congressman--well, maybe it is the Congressman. I am not 
sure--that to circle Serbia, that means we are going to place 
NATO troops in Albania, Bulgaria, Hungary, Romania--lots of 
luck, seeing that happen.
    I think we have a moral obligation to have some consonance 
between what we suggest and the possibility of it ever 
happening, and you may get NATO to conclude that it is worth 
sending an observer force in. You may get NATO--I think that is 
a stretch. You may get NATO to be able to do a number of 
things, but to get that to happen I think is not a sound,
    Were I in the State Department and you were present, I 
suggested that to you, you would say, Joe, go back and get me 
another solution. You know it, I know it, we all know it, and I 
do not think it is responsible for us to suggest that as 
something that we can or is likely to happen.
    So here is my question, and this is to you, Congressman. 
Is, in terms of where you think--if you have to pick a horse 
here, do you suggest that we, the United States, use all our 
influence and whatever force we are wiling to use to deal with 
and promote and support the Democratic League of Kosovo, or the 
Kosovo Liberation Army, because right now they are not in 
tandem.
    Mr. DioGuardi. Why don't we make the question more simple. 
Why don't we look at international law, look at a population of 
2 million people that is being brutalized every day----
    Senator Biden. Because we have to look at reality.
    Mr. DioGuardi. But you raise the issue when you asked where 
is the ``George Washington'' that democratic leader we want to 
find in Belgrade so we can solve the problem?
    We may have to wait a long time to find him or her, but, in 
the meantime, we cannot let the Albanian people be brutalized 
and killed every day. I think there are things we have to do 
right now. We have to face Slobodan Milosevic in the eye, as we 
did in Bosnia, and say, get every one of those VJ army troops 
out of Kosovo and, if you do not do it, we are going to take 
some tough action.
    Senator Biden. What action? Are we going to use physical 
force?
    Mr. DioGuardi. The argument that you made before is the 
same argument that I heard from Bob Torricelli and Senator 
McCain back in 1993, on the McLaughlin show. They were saying 
the same thing. But, we did something, did we not? We waited 3 
years, but sooner or later we got resolve, and we said 
something had to be done. Why is this any different?
    Senator Biden. Well, no, it is different--well, it is not 
different. I just want to know what you suggest, because back 
then, when I was in your position, I was suggesting we bomb 
Belgrade. I was suggesting that we send American pilots in and 
blow up all of the bridges on the Drina. I was suggesting we 
take out his oil supplies. I was suggesting very specific 
action.
    Mr. DioGuardi. And isn't it interesting, we did not have to 
go that far to begin the solution in Bosnia.
    Senator Biden. And isn't it interesting that about 200,000 
people were killed in the meantime by the time they did.
    Mr. DioGuardi. Yes, and that is going to happen in Kosova 
if we do not act now.
    Senator Biden. That is why I want to know what you are 
suggesting now.
    Mr. DioGuardi. What we have to do right now is to enforce 
international law. We have war criminals in Belgrade. We are 
dealing with one right now.
    I referred to that article before. I have a copy of it 
right here. It was in the Gannett papers on Sunday. it shows 
Slobodan Milosevic side-by-side Mr. Karadzic who has now got a 
book coming out pointing the finger at him for all those 
atrocities in Bosnia. Why are we not picking him up?
    Senator Biden. Because the French let him walk around. That 
is why.
    Mr. DioGuardi. It seems to me that we have a double 
standard here. If we are going to be the great United States of 
America, standing up for oppressed people, and I believe we can 
do that without sending military all over the world, let us 
pick up the war criminals in Belgrade. We know who they are. We 
know where they are.
    Number 2, let us tell Mr. Milosevic, get every army troop 
out of there--you know why? It is not just because we want him 
to or because we like it. He is now on the brink of creating a 
Balkan war.
    You know the problems we have between Greece and Turkey. 
You know how fragile Macedonia is. You know that we right now 
have 600 troops on the border in Macedonia. What are we waiting 
for?
    If Milosevic keeps doing this, all he is doing is raising 
the temperature and, as the Greek foreign minister said, the 
hand grenade will explode and the Balkans will explode. We have 
no choice. Let us do something now, rather than have to do 20 
times more later on.
    Senator Biden. I agree with you. I think there is a number 
of things we can do. I think some of them, the things suggested 
here today are totally unrealistic of what we are likely to do, 
but I think there are a number of things we can do, and 
starting with the Christmas warning.
    I also think you have all helped to make the case. You say, 
let us get NATO in. What do you think is going to happen in the 
little vote to put NATO troops in Albania when Greece and 
Turkey vote? What do you think, huh?
    I want to be there at that meeting when you guys and your 
diplomatic skills bring the Greeks and the Turks together on a 
uniform vote.
    We do have this little thing, in this little outfit called 
NATO called consensus. You do not get them all, you do not get 
any of them, you know. That is kind of the NATO thing.
    Mr. DioGuardi. Senator, what happened then at the last 
minute when we decided to do something to solve the situation 
in Bosnia? Didn't we learn from that experience?
    Senator Biden. There was less of an interest that they each 
had there than there is ``inside Serbia.''
    Mr. Fox. If I may, Senator, I think that this may be one of 
the last moments that the membership in NATO has a convergent 
interest on Kosovo, and that if this goes much further, that is 
when the interests begin to diverge, and that is one of the 
things that makes this so gravely dangerous.
    I think the potential for the Kosovo conflict to split NATO 
in a way that Bosnia even did not manage and, in fact, to drive 
a major wedge in, transatlantically and within Europe, both 
within and outside of NATO, is profound, and that is one of the 
reasons that I believe we have to reverse-engineer this issue 
from the point of saying, Strobe Talbott is right. I praise 
Strobe Talbott for his analysis.
    There are others in the administration who are right, who 
understand this every bit as well as anybody in this room, I 
would say, doubtless better for what they know additionally.
    If we believe that it is an unacceptable outcome to have a 
fourth Balkan war that draws in first Macedonia, Albania--I 
happen in fact not to think that the Cordon Sanitaire makes any 
sense, to be honest. I think it is a marginal measure, and it 
is distracting, and it is impractical and all the rest, but I 
would much rather invest in a postnegotiation guarantee inside 
Kosovo.
    But if we believe that this is an unacceptable outcome, 
which I think we are all saying and I think we do agree, we 
certainly agree with you, then we must do the necessary 
measures to ensure that mediation takes place and we stop 
dancing around with closing bank accounts in Cyprus and we get 
to the heart of the matter.
    The U.S.--I want to say it again. The U.S. under two 
administrations, and I think both administrations were serious 
about this and were considered about this. Certainly Belgrade 
took it seriously, and I think the Kosovo Albanians took it 
seriously, and the neighbors took it seriously.
    These two administrations made a calculation that this was 
such a profound interest of the U.S., a vital national security 
interest, as Secretary Talbott says, that we were prepared to 
act unilaterally. No United Nations, no OSCE, no Europeans, no 
NATO. We were prepared to act unilaterally if necessary.
    That is the beginning of wisdom, to get a baseline on 
Kosovo, to get a grip on the Kosovo crisis rapidly, and it has 
to start, as ever, in the Oval Office, and I think if that does 
not happen, and if it does not happen fairly quickly, there 
will be a disastrous legacy for this administration and for 
NATO that will really make Bosnia look like the warm-up, Bosnia 
pre-1995.
    Senator Smith. Mr. Fox, I think we are going to need to 
leave you with the last word on it.
    The purpose of calling this hearing was simply to focus the 
debate and to get some minds to working, and the part of the 
role of the U.S. Senate is advising, not just consenting, and 
hopefully we have the attention of our Government and we can 
stimulate some resolve.
    So we thank you all for participating, and with that we are 
adjourned.
    [Whereupon, at 4:05 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]


                         U.S. POLICY IN KOSOVO

                              ----------                              


                        WEDNESDAY, JUNE 24, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 4:20 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon H. 
Smith, [chairman of the subcommittee], presiding.
    Present: Senators Smith, Coverdell, Biden, and Dodd.
    Senator Smith. We welcome you, ladies and gentlemen, to 
this hearing of the Senate Foreign Relations Committee on 
European Affairs.
    I have a statement that I will not read in the interests of 
time out of respect for our witnesses, who we are anxious to 
hear, but needless to say, this hearing on Kosovo is timely and 
important, as this country begins to define what its response 
will be in the face of a holocaust in our times, whether or not 
we are going to respond too late, too little, at the expense of 
much treasure and human life, or we are going to do something 
affirmative now to try and restore civility and human decency. 
That is really the issue confronting our country and our 
alliance, and NATO, and with our allies.
    I apologize to our witnesses for our delay in starting. No 
one knows better than Senator Dole how votes get in the way of 
hearings. Senator D'Amato knows that very well, too.
    As Senator Coverdell has now joined us, and the Ranking 
Member, Senator Biden, with your permission we will hear from 
our witnesses, who are under a time schedule, and Senator 
D'Amato will go first.
    Senator, we welcome you, sir.
    [The prepared statement of Senator Smith follows:]
             Prepared Statement of Senator Gordon H. Smith
    The Foreign Relations Committee is meeting today to discuss the 
ongoing crisis in Kosovo. We are fortunate to have with us two 
individuals who have a wealth of knowledge and experience in this area: 
former Majority Leader Bob Dole, who currently is serving as Chairman 
of the International Commission on Missing Persons in the Former 
Yugoslavia; and Ambassador Morton Abramowitz, who is a Board Member of 
the International Crisis Group, a non-governmental organization that 
has been active in the Balkans for over two years.
    The European Subcommittee met seven weeks ago on this same subject 
and heard from the Clinton Administration's representative on the 
Balkans, Ambassador Robert Gelbard, as well as from three witnesses 
from the private sector. Unfortunately, as we all have seen, the 
situation in Kosovo has deteriorated since our last meeting. Mr. 
Milosevic continues to ignore the demands of the international 
community to withdraw his security forces from Kosovo; he makes 
promises he has no intention of keeping; and he shows no indication 
that he is serious about negotiating with the Kosovar Albanians. For 
their part, the Kosovo Liberation Army is gaining strength and 
influence in their effort to achieve an independent Kosovo, a 
development that may make negotiating a peaceful settlement to the 
conflict more challenging.
    I am afraid that Mr. Milosevic does not respond to economic 
sanctions or to measures such as freezing his government's foreign 
assets and limiting new investment in Serbia. He understands one thing 
only: the threat of and the use of force. I ask our witnesses--is it 
time for the United States to use force against Serbia? Considering our 
track record with Mr. Milosevic, can we convince him that we are 
serious when we threaten such action? Do we have any other options but 
to use force? Have we done enough to try to undermine the dictatorship 
of Slobodan Milosevic in Serbia? Whatever we decide, I want to make one 
thing clear: the United States must act with or without the stamp of 
approval from the United Nations Security Council.
    The United States must not stand by and watch another massacre of 
innocent civilians at the hands of Slobodan Milosevic.
    I look forward to hearing from both of our witnesses this afternoon 
and appreciate their willingness to discuss these issues with members 
of the Committee.

  STATEMENT OF HON. ALFONSE D'AMATO, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator D'Amato. Mr. Chairman, first of all, let me begin 
by thanking you and our distinguished Ranking Member for 
providing us with the opportunity to speak about Kosovo, and 
certainly to be here with our colleague and former leader and 
great Senator and great fighter for human rights. Senator Dole 
is a double treat, and an honor.
    Mr. Chairman, today I introduced in the Senate a resolution 
stating that the United States has probable cause to believe 
that Slobodan Milosevic of the Federal Republic of Yugoslavia 
has committed war crimes, crimes against humanity, and 
genocide, and that he should be publicly indicted by the 
International Criminal Tribunal for the former Yugoslavia. 
Indeed, I am sorry that we even assign to him the title of 
president.
    I think that it is incomprehensible and indeed, I am sorry 
that in the resolution we refer to him in that manner, but that 
is only for purposes of identification, because, Mr. Chairman, 
I cannot think of a worse person--you have to really stretch--
who has created more harm, more destruction to more human lives 
than Milosevic. It is difficult in this era, and he certainly 
ranks with the Pol Pots of the world.
    We will be seeking cosponsors for this resolution and I 
would hope that we could get a unanimous vote and sponsorship 
that would include all of the Members of the Senate and adopt 
this in the near future.
    Milosevic is the proximate cause for the trouble in Kosovo. 
It was his political ambition to create a greater Serbia. He 
fanned the smoldering embers of ethnic hatred into a 
conflagration in Bosnia that killed and wounded hundreds of 
thousands of people and displaced millions, millions of people. 
I mean, it is hard to believe in this era, in this day and age, 
in that area of the world, that we would allow that to take 
place. He rode the groundswell of hatred into political power 
and then distanced himself from the ultranationalists whose 
help he used.
    And since then, a coalition of opponents known as Together 
has held great street demonstrations in Belgrade attempting to 
force his resignation. Milosevic's party lost important local 
elections across Serbia, and to stem this tide of opposition he 
has now moved back toward the ultranationalists he once 
abandoned and denied the Kosovar Albanian majority any relief 
from the oppressive police State that he has established.
    Milosevic apparently hoped that these actions would trigger 
a violent response from the Kosovar Albanian majority, one he 
could use to once again divide and suppress his domestic 
opposition.
    Well, he has got what he wanted, and he is using ethnic 
hatred against the Kosovar Albanian majority to shore up his 
domestic power base. So far, the United States has treated him 
as the indispensable person, a terrible policy, a policy 
fraught with nothing but bringing about contempt for anything 
other than real power, the one key player without whom there 
could be peace in Bosnia, and now without whom there cannot be 
a peaceful settlement in Kosovo.
    We have talked with him over and over. We have accorded him 
the courtesies due a head of State, unfortunately.
    Mr. Chairman, it is time to recognize who and what he is, 
to make clear to the world that we hold him personally 
responsible for the conflict in the Balkans. It is time to end 
impunity for Milosevic.
    My resolution calls upon the United States to turn over to 
the International Criminal Tribunal all of the information we 
possess that could serve as evidence against Milosevic, to work 
with our allies to cause them to do the same and, once 
Milosevic is indicted, to work to secure his apprehension and 
his trial by the tribunal.
    There is a considerable body of evidence on the public 
record about Milosevic's role in first the Bosnian and now the 
Kosovo conflicts. It has been collected and analyzed by 
international legal experts, and in their opinion there is 
enough evidence already to support a public indictment by the 
tribunal, but there is also reason to believe that Governments 
concerned with the Balkan conflicts have still more information 
that, despite their obligation to support the International 
Criminal Tribunal, they have not yet made available to that 
tribunal.
    I believe the United States should carefully review all of 
the information we have and turn over absolutely every bit of 
that evidence which they now possess and seek his indictment as 
a killer. We must provide all that information. We should not 
compromise intelligence sources, obviously, but we can and do 
have credible evidence that will establish that he has been 
part and parcel of the genocide that is taking place right now.
    Action by the tribunal would signal to all participants in 
the conflict that no one is above the law, not even Milosevic.
    Mr. Chairman, we have to stand up and do what is right. 
Once Milosevic is publicly indicted, the States that have 
blocked or slowed necessary action to solve the Kosovo conflict 
could not stand by him. Just as Karadzic and Mladic are now out 
of power and in hiding, living on borrowed time, Milosevic 
himself could not maintain his position of political power for 
very long.
    There is evidence that the democratic opposition in Serbia 
that has so effectively been divided and suppressed is once 
again rising. An indictment, especially one quickly followed by 
the tribunal so-called superindictment process, at which 
prosecutors publicly present the evidence supporting the 
indictment to the tribunal, would undermine whatever 
international legitimacy he still has.
    The time has come for the Senate of the United States to 
encourage this Nation to take the lead in this effort. 
Milosevic should be publicly branded the war criminal we know 
he is, and now this vital step would help save lives. It would 
help stop the further ethnic cleansing and would strike a blow 
for democracy. It is, I believe, the best way for us to 
proceed, and I believe we have an obligation to come together 
and to call the situation as it is.
    Mr. Chairman, we look forward to your leadership and that 
of the committee in helping us obtain a peaceful resolution, 
and I believe this is one of the ways in which we can do that.
    [The prepared statement of Senator D'Amato follows:]
             Prepared Statement of Senator Alfonse D'Amato
Mr. Chairman:
    I want to begin by thanking you and the distinguished Ranking 
Member for providing me with this opportunity to speak about Kosovo. I 
will not take much of your time, but I want to tell you about an 
initiative I began earlier today and ask you to support it.
    Today, I introduced in the Senate a resolution stating that the 
United States has probable cause to believe that Slobodan Milosevic of 
the rump Federal Republic of Yugoslavia has committed war crimes, 
crimes against humanity, and genocide, and should be publicly indicted 
by the International Criminal Tribunal for the Former Yugoslavia. I am 
seeking cosponsors for this resolution and I hope the Senate will adopt 
it unanimously in the near future.
    Milosevic is the proximate cause for the trouble in Kosovo. It was 
his political ambition to create a ``Greater Serbia.'' He fanned the 
smoldering embers of ethnic hatred into a conflagration in Bosnia that 
killed and wounded hundreds of thousands of people and displaced 
millions. He rode the ground swell of hatred into political power, and 
then distanced himself from the ultra-nationalists whose help he used.
    Since then, a coalition of opponents known as ``Together'' held 
great street demonstrations in Belgrade, attempting to force his 
resignation. And Milosevic's party lost important local elections 
across Serbia. To stem this tide of opposition, he has now moved back 
toward the ultra-nationalists he'd once abandoned, and denied to the 
Kosovar Albanian majority any relief from the oppressive police state 
he established there.
    Milosevic apparently hoped that these actions would trigger a 
violent response from the Kosovar Albanian majority, one he could use 
to once again divide and suppress his domestic opposition. He got what 
he wanted, and he's using ethnic hatred against the Kosovar Albanian 
majority to shore up his domestic power base in Serbia.
    So far, the United States has treated him as the ``indispensable 
person,'' the one key player without whom there could not be peace in 
Bosnia, and now, without whom there cannot be a peaceful settlement in 
Kosovo. We have talked with him over and over again, according him the 
courtesies due a head of state.
    Mr. Chairman, it is time to recognize who and what he is, and to 
make clear to the world that we hold him personally responsible for the 
conflict in the Balkans. It is time to end impunity for Slobodan 
Milosevic.
    My resolution calls upon the United States to turn over to the 
International Criminal Tribunal all of the information we possess that 
could serve as evidence against Milosevic, to work with our allies to 
cause them to do the same thing, and once Milosevic is indicted, to 
work to secure his apprehension and trial by the Tribunal.
    There is a considerable body of evidence on the public record about 
Milosevic's role in first the Bosnian and now the Kosovo conflicts. It 
has been collected and analyzed by international legal experts. In 
their opinion, there is enough evidence already to support a public 
indictment by the Tribunal. But there is also reason to believe that 
governments concerned with the Balkan conflict have still more 
information that, despite their obligation to support the International 
Criminal Tribunal, they have not yet made available to the Tribunal.
    I want the United States to carefully review all of the information 
we have and turn over absolutely every bit of evidence that we have 
that Milosevic is a killer. We must provide all of the information we 
can without compromising intelligence sources and methods vital to the 
safety of our troops and our own operations.
    Action by the Tribunal would signal to all participants in the 
conflict that no one is above the law, not even Milosevic.
    Mr. Chairman, we have to stand up and do what's right. Once 
Milosevic is publicly indicted, the states that have blocked or slowed 
necessary action to solve the Kosovo conflict could not stand by him. 
Just as Karadzic and Mladic are now out of power and in hiding, living 
on borrowed time, Milosevic himself could not maintain his position of 
political power for very long. There is evidence that the democratic 
opposition in Serbia that he so effectively has divided and suppressed 
is once again rising. An indictment, especially one quickly followed by 
the Tribunal's so-called ``super indictment process,'' at which 
prosecutors publicly present the evidence supporting the indictment to 
the Tribunal, would undermine whatever international legitimacy 
Milosevic still has.
    The time has come for the Senate to encourage the United States to 
take the lead in this effort. Milosevic should be publicly branded the 
war criminal we know he is, and soon. This vital step would help save 
Kosovo from further ethic cleansing and would strike a blow for a 
democratic future for Serbia itself.
    Thank you.

    Senator Smith. Thank you, Senator D'Amato. We certainly 
share your feeling of urgency. This committee met 7 weeks ago 
on this issue, and the situation has only deteriorated since 
that time.
    We are very appreciative that Senator Dole and Ambassador 
Abramowitz would take their time to join with us to discuss 
this issue and their views of it. Both know the issue well, and 
specifically the former Majority Leader, who is currently 
serving as chairman of the International Commission on Missing 
Persons in the former Yugoslavia, can speak to this issue from 
first-hand experience.
    Senator Dole, we thank you for being here, and we invite 
your testimony.
    Senator D'Amato. Thank you, Mr. Chairman.
    Senator Smith. Thank you, Senator D'Amato.

    STATEMENT OF HON. ROBERT DOLE, CHAIRMAN, INTERNATIONAL 
    COMMISSION ON MISSING PERSONS IN THE FORMER YUGOSLAVIA, 
                         WASHINGTON, DC

    Senator Dole. I want to thank my former colleagues. Let me 
say first, I am here as a volunteer. I am not retained by 
anybody.
    I am here because I believe in this issue, just as Senator 
Biden and Senator Coverdell did when I was in the Senate, and I 
really believe that had not the Senate persisted a few years 
ago we would not have had the Dayton Accords. We would not have 
what we have now in Bosnia, and I really believe it is going to 
take the same determination by Members of the Senate of both 
parties in a bipartisan way to get some meaningful action now, 
and it is an honor to be here.
    I certainly share the views expressed by my colleague, 
Senator D'Amato. He has been there. In fact, he went with me 
one time. We had trouble getting in, as I recall.
    But 3 years after we have had the Dayton Accords, we have 
got the same trouble again with Milosevic, and I know 
Ambassador Holbrooke is making every effort to send him a 
message. In fact, today, I think, I read on the wire Holbrooke 
met with some of the KLA rebels, and he said in effect these 
people are beleaguered. They do not have supplies. That is the 
case in Kosovo. They do not have the supplies and they are 
beleaguered.
    But we saw what happened--I remember Haris Silajdzic came 
to my office before anything even started in Bosnia and he sat 
in the Leader's office and he told me, unless something was 
done, A, B, C, D, and E would happen, thousands of people would 
be killed, innocent women and children, he gave me a forecast 
that was almost perfect, if we did not step in and do 
something, not just us but NATO and Europe.
    So we have seen what happened. We have seen how many 
refugees are still trying to find a way back home, whether it 
is Croatia or Serbia or Bosnia, mostly in Bosnia.
    I happened to be--I have agreed with President Clinton to 
be Chairman of the International Commission on Missing Persons. 
There are about 20 to 30,000 people who just disappeared in 
Bosnia; 82 percent are Bosniaks. They are men between the ages 
of 10 and 70. They were taken from their homes. They were 
starved and tortured and executed and dumped into mass graves.
    And whenever I go there--and I have been there three times, 
we will be going again in July, or August--we meet with the 
mothers. And, we all know what the trauma was, for the mothers, 
after Vietnam in the United States, and I remember specifically 
meeting with a mother in Zagreb, Croatia, because all the 
mothers had little buttons, and they had pictures of their 
sons, missing sons. And most of these women are peasant women. 
They are not well-educated. That is all they have. They do not 
have any material goods. All they had were their children, 
their sons in this case.
    I remember coming around to the lady and asking her to tell 
her story, and she had a button with four pictures, all of her 
sons, taken from their home. She believes they still could be 
alive. I think it is highly doubtful.
    But like any other mother, she would like us, in our 
capacity in trying to locate and identify missing persons' 
remains--really, they are not bodies, but remains, so she can 
end her grief. So she can bring some kind of closure to this 
particular tragedy, that was started by Milosevic. We do not 
want to forget where it started.
    I used to fuss at the Bush administration because I thought 
they sort of gave, maybe not a green light, but it was at least 
proceed with caution, but proceed. They did not discourage 
Milosevic, and there has not been much discouragement since, 
and I think it is fair to say that Senator D'Amato's already 
referred to it, Milosevic's rise to power was on the tide of 
extreme nationalism, and it began in Kosovo, a few years before 
the war against Bosnia.
    I visited Kosovo with Senator D'Amato and Senator Nickles 
and Connie Mack and two or three others, and I remember the 
difficulty we had getting into Pristina. We were told there 
were 20,000 people waiting to greet us, just to say hello to 
Americans, and they were beaten and driven away by Serb police 
forces before we could arrive there.
    First of all, we were told we could not go there alone 
without taking the Serbian foreign minister, and we persisted, 
and they finally let us into Pristina, without him. It seemed 
to me even then it was pretty obvious there were going to be 
some big, big problems down the road.
    Milosevic was determined to expand power and control 
through the use of force and, as you know, he stripped Kosovo 
of any political power. Ethnic Albanians cannot operate their 
own schools. They must learn Serbian. The Albanians, of course, 
outnumber the Serbs by 9 to 1, about 2 million to 180,000 I 
think it is, but they do not have their own hospitals, and they 
deliver babies in a room about this size, one after another, 
with no real medical equipment.
    I think we understand what has happened. When you strip 
anybody of everything they have, their dignity, their power, 
their autonomy, and then expect them to be happy, it is not 
going to last very long.
    After Slovenia and Croatia declared independence, the 
Yugoslav Army, which was under his control, Milosevic's 
control, began its brutal attacks, and 1 year later the 
Yugoslav Army again supported Bosnian Serb forces against the 
Bosnian Government and its citizens.
    And here, I want to make a distinction between Milosevic 
and the Serbian people. We have all heard about the Serbian 
mothers going to Kosovo to try to rescue their sons. In my 
view, I do not know whether I would say quite what Senator 
D'Amato said, because Milosevic was, I guess, elected 
president, or at least he is president, but I do believe that 
he does not represent the views of most Serbian people.
    I found the families in Belgrade, the ones we visited with, 
had the same concerns. Their economy was ruined and devastated. 
Many Serbs do not have jobs. They do not have opportunities 
because of Milosevic, and whenever he gets in trouble he goes 
down and starts shooting somebody in Bosnia or Kosovo or 
somewhere else, to get his numbers up.
    But I would just say, with this recent history in mind, it 
cannot be a surprise that Milosevic has turned his attention 
back to Kosovo. He is using the same bloody tactics and causing 
the same human suffering. Unfortunately, what is also the same, 
is the hand-wringing and indecisiveness that marked U.S. and 
Western policies toward Bosnia until the summer of 1995.
    I think it is fair to say that we just have not had strong 
leadership. I know the President--in fact, I recently wrote 
President Clinton a letter. He sent me a response which I 
received just a few days ago. I think he is sincere when he 
says he wants to bring this to a stop. He wants to end the 
violence.
    But we have even retreated from the so-called Christmas 
warnings which were articulated by both Presidents Bush and 
Clinton and advocated that the Kosovar Albanians negotiate with 
Milosevic without an international mediator and while attacks 
were taking place and, as we all know, that is a fruitless 
exercise.
    So it seems to me that there are several things we might 
do. The time for prevention, in my view, has already passed. 
The opportunity to resolve the status of Kosovo at Dayton was 
missed, so there is no other realistic option left, then, but 
to threaten Milosevic with force and be prepared to carry out 
that threat.
    This is the only message that I believe is worth delivering 
to Belgrade. I am therefore gravely concerned that the action 
taken to date is not enough to prevent another Bosnia, even 
with NATO jets only miles away Serb forces continue to lay 
mines, attack Albanian villages, and move additional troops and 
equipment into Kosovo. As our experience with aggression 
against Bosnia demonstrated, the longer we wait to take action 
the more effort it takes. We either act now--there have been 
about 300 killed now, and there are some missing--or deal with 
the deadly, much more severe consequences later.
    Certainly everyone on this panel has knowledge about this 
and may keep more current than I do. But, I would recommend 
first that we deliver a real ultimatum to Milosevic--and maybe 
Holbrooke will do that when he goes back to Belgrade tomorrow--
but if Milosevic does not halt the attacks on Kosovo, pull back 
his forces, and agree to participate in internationally 
mediated talks, NATO will conduct air strikes against military 
installations in Serbia.
    Second, establish a NATO no-fly zone over Kosovo which, if 
violated, will be met with swift and decisive military 
retribution.
    Third, extend the sanctions imposed on Serbia and establish 
a comprehensive economic embargo which includes a ban on the 
export of fuel to Serbia. It is imperative, however, that these 
sanctions be imposed in conjunction with, rather than as 
substitute for U.S.-NATO military threat.
    Clearly, the objective of these actions is to support a 
negotiated solution that will bring a genuine and lasting peace 
to Kosovo. In that regard, I would like to discuss the end game 
for any negotiations.
    There has been a lot of discussion to the effect that if we 
use force, we will be supporting independence for Kosovo. Mr. 
Chairman, I do not take that view. First, in using force, NATO 
would be acting to prevent a wider war that could involve 
Albania, Macedonia, Greece, Bulgaria, among others.
    Second, NATO would put Milosevic back in his box and end 
the violence he has wrought.
    Third, NATO would create a more level playing field for 
negotiations. Milosevic would never have gone to Dayton if NATO 
had not conducted air strikes against Bosnian-Serb targets, at 
least that is my view.
    Finally, in my view, negotiations should be centered on 
establishing Kosovo as a republic with the same status as 
Serbia and Montenegro and with international guarantees. I 
believe that the Kosovar leadership would support such a 
solution. In fact, I think there is a willingness on the part 
of the Kosovar leadership to come to the table in some 
internationally mediated negotiation.
    For nearly 10 years, while under increasing repression, 
President Rugova and Prime Minister Bukoshi have supported a 
moderate approach and rejected force to achieve their political 
aims. Now under attack in a real war situation the ethnic 
Albanians they represent, have lost their patience, and some 
not surprisingly have supported the Kosovo Liberation Army, the 
KLA.
    If NATO acts resolutely, this will not only bring Milosevic 
to the table, but it will also bolster the credibility of 
Rugova and Bukoshi among the people who elected them.
    I would conclude by asking that my entire statement be made 
a part of the record. I am certain that you have heard much of 
this before, but I want to make one last statement, and that is 
about humanitarian aid. I have just been advised that the 
International Committee on the Red Cross has been very active 
in that area. It is critical that the United States provide 
logistical and material support to the humanitarian aid effort 
and do all it can to ease the suffering of the Kosovars.
    Tens of thousands who have been forced out of their homes 
have fled in fear. They lack food. They lack medicine.
    I met with some of the women who were here from Kosovo, as 
you may have. I met with them this morning, and the stories 
they tell you are almost unreal. You cannot believe it, but you 
do believe it because you know it is the truth about the 
suffering that is happening in all of Kosovo.
    Unless we address the real problem, and the real problem is 
Milosevic's genocidal expansionist regime, we will condemn 
ourselves to the costly mistakes of Western delay and inaction 
in Bosnia.
    And again, whether we like it or not, we have to provide 
the leadership. I must say Prime Minister Blair has been very 
forthcoming in his statements, and the statement just again 
today, saying the military option is still on the table. I 
believe that with our leadership we could probably end this 
crisis and end this reign of terror.
    I also want to thank Senator Tim Johnson for contacting me 
and indicating that he is in the process of trying to round up 
some Senate support for a resolution he has introduced.
    So, Mr. Chairman, and my colleagues, I thank you very much, 
and I know you understand the importance of this. There are 
many people in this room who come from Kosovo who now live in 
the United States. They understand the importance of this, and 
I have confidence the Senate will do whatever it takes to do 
the appropriate thing.
    [The prepared statement of Senator Dole follows:]
                 Prepared Statement of Senator Bob Dole
    Mr. Chairman: I appreciate the opportunity to testify before your 
Subcommittee on the vitally important situation in Kosova.
    Three years after the Dayton Accords ended the fighting in Bosnia 
and Herzegovina, Slobodan Milosevic is back at it again. This time his 
forces are in Kosova, driving out and killing Albanians. However, if 
the United States waits three years again to take effective action, 
Kosova's two million Albanians will fare even worse than their Bosnian 
neighbors.
    This is not a new problem. In fact, Milosevic's rise to power on 
the tide of extreme nationalism began in Kosova. Two years before the 
war against Bosnia, I visited Kosova with a delegation that included 
six United States Senators, including Don Nickles, Connie Mack, and 
Alfonse D'Amato, from whom you will hear today. In Pristina, the 
capital, we were greeted by Albanians who only hours earlier had been 
tear-gassed and clubbed by Serbian police forces.
    It was clear even then, that Slobodan Milosevic was determined to 
expand his power and control through the use of force. He had stripped 
Kosova of its political autonomy and status and imposed martial law. 
Later, after Slovenia and Croatia declared independence, the Yugoslav 
Army, which was under his control, began its brutal attacks. One year 
later, the Yugoslav Army again supported Bosnian Serb forces against 
the Bosnian government and its citizens.
    Mr. Chairman, with this recent history in mind, it cannot be a 
surprise that Milosevic has turned his attention back to Kosova--using 
the same bloody tactics and causing the same human suffering. 
Unfortunately, what is also the same, is the hand wringing and 
indecisiveness that marked U.S. and Western policies toward Bosnia 
until the summer of 1995.
    I think it is fair to say that in recent months, the United States 
has not exercised sufficient leadership. The administration has 
retreated from the so-called ``Christmas warnings'' to Milosevic 
articulated by both Presidents Bush and Clinton. and advocated that the 
Kosovar Albanians negotiate with Milosevic--without an international 
mediator and while attacks were taking place.
    This tepid response to the escalating violence has not only 
emboldened Milosevic, but also eroded American credibility. It seems 
that only British Prime Minister Blair has advocated responding in a 
way that reflects a recognition that there is a war going on right now. 
If this war continues the price will not only be paid by the Kosovar 
Albanians, but by NATO, Europe and the United States.
    Make no mistake, the time for prevention has come and gone. The 
opportunity to resolve the status of Kosova at Dayton was missed. And 
so, there is no other realistic option left than to threaten Milosevic 
with force and be prepared to carry out that threat. This is the only 
message worth delivering to Belgrade.
    I am therefore gravely concerned that the action taken to date is 
not enough to prevent another ``Bosnia.'' Even with NATO jets only 
miles away, Serb forces continued to lay mines, attack Albanian 
villages. and move additional troops and equipment into Kosova.
    As our experience with the aggression against Bosnia demonstrated, 
the longer we wait to take action, the more effort it takes. We can act 
now, or deal with the deadly, much more severe consequences later.
    With those lessons in mind, I wrote to President Clinton two weeks 
ago to express my concerns and recommend a strong course of action. In 
his response, the President cited NATO's accelerated contingency 
planning and stated that the Administration was not ruling anything 
out.
    What I recommended specifically to the President was that he lead 
our allies in taking three immediate actions:
    First, deliver an ultimatum to Slobodan Milosevic that if he does 
not halt the attacks on Kosova, pull back his forces, and agree to 
participate in internationally mediated talks, NATO will conduct air 
strikes against military installations in Serbia
    Second, establish a NATO no-fly zone over Kosova, which if violated 
will be met with swift and decisive military retribution.
    Third, extend the sanctions imposed on Serbia and establish a 
comprehensive economic embargo, which includes a ban on the export of 
fuel to Serbia. It is imperative, however, that these sanctions he 
imposed in conjunction with--rather than as a substitute for--a U.S. 
NATO military threat.
    Clearly, the objective of these actions is to support a negotiated 
solution that will bring a genuine and lasting peace to Kosova.
    In that regard, I would like to discuss the end game for any 
negotiations. There has been a lot of discussion to the effect that if 
we use force we will be supporting independence for Kosova. Mr. 
Chairman, I do not take that view.
    First, in using force, NATO would be acting to prevent a wider war 
that could involve Albania, Macedonia, Greece, and Bulgaria, among 
others.
    Second, NATO would put Milosevic back in his box and end the 
violence he has wrought.
    Third, NATO would create a more level playing-field for 
negotiations. Milosevic would never have gone to Dayton if NATO had not 
conducted air strikes against Bosnian Serb targets.
    Finally, in my view, negotiations should be centered on 
establishing Kosova as a republic, with the same status as Serbia and 
Montenegro, and with international guarantees.
    I believe that the Kosovar leadership would support such a 
solution. For nearly ten years while under increasing repression, 
President Rugova and Prime Minister Bukoshi have supported a moderate 
approach and rejected force to achieve their political aims. But, now 
under attack and in a real war situation, the ethnic Albanians they 
represent have lost their patience--and some, not surprisingly, have 
supported the Kosovar Liberation Army (KLA). If NATO acts resolutely. 
this will not only bring Milosevic to the table, it will also bolster 
the credibility of Rugova and Bukoshi among the people who elected 
them.
    Before I conclude, I would like to bring attention to the growing 
humanitarian crisis. It is critical that the United States provide 
logistical and material support to the humanitarian aid effort and do 
all it can to ease the suffering of the Kosovars, tens of thousands who 
have been forced out of their homes or fled in fear. The people are 
lacking adequate food, medicine and shelter. I would strongly urge the 
members of the appropriations committees in the Congress to include 
funding for emergency humanitarian relief in the foreign operations 
bill.
    As essential as this humanitarian aid is, it is not a substitute 
for political and military action. We must remember that, like Bosnia, 
this is not a humanitarian crisis, rather it is a political and 
military crisis with severe humanitarian consequences.
    Mr. Chairman, unless we address the real problem--Milosevic's 
genocidal expansionist regime--we will condemn ourselves to the costly 
mistakes of Western delays and inaction in Bosnia. America must provide 
leadership to end this crisis and Milosevic's reign of terror once and 
for all.

    Senator Smith. Thank you, Senator Dole. Ambassador 
Abramowitz, we know Senator Dole has to leave by 5 p.m. I would 
like to ask if we could question him first.
    Senator Dole, recently we were favored with a visit of the 
Prime Minister of France, Mr. Juspin, and I am not certain 
whether our two countries are on the same page with respect to 
the former Yugoslavia. I pursued with him the issue of Kosovo 
and wanted to know whether we were on the same page, and even 
raised the idea of perhaps acting militarily.
    He said we were on the same page, and if there was any 
action at all it should be done by NATO, but NATO should not 
act until the United Nations Security Council gave its green 
light. I wonder if you have any comment about that, if that is 
realistic, if that is a prescription that simply will not 
respond to this situation.
    Senator Dole. Well, first it would be--I would not say 
precedent-setting, but it would be refreshing to find France on 
the same side. That would be news, and that would be welcome.
    But you know, we have the Russians as members of the 
Security Council and, of course, obviously they have a close 
relationship with the Serbs and Slavic nations, and I know 
Milosevic made the trek to see Yeltsin and others in Russia 
recently. We may want to go get a resolution of some kind, but 
it seems to me we have that authority.
    I do not think--I mean, we can delay this. That is one way 
to delay it, is to go back to the United Nations and wait 
another 30 or 60 days, and I assume maybe after Holbrooke 
leaves that Milosevic will be a good boy for a while and then 
in a couple of weeks something else will happen and he will 
start his terror again in Kosovo, but I am not certain I would 
agree with the French Prime Minister.
    Senator Smith. I did not think you would, but I thought I 
would ask anyway, to put it in the context of what 
international pressure we ought to be governed by as we 
contemplate taking some military action.
    Senator Dole. Well, it would be great--you know, we thought 
for a long time this was something the Europeans could handle, 
but as it turned out it again took our efforts and our 
leadership. I commend the administration for the efforts in 
Dayton, but I think they came far too late. As I said, I think 
the Bush administration was also gujilty of delaying and 
withholding action. They wanted to keep an undivided 
Yugoslavia, which was not even practical, because it already 
had a declaration of independence by Slovenia and Croatia.
    I think we have to provide the leadership, and I would hope 
that President Clinton understands that. I think it is a 
question of how is he going to get support. I think he has 
support from Tony Blair, but Milosevic has been through this 
dozens of times, and he is familiar with all the tough 
rhetoric. He has heard it all. If nothing happens afterwards, 
he is going to keep doing it.
    Senator Smith. Senator Dole, on the front page of the New 
York Times today there is a very heart-rending account of the 
death of a Serbian boy in Kosovo, and I think it is at least 
apparent that the KLA were responsible for his death.
    Is it not fair to say if we do not do something soon, that 
the other side is arming as we speak, and that the atrocities 
will then be going the other way? I wonder if you have a 
thought on that, and what we might do to try to hold back the 
violence that may come from the other side?
    Senator Dole. That is why I think it is important, and 
maybe Ambassador Abramowitz has a different view, that we do 
everything that we can now to stop Milosevic. if you have 
mediated negotiations and have the Serbs pull out, and the KLA 
would have no choice but to continue to defend their people. 
And I would assume there are some KLA membes who are, while I 
would not say terrorists, are capable of terrorist-style acts. 
Maybe a few.
    Meanwhile, because we have not stopped Milosevic, the KLA 
continues to grow. But if somebody has got to protect your home 
and you have got an invading force, and you do not belong to 
the KLA or any other group, you are probably going to sign up. 
You are going to join up, and that is what is happening.
    And the longer we wait, the longer the international 
community waits to take some action, the more of this you are 
going to have. Who wants anyone killed, Serb or Albanian? I do 
not know of anybody who is wishing for that, certainly not 
young boys, and I happened to see that picture in the New York 
Times, the 13-year-old.
    But it is going to increase, as you indicated, unless some 
action is taken.
    Senator Smith. We welcome Senator Dodd. I would turn to 
Senator Biden for his comments.
    Senator Biden. Mr. Leader, it is good to see you again. We 
are glad to have you here.
    As you recall, you and I also made a trip. For the longest 
time there were not many of us. You, me, Joe Lieberman, a few 
others, who were the thorn in the side of our colleagues in the 
Senate and Bush and Clinton.
    Let me make a statement, and just tell me whether you agree 
with it or not. By the way, I note parenthetically that Tony 
Blair is saying all the right things, but he is making all the 
wrong policies.
    Blair said that we should use force, but that NATO needs a 
U.N. mandate first. We are not going to get a U.N. mandate. 
Russia will veto that in all probability. We should try, but 
they are going to veto it, and so it seems to me we are not 
going to get the support the President needs from the U.N.
    We are also not likely to get a voluntary response from the 
rest of NATO unless we make it an absolute demand privately. I 
think the only thing that is going to embolden the President to 
use force, if we have to use it alone, which I think we should 
do if we have to, is if he gets support from here, from the 
Congress.
    That is what happened last time. It was not until we 
convinced the Congress that anyone was emboldened enough to go 
it alone, and only after we said we were going to go it alone, 
and I am oversimplifying slightly, did NATO decide to come 
along.
    And so can you see any other prescription, other than that? 
I cannot figure out how to do it, other than that.
    Senator Dole. I do not think it will happen, and I remember 
when we got 69 votes to lift the arms embargo on Bosnia. That 
was enough to override a veto, and then things started to 
happen, but not until then. And, the effort was, as you know, 
totally bipartisan. I remember some people were sort of slow 
coming in that direction, but once they had been there and seen 
what was happening, they were supportive. I think it gave 
President Clinton support. He needed the support.
    Senator Biden. He did. The first visit that I made was in 
April 1993, which has been publicized by our friend Mr. 
Milosevic. I had a long 3-hour meeting with Mr. Milosevic, and 
at one point in his office, it was late at night, he looked 
across this little, tiny table from me and he said, ``what do 
you think of me?'' I said, ``I think you are a gosh-darned war 
criminal, and I think you should be tried as one.''
    The reason I recite that is his response. He looked at me, 
cool as a cucumber and said, in effect, ``lots of luck in your 
senior year.'' I mean, ``have a good day. By the way, do you 
want to speak with Radavan Karadzic?'' I said, ``I thought you 
had no control over him.'' He said, ``well, I don't. Would you 
like to speak to him?''
    It was 11 at night. He dialed the telephone in his office. 
Fifteen minutes later, a guy with hair I wish I had, a brain I 
am glad I do not, and an attitude I do not wish on anyone came 
up the stairs, out of breath, literally gasping for air--my 
word to this--walked in the room, sat down next to Milosevic 
and said, ``Mr. President, I am sorry I am late. I am sorry.''
    And I looked at Milosevic and said, ``no control, huh?''
    This guy has control. The only thing he has ever responded 
to is force, nothing else. The real questions are, are we going 
to go it alone, and then maybe bring people along, and, second, 
are we going to make it clear to the KLA that we are not 
looking for an independent Kosovo? That is not our purpose.
    It is a difficult spot. The longer we delay, the worse it 
is. But I am delaying opportunity for my colleagues to ask 
questions.
    Senator Dole. I would just add, it seems to me Milosevic 
understands the U.S. Senate, and he knows there are 100 
Members. When you get to have 60 or 70 on one side or the 
other, he understands that, so I think that helps.
    My view is that he is a very charming person to sit down 
with, and you say, well, stay for lunch, or stay for dinner, or 
stay all night, or stay all week. When you meet Tudjman, 
Milosevic is sort of the charmer of the group, because he wants 
to get rid of sanctions.
    I was there in January and he said, well, 2 years is long 
enough. There have been sanctions long enough. I said, well, 
what about Kosovo? Oh, we are making great progress in Kosovo. 
I am going to announce a big educational program.
    And weeks later we had the first people killed. You cannot 
trust him.
    Senator Smith. Senator Coverdell.
    Senator Coverdell. Mr. Leader, it is good to have you back, 
as always, to see you continuing to make such substantial 
contributions to our Nation.
    I am interpreting you as concluding that the U.N. 
resolution is a delayed tactic, and that we would probably not 
get the resolution, and you have therefore concluded that the 
United States should be prepared to act unilaterally.
    Kosovo is not a household word. There would have to be, I 
think, substantial moral leadership to bring the Nation to 
understand why we were doing this. In a moment, I would like 
you to just comment on my general observations.
    In a meeting that occurred earlier in the week regarding 
this subject I raised the question, as the world's only 
superpower, more and more it seems to me we are confronted 
with, but in the end we will have to go it alone, and there are 
limits. We are paying a price for that kind of commitment, and 
the ability to maintain a force that has sufficient resources 
to be trained and sufficient resources to have the ultimate in 
research. These resources are being diluted, because of ongoing 
commitments that we have made as a Nation.
    It seems to me somewhere along the way we need to step back 
and say what kind of criteria will govern globally in these 
kinds of decisions. We can point to five or six places on the 
map at any time where there is true tragedy occurring that you 
could argue requires intervention and, as I said, there are 
limits.
    I think the limits ought to be broader than just cultural. 
We have great cultural relationship with Europe, and I would be 
interested in any thought that you have given to this broader 
question.
    I do not take exception with your frankly very emotional 
statement that you made. I do not know how anybody could not 
empathize with it. But I do think this discussion requires that 
we step back and think through the extent and breadth of what 
we can do in these kinds of situations, and I know you have 
given this some thought, and I would like to have your 
observations.
    Senator Dole. I would just say briefly that--and you are 
right, we cannot kick every sleeping dog. We cannot just go 
around the world and say, well, here is a problem, let us take 
care of it on our own.
    But I think there is a larger question here, and my view is 
that as this continues to escalate what we have going in Bosnia 
is going to fall apart. I mean, if we cannot control the 
Serbian police in Kosovo I look for something to erupt in 
Bosnia where we now have at least peace as long as we are 
there, as long as Americans are there. Thirty four other 
nations are also participating. For that reason I think there 
is a direct link.
    And it was my view from the start we would not be in that 
part of the world today had we lifted the arms embargo years 
ago, as you voted to do, and as we all voted to do, because the 
Bosnians could have fought their own battles. I mean, there is 
a right of self-defense. It is guaranteed in the United Nations 
charter, but we would not give the Bosnians that right, and now 
we are paying for it, billions and billions of dollars.
    American forces have been there a couple of years, and I 
think they should continue to stay for a while, maybe reduce 
their numbers. I think this is the legacy of that nonpolicy 
that stated back in the early nineties and continued until, 
again, the U.S. Senate spoke with some authority with 69 votes.
    So I think I would make an exception in this case and 
ensure that the United States stands up and takes effective 
action. If this continued to spread too to Montenegro and to 
other countries, Albania, who knows where, it might end in a 
greater conflict. I think it is again a part of the problem 
that we did not resolve properly in the first place in 
Yugoslavia, and it is still there to be dealt with, and I think 
we have to finish it. If it is up to us to do it alone, we have 
to finish it.
    Senator Smith. Thank you, Senator.
    Senator Dodd.
    Senator Dodd. Thank you very much. Mr. Leader, it is nice 
to have you back here.
    Mr Chairman, I would ask unanimous consent to have a 
statement included in the record regarding this.
    Senator Smith. Without objection.
    [The prepared statement of Senator Dodd follows:]

                              COPY TO COME

    Senator Dodd. I would just note that back in March, in 
fact, several of us authored a resolution on Kosovo that was 
sort of a beginning process of sending the sort of signal that 
you do, and we just had a vote a few minutes ago, the last vote 
we cast here on the floor of the Senate, basically on this 
issue, and it basically said--and the language is pretty 
irresistible, I suppose because I think the language, the 
opening phrase of it was, we will not stay indefinitely.
    No one wants to vote for something that says we are going 
to stay indefinitely. Five of us voted against the resolution, 
Senator Biden and myself, Senator Lieberman, Senator Cleland, 
and Senator Robb, for the simple reason I think it sends a very 
confusing signal.
    I mean, if you are sitting back in Serbia today and you are 
watching the U.S. Senate cast a vote 90 to 5 that says we are 
not staying indefinitely, now, that is a good message for the 
folks back home here, because there is some concern that we 
have a strong strain of isolationism, and certainly you are 
more aware of this than most of us, going back to a time in our 
country where it took a one vote margin to get a draft, when 
Europe was burning.
    Franklin Roosevelt ran for reelection in 1940 promising 
that we would not engage in a world conflict, and so it is an 
appealing thing.
    But I suspect that today if you were sitting there, 
Milosevic, wondering what the Senate is up to, we just voted 90 
to 5 to say we are not going to stay indefinitely, and no one 
wants to stay indefinitely, but I question the wisdom of these 
kinds of resolutions at the same time we are trying to convince 
international bodies and organizations to be supportive of 
resolutions and to join us if necessary in exercising military 
force to deal with these situations. We look like we want it 
all different ways. We really do not want to send a message.
    I do not know whether you have any comment on that at all.
    What I really wanted to ask you about in addition to that 
point was the point that you just raised in response to my good 
friend and colleague, Senator Coverdell's question about the 
ripple effect, and you sort of alluded to it in your comments 
here.
    One of the things that is different about Kosovo that was 
true of Bosnia was in the case of Kosovo there is a strong ally 
who is willing to stand up and be supportive, and that is 
Albania, which Bosnia did not really have in its neighborhood.
    Croatia was involved, but they had their own self-interest, 
and there was some confusion about where they were in all of 
this, whereas Albania has been very forceful in providing 
support and assistance to Kosovo, and so I suspect that if we 
do not do something here in addition to the tragedy in Kosovo 
that you have probably identified here there is a very real 
possibility, it appears to me--and I may be wrong about this.
    I do not claim any great expertise in this part of the 
world at all, but I think we may be looking at a situation that 
spins out of control in to Macedonia and further down into the 
peninsula, and I wondered if you might further comment on that.
    I see my time is up at this point, but whether or not you 
see any--we are trying to raise the level of awareness here. If 
you do not respond to this, we may find this situation expand 
exponentially beyond control.
    Senator Dole. That is the point I tried to make. Of course, 
Albania is probably the poorest country in that part of the 
world, but there are a lot of refugees are fleeing there. I am 
not certain they are going to have the resources to take care 
of them, but they are able to provide weapons.
    And, of course, Iran is looking at this very carefully, and 
other countries that we have some interest in, but you look at 
the map and you have got Montenegro and Albania, you have got 
Macedonia and Greece and Turkey, and pretty soon you have got a 
big, big problem.
    I think the ripple effect, in my view it is not based on 
any super knowledge, but it just seems to me, having been there 
several times, if the Serbs get away with this in Kosovo, what 
is going to happen in Bosnia again, where they have lost 
250,000 women and children for the most part. I wish Milosevic 
would listen, but I think he has got a hearing problem. He does 
not hear anything. He is--like Senator Biden indicated, he 
keeps you there for 3 hours and you talk to him directly, and 
it is just like water off a duck, and then he gets ready for 
the next visitor.
    There may be some way to do it, but I think one way--and 
again, Ambassador Abramowitz is going to touch on that, and 
that is mediation. But this means genuine negotiations, with a 
credible threat of force, and U.S. leadership as a firm 
mediator. But it is going to be up to us to provide the 
leadership, and it starts right here in the U.S. Senate.
    Senator Dodd. Could you just comment, and I do not have any 
specific knowledge about the resolution in the Senate, but 
would you at least express some degree of caution about 
resolutions, however well-intentioned here, that sometimes send 
confusing signals?
    Senator Dole. That is my view. We worked hours and hours 
with a lot of people involved in the resolutions we crafted, 
and the more we made it specific, the more we talked about 
lifting the arms embargo, which made a lot of sense to a lot of 
people, regardless of party or philosophy, then I think we were 
on the right track.
    I think the others may serve some purpose, but I think if 
we are really serious about it there ought to be a concerted 
effort to say, OK, let us really work on a real resolution. Let 
us bring that up in a bipartisan way and get a good vote for it 
and give the President support.
    Senator Dodd. Thank you, Mr. Chairman.
    Senator Smith. I think Senator Dole, if I could put a 
little more perspective on Senator Dodd's comment and question, 
we are in a real struggle up here in the U.S. Senate, because--
and I agree, it sends the wrong message to Mr. Milosevic, but 
we are also trying to send a message to the President that we 
are hollowing out our military, and we cannot have it both 
ways.
    We are spending our military budget on Bosnia and 
peacekeeping and in the meantime we have got pilots quitting 
and we have got difficulty with morale in our own military and, 
frankly, Bosnia is a part of that and so we cannot have it both 
ways. We have got to put our wallet where our words are, and I 
do not think we are doing that.
    So that was the other side of the message, but I agree with 
Senator Dodd, and I do not want Mr. Milosevic to misinterpret 
what was done.
    Senator Biden. Mr. Chairman, there is a third aspect to 
this, and that was, it stopped a worse resolution. I was not 
for this, but you had a good friend and colleague from Texas 
and Senator Byrd, whom no one takes lightly, offering a 
resolution saying, we are out by a date certain, and we reduce 
numbers by a date certain.
    I was able to be pure on this one, but I am not sure if I--
given the choice of this versus the other--might have voted for 
this, although it was a bad idea all around.
    Senator Smith. The other was worse.
    Senator Dodd. A lot worse. I am sure he knows about that, 
too.
    Senator Smith. Senator Dole, it is past 5. We thank you for 
your generosity and your time and your comments. Ambassador 
Abramowitz, we welcome you.

 STATEMENT OF HON. MORTON I. ABRAMOWITZ, INTERNATIONAL CRISIS 
GROUP; AND FORMER ASSISTANT SECRETARY OF STATE FOR INTELLIGENCE 
                          AND RESEARCH

    Ambassador Abramowitz. Mr. Chairman, members of the 
committee, thank you for this opportunity to discuss Kosovo 
with you. It is a privilege to appear with Senator Dole, who 
has been a consistent voice of realism and conscience in this 
very sad continuing story of the end of Yugoslavia.
    Senator Biden, I have also read your statement a few days 
ago, and that was a very excellent piece of work.
    I want to discuss the Kosovo current situation and what I 
think we should do. I am not going to discuss U.S. policy 
because it is not clear to me what U.S. policy is. The rhetoric 
on it changes every day.
    And I will try to be brief. I would like first to make a 
number of points which I think need to be kept in mind when 
looking at this issue. First, we all have enormous trouble 
sorting out the competing demands of history, sovereignty, 
self-determination, justice, and stability.
    For example, Bosnia was a State in 1992, a new State, not 
as old as modern Serbia, in which ethnic groups were 
intermingled and Bosnian Serbs made up 35 to 40 percent of the 
population. Because of the massive support of the Yugoslav 
National Army, the Bosnian Serbs were allowed to forcibly carve 
out and win implicit international recognition at Dayton for a 
virtually independent State within Bosnia.
    The Albanians of Kosovo who make up 90 percent of the 
region have been denied such an opportunity in great part 
because they do not yet have the arms.
    Similarly, second, a question: Who are the terrorists? Mr. 
Milosevic says they are the Albanian separatists. Many in the 
West seem to go along with that judgment. They put the rebel 
movement that is fighting a brutal apartheid on a lower moral 
footing than Mr. Milosevic's State terrorism.
    Mr. Milosevic, of course, has been responsible, as we have 
heard, or largely responsible in the past 10 years for the 
imposition of a virtual police State in Kosovo and Bosnia, with 
the deaths of hundreds of thousands, the displacement of 
millions, and the empowerment and support of war criminals.
    He is perceived now as carrying out his rightful authority 
as the president of Serbia. He is not a candidate for the 
American terrorist list.
    The stakes in Kosovo are great. Senator Dodd, you brought 
them up. The future of Kosovo, Serbia, Macedonia, Bosnia and 
Albania, and perhaps a wider area including Greece, Bulgaria, 
and Turkey. For Americans, a particular concern is the 
stability of Bosnia, where we have 8,000 troops, and which 
could be seriously threatened, the stability of which could be 
seriously threatened by what happens in Kosovo.
    Conceivably also Mr. Milosevic may use his influence among 
Bosnian Serbs to threaten us on Kosovo. He could probably bring 
down Mr. Dodek. The enormity of the stakes does not appear to 
make it easier for western nations to know what to do. NATO is 
divided. The U.S. Government is again split, and the Russians 
have their own views.
    Mr. Milosevic is well aware of this, and he has shown a 
capacity to take advantage of our differences to spurn western 
demands.
    Fourthly, there is a wild card here, and that is the 
stability of the Milosevic regime. He is leading his already 
destitute country down a blind alley in Kosovo. He faces a 
mini-revolt in Montenegro, and even the Hungarians in Vojvodina 
are getting restive over the war in Kosovo and seeing their 
sons go to that war. Some analysts his hold on his own faithful 
may be weakening.
    Military morale--the military have largely been kept out of 
the Kosovo war to date--is by all accounts bad. Few in Serbia 
would regret his departure, but it would raise plenty of 
uncertainties for Kosovo and other Balkan issues.
    Finally, the parties in this issue cannot solve this 
problem by themselves. The West will have to be involved in 
some fashion for a long time to come if we are going to 
maintain peace in that part of the world.
    Now, let me try to summarize briefly what I think are the 
main elements of the current situation. First, the violence 
started because after many years of a nonviolent policy by the 
Albanians there was no change in their situation in Kosovo. We 
told them to be quiet and we will improve the situation, but 
nothing happened. Many Albanians came to believe that only 
violence would produce serious western help.
    That violence is continuing and I would guess it is likely 
to escalate. It is not on the order of Bosnia, and not likely, 
soon, to become so, since Kosovar Albanians have few large 
weapons and little military organization or experience.
    Some believe that the casualty figures, 300 or so, are 
understated. Some think they are exaggerated. I do not know.
    Having destroyed Albanian villages along the Albanian-
Kosovo border, the Serbs seem now focused on sealing the border 
and preventing refugees. They fear more refugees will be the 
only trigger for a western military response.
    So far--this is very important--the fighting has not 
expanded to the populous areas of Kosovo adjoining Macedonia. 
That could well happen, could well happen soon, bringing both a 
humanitarian crisis and big trouble for Macedonia if there is 
an outflow of refugees.
    Few had heard of the Kosovo Liberation Army, the KLA, a 
year ago. Now they have a Web site. The violent Serb attacks 
against KLA areas this year have done much to generate support 
for the KLA in Kosovo and abroad.
    The leadership of Mr. Rugova has been seriously weakened, 
perhaps fatally. Albanians are increasingly rallying to the 
banner of the KLA and many in Kosovo now openly demonstrate 
shouting, UJK, which is the Albanian initials for it.
    Some Albanians are thirsting for revenge against the Serbs 
after these many years of Serb rule. The KLA is in effective 
control of a large portion of Kosovo. We still know little 
about them, their size, their capabilities, their leadership, 
and their organization.
    The KLA probably believes that more violence will produce 
western military actio against Serbia. Regrettably, there are 
reports that they are now targeting Serb civilians and driving 
them out of Kosovo. If that is true, it could well land them on 
the terrorist list.
    Western diplomacy over the past 5 months has not stopped 
the violence and has failed to produce any political change in 
Kosovo. The only way Serbia can continue to rule in Kosovo is 
either through continuing greater repression or by moving 
massive numbers of Serbs into Kosovo, or driving massive 
numbers of Albanians out of Kosovo.
    The Kosovo Albanians are fed up with Serb rule, and it is 
unlikely they will allow themselves to continue to be ruled by 
Belgrade for much longer. Whether that means independence now 
remains to be seen. In any event, the status quo is thoroughly 
unacceptable.
    The question now is whether the situation in Kosovo can be 
changed without more violence, which gets out of control and 
radicalizes all Albanians, including those in Macedonia.
    Progress toward ending the violence in Kosovo requires in 
my view at least two things. First, an immediate Serb stand-
down in their military campaign, but this has to be coupled 
with 2) a concrete offer and an urgent implementation of 
serious political change in Kosovo.
    Now, how can we achieve those two things, and they may be 
insufficient. Here I think are some of the options.
    First, the West can label the KLA as terrorists and close 
the border, help close the Albanian border to them, while at 
the same time insisting that Milosevic accompany these moves 
with a cessation of fighting, immediate political change in 
Kosovo, and serious negotiations with the Albanians. Many 
believe U.S policy is headed in that direction.
    Second, we can take a chance on the fighting not escalating 
too much, being a low-intensity war for a couple of years, and 
wait for Mr. Milosevic to fall, changing the whole equation.
    Third, and alternatively, we can threaten Mr. Milosevic 
that we will destroy much of his military establishment if he 
refuses to halt the military campaign and immediately offer 
real political change in Kosovo.
    Frankly, it is hard to avoid the judgment that, despite the 
tough rhetoric, NATO is reluctant to use force, and I do not 
think they will use force unless there are many more refugees 
coming from Kosovo, particularly coming into Macedonia.
    Fourth, if we are unwilling to use force, we can make it 
clear to Milosevic that if he is not prepared to stop the 
violence and make quick and serious political change in Kosovo, 
immediate political change, we will do everything we can to 
bring him down, including supporting the KLA. Obviously, if he 
agrees we have to pressure the Albanians to stop the violence.
    There is no longer any easy answer, if there ever was one. 
The situation gets worse and worse and, in fact, neither the 
West nor Milosevic knows what to do.
    My own prescription is as follows. This is the best I can 
do. First, western diplomacy cannot continue to dawdle. It is 
imperative to stop the violence now before we have a permanent 
war, the elimination of the nonviolent Albanian leadership, 
refugees into Macedonia, and a radicalization of Albanians 
throughout the Balkans.
    This will not be achieved simply by putting pressure on the 
weaker party, the Albanians, and hoping that Milosevic will 
deliver something. The KLA will not go quietly, and we will be 
accused of perfidy of the worst sort. Political change in 
Kosovo cannot follow years down the pike. It has to come now. 
Unconditional negotiations in this case are a myth. They could 
last for years. You have to have change now.
    The basic fact is that right now, whether we like it or 
not, Milosevic remains in control and it is his call whether 
there is going to be war or peace. I would point out that he 
has never, since the Bosnian war, began, taken any politically 
difficult actions unless he is under great pressure. I suspect 
he will do the same in Kosovo.
    We are not likely to get Serb agreement at this point to 
simply remove their forces, since it would lead to Albanian 
control of Kosovo and the exodus of the remaining 180,000 or so 
Serbs. We must make contact with KLA, get to know them, and try 
to influence them.
    Their attacks on Serb civilians and efforts to drive the 
Serbs out of Kosovo must be stopped. We need to bring them 
seriously into any negotiation. Peace can no longer be achieved 
without their participation.
    I believe the Albanians should begin immediately forming a 
coalition Government made up of all political groupings within 
Kosovo. This could accelerate political change in Kosovo and 
may contribute to unfreezing the current gridlock.
    If NATO refuses to persuade Milosevic to make the right 
moves, and that seems quite possible, he must be pressured to 
do so either through force or through support of the KLA.
    Western forces must be involved in the implementation of 
any settlement. These are not self-enforcing settlements. 
Independence may ultimately take place whatever our current 
rhetoric against it, but insistence on it now I believe is 
likely to be a formula for continued violence.
    That is my best shot at it, Senators.
    [The prepared statement of Ambassador Abramowitz follows:]
                Prepared Statement of Morton Abramowitz
    Mr. Chairman, Members of the Committee: I appreciate the 
opportunity to discuss Kosovo with you. It is a privilege to appear 
with Senator Dole, who has been a consistent voice of realism and 
conscience in this sad continuing story of the end of Yugoslavia.
    I will discuss the current Kosovo situation and what I think we 
should do. I will not discuss U.S. policy because it is not clear to me 
what it is. The rhetoric changes every day. I will be brief. (I should 
note that these comments are my own opinion and do not reflect an 
official position of the International Crisis Group.)
    Let me first make a number of points which need to be kept in mind 
in looking at the Kosovo issue.
1. We all have enormous trouble sorting out the often competing demands 
        of history, sovereignty, self-determination, justice, and 
        stability. For example, Bosnia was a state in 1992--a new 
        independent state not as old as Serbia--in which ethnic groups 
        were intermingled and Bosnian Serbs made up 35-40 percent of 
        the population. Because of the massive support of the Yugoslav 
        National Army, the Bosnian Serbs were allowed to forcibly carve 
        out and win implicit international recognition for a virtually 
        independent state within Bosnia. The Albanians of Kosovo. who 
        make up 90 percent of the region, have been denied such an 
        opportunity, in great part because they do not yet have the 
        arms.
2. Similarly, who are the terrorists? Mr. Milosevic says they are the 
        Albanian separatists. Many in the West seem to go along with 
        that judgment. They put the rebel movement that is fighting a 
        brutal apartheid on a lower moral footing than Milosevic's 
        state terrorism. Mr. Milosevic has of course been largely 
        responsible in the past 10 years for the imposition of a 
        virtual police state in Kosovo, and in Bosnia for the deaths of 
        hundreds of thousands, the displacements of millions, and the 
        empowerment and support of war criminals. He is perceived now 
        as carrying out his rightful authority in Kosovo. He is not a 
        candidate for the American terrorist list.
3. The stakes in Kosovo are great: the future of Kosovo, Serbia, 
        Macedonia, Bosnia, and Albania, and perhaps a wider area 
        including Greece, Bulgaria and Turkey. For Americans, a 
        particular concern is the stability of Bosnia, where we have 
        forces and which could be seriously threatened by developments 
        in Kosovo. Conceivably Milosevic may use his influence among 
        Bosnian Serbs to threaten us on Kosovo. The enormity of the 
        stakes does not appear to make it easier for Western nations to 
        know what to do. NATO is divided, the U.S. Government is again 
        split, and the Russians have their own notions. Mr. Milosevic 
        is well aware of this and has shown a capacity to take 
        advantage of our differences to spurn Western demands.
4. There is a wild card--the stability of the Milosevic regime. Mr. 
        Milosevic is leading his already destitute country down a blind 
        alley in Kosovo. He faces a mini-revolt in Montenegro and even 
        the Hungarians in Vojvodina are getting restive over the 
        deepening Kosovo war. Some analysts believe his hold on his own 
        faithful may be weakening. Military morale is by all accounts 
        bad. Few in Serbia would regret his departure but it would 
        raise plenty of uncertainties for Kosovo and other Balkan 
        issues.
5. The parties on their own cannot solve this problem. The West will 
        have to be involved in some fashion for a long time to come, if 
        peace is to be maintained.
    I would like now to summarize briefly the main elements of the 
current situation:
    --The violence started because many years of a non-violent policy 
by the Albanians produced no change in their situation in Kosovo. Many 
came to believe that only violence would produce serious Western help.
    --The violence is continuing and will likely escalate. It is not on 
the order of Bosnia and not likely soon to become so since the Kosovo 
Albanians have few large weapons and little military organization or 
experience. Some believe the casualty figures--300--are understated. 
Some believe they are exaggerated. Having destroyed Albanian villages 
along the Albania/Kosovo border, the Serbs seem now focused on sealing 
the border and preventing refugees. They fear more refugees will 
trigger a Western military response. So far the fighting has not 
expanded to the populous areas adjoining Macedonia. That could well 
happen, bringing both a humanitarian crisis and big trouble for 
Macedonia if there is an outflow of refugees.
    --Few had heard of the KLA a year ago. Now the violent Serb attacks 
against KLA areas this year have done much to generate support for the 
KLA in Kosovo and abroad. The leadership of Mr. Rugova has been 
seriously weakened. perhaps fatally. Albanians are increasingly 
rallying to the banner of the KLA and now openly demonstrate for them. 
Some Albanians are thirsting for revenge against Serbs. The KLA is in 
effective control of a large portion of Kosovo. We still know little 
about them--their size, capabilities, leadership, and organization. The 
KLA probably believes that more violence will produce Western military 
action against Serbia. Regrettably there are reports that they are now 
targeting Serb civilians and driving them out of Kosovo. If true it 
could well land them on the terrorist list.
    --Western diplomacy over the past five months has not stopped the 
violence and has failed to produce any political change in Kosovo.
    --The only way Serbia can continue to rule in Kosovo is either 
through continuing greater repression, or by moving massive numbers of 
Serbs into Kosovo, or driving massive numbers of Albanians out of 
Kosovo. The Kosovo Albanians are fed up with Serb rule and it is 
unlikely that they will allow themselves to continue to be ruled by 
Belgrade for much longer. Whether that means independence remains to be 
seen. In any event the status quo has become thoroughly unacceptable to 
them.
    The question now is whether the situation in Kosovo can be changed 
without more violence, which gets out of control in and radicalizes all 
Albanians, including those in Macedonia.
    Progress towards ending the violence in Kosovo requires. my view, 
at least two things: (1) an immediate Serb stand-down in their military 
campaign, coupled with (2) a concrete offer and urgent implementation 
of serious political change in Kosovo.
    How might this be achieved? These are some of the options.
1. The West can label the KLA terrorists and help close the Albanian 
        border to them but insist that Milosevic accompany these moves 
        with a cessation of fighting, immediate political change in 
        Kosovo, and serious negotiations with the Albanians. Many 
        believe US policy is headed in this direction.
2. We can take a chance on the fighting not escalating too much, and 
        wait for Milosevic to fall, changing the whole equation.
3. Alternatively, we can threaten Milosevic that we will destroy much 
        of his military establishment if he refuses to halt the 
        military campaign and immediately offer real political change. 
        It is hard to avoid the judgment that despite the tough 
        rhetoric NATO is reluctant to use force unless there are many 
        more refugees from Kosovo, particularly flowing into Macedonia.
4. If we are unwilling to use force we can make it clear to Milosevic 
        that, if he is not prepared to stop the violence and make quick 
        and serious political change in Kosovo, we will do everything 
        we can to bring him down, including supporting the KLA. If he 
        agrees we must pressure the Albanians to stop the violence.
    There is no longer any easy answer, if there ever was one. The 
situation gets worse and worse and in fact neither Milosevic nor the 
West knows what to do. My own prescription is as follows:
    --Western diplomacy cannot continue to dawdle. It is imperative to 
stop the violence now before we have a permanent war, the elimination 
of the non-violent Albanian leadership, refugees into Macedonia, and a 
radicalization of Albanians throughout the Balkans.
    --This will not be achieved simply by putting pressure on the 
weaker party--the Albanians--and hoping that Milosevic will deliver 
something. The KLA will not go quietly, and we will be accused of 
perfidy; political change in Kosovo cannot follow several years down 
the pike. Unconditional negotiations in this case are a myth. The basic 
fact is that right now Milosevic remains in control, and it is his call 
whether there will be war or peace. He has never since the Bosnian war 
began taken any politically difficult action unless under great 
pressure.
    --We will not likely get Serb agreement at this point to simply 
remove their forces. since it would lead to Albanian control of Kosovo 
and the exodus of most remaining Serbs.
    --We must make contact with the KLA, get to know them, and try to 
influence them. Their attacks on Serb civilians and efforts to drive 
them out of Kosovo must be stopped. We need to bring them seriously 
into any negotiations. Peace can no longer be achieved without them.
    --The Albanian should begin immediately forming a coalition 
government made up of all political groupings. This could accelerate 
political change in Kosovo and some unfreezing of the gridlock.
    --If NATO refuses to persuade Milosevic to make the right moves. 
and that seems likely, he must be pressured to do so, either through 
force or through support of the KLA
    --Western forces must be involved in the implementation of any 
settlement.
    --Independence may ultimately take place, whatever our current 
rhetoric. But insistence on it now is likely to be a formula for 
continued violence.
    --Independence may ultimately take place, whatever our current 
rhetoric. But insistence on it now is likely to be a formula for 
continued violence.
        
        
    Senator Smith. Thank you, Ambassador Abramowitz. We do have 
a vote. There is only a few minutes remaining. Senator 
Coverdell will be back momentarily to occupy the chair while I 
go and vote. If you would like to remain, we can do that.
    Senator Smith. Thank you, Ambassador Abramowitz. We do have 
a vote. There is only a few minutes remaining. Senator 
Coverdell will be back momentarily to occupy the chair while I 
go and vote. If you would like to remain, we can do that.
    Senator Biden. It would be nice if you could.
    I think you have been the most thoughtful person writing 
about this in the press, and the thing I appreciate so much is 
your candor that the further down the road we get, there is no 
good solution. We are getting to the point where any decision 
we make is problematic, and I would like to explore just a 
little of that with you if I may, but we have less than 3 
minutes now to vote.
    Senator Smith. We will stand in recess, and we will convene 
again as soon as Senator Coverdell returns.
    [Recess.]
    Senator Coverdell. Mr. Ambassador, we all apologize. This 
is out of our control, and I did not hear the conclusion of 
your testimony. I wonder if you might sort of summarize that, 
and then while we have a few moments, if there are other 
thoughts you would like to contribute while we wait for Members 
to return.
    Ambassador Abramowitz. What I was trying to convey, 
Senator, is that we are really in a terrible situation. The 
alternatives are very difficult. They may not be successful. 
But if we do nothing, if we do not stop the violence and we do 
not change immediately the political situation in Kosovo, 
fundamental change, we will see escalation of the war with all 
sorts of ramifications, and I basically had a variety of 
points--I am sorry. Let me back track.
    I listed a certain number of things we could do to approach 
this, but I came myself to a proposal which I thought, and I 
say this with very great humility because it is very hard, I 
thought best met the situation, and it was sort of like an 
eight point--or I do not know how many here, but let me briefly 
for you just sort of summarize them quickly.
    First, that we cannot continue to let our diplomacy dawdle. 
We are dawdling. This has been going on for 5 months, and it is 
not getting any better. It is getting worse, and if we do not 
stop the violence we are going to have a permanent war. It may 
be low-level right now, but it could spread, and it could 
spread to other parts of Kosovo, and that would impact on the 
situation particularly in Macedonia.
    If we saw sizable numbers of refugees moving from Kosovo to 
Macedonia, it would be a terrible blow to the stability of that 
State.
    I said second we are not going to do this by putting 
pressure on the Albanians, they are the weaker party, and 
hoping that somehow or another, after we put pressure on the 
Albanians, that Milosevic is going to deliver a solution. The 
Albanians will not accept that, and it is--I think it is 
morally odious.
    The fact is that Milosevic is in control, and he has the 
power to make peace or war now, and I am not sure he is willing 
to do so. It has never been h is wont to do steps which are 
politically dangerous.
    In the end, I honestly believe that the West may have to 
say, this is a solution, and this is what you have to do.
    I do not believe we can get the Serbs to remove their 
forces. I do believe they ought to remove their police forces, 
but if they removed all their forces, Kosovo would revert 
quickly to control of the KLA and the elimination of all Serbs.
    I think we have got to get in contact with the KLA. We have 
got to get to know them. They are an essential part of the 
solution now. They are a major factor, and we need to bring 
them into negotiations.
    I believe the Albanians, in order to unfreeze the 
situation, should start to create a coalition Government, get 
all the political parties, political groupings, and set up a 
concerted political effort.
    Now, the key, if Milosevic is unwilling to do those two 
things, 1) stop the violence and make immediate changes in 
Kosovo--and the two in my view are interrelated. You cannot 
stop the violence and then take 12 or 20 months to start 
negotiating something. That is not acceptable any more, and the 
Albanians will not accept that.
    If he refuses to do that, then I think we have to either 
pressure him with a threat and the use of force, not something 
anybody particularly likes, or we have to make it clear to him 
that we will do our best to unseat him and we will support the 
Kosovar Liberation Army.
    I also believe this is a long-term effort. We may have to 
have western forces to police the settlement. I do not think 
you can have a settlement last without that, at least certainly 
for the first few years.
    I also believe that finally, while independence may 
eventually take place, it is probably likely, given the 
demographics and what has happened over the last 10 years, I 
believe the effort to insist on it right now is a formula for 
continued violence.
    So in essence I believe we have to proceed down a 
continuum. That is the best I can do, as I said before.
    Senator Coverdell. Well, yours, as Senator Dole's, is very 
thought-provoking. Expand on the coalition Government concept, 
and let me just say from my limited time there, which is now 
some 2 years, that you could already sense an intractability on 
both sides, and that is why I am coming to your point about the 
coalition Government and wondering--
    Ambassador Abramowitz. I was talking about a coalition 
among the Albanian parties. There is a very new factor here 
which has become very important, and that is the Kosovar 
Liberation Army.
    They have the guns. They are drawing significant political 
support, and I believe that somehow or another they and all 
Albanians have now got to be brought into new political 
groupings. It is my own view, and I cannot say I am confident 
in asserting it.
    I am asserting it in part because I am trying to see ways 
of breaking the political deadlock and getting something going, 
so I believe also establishing a new coalition will make the 
KLA a real part of the negotiating effort, sort of like the 
analogy is frequently made between--I am not sure it is 
appropriate here. They mention it between the IRA and Sinn 
Fein, that there is a political arm through the armed 
separatist movement.
    Senator Coverdell. If these negotiations, pressures that 
you speak of do not work, and there is certainly a high 
probability that they would not, would you share your 
observations on how we interact with Europe? That is saying 
yes, NATO should act, but only with a Security Council 
resolution, Europe in general, and then that being impractical, 
the role of the United States in a unilateral force.
    Ambassador Abramowitz. Well, if we were to resort to force, 
if we felt the compulsion to resort to force, obviously it 
would be better to have the United Nations resolution. I think 
everybody would welcome that. Unfortunately, there seems to be 
in my view some indications that nations are hiding behind this 
so they do not have to fight, so they do not have to use force, 
and expecting the Chinese and/or the Russians to veto this.
    I believe in the end we have to look at how seriously we 
think the stakes are. If we think the stakes are 
extraordinarily important, that the violence stop and not 
expand, then I believe we will have to proceed with friends in 
Europe. I do not believe we would be alone, but I believe it is 
a very major difficulty for NATO.
    It is a test for NATO whether NATO is going to stand up and 
say they are going to deal with this problem, and I believe in 
the end I think most NATO members would go along, but I cannot 
say that with great certainty, and obviously I do not have the 
political job of making that happen, so it is sort of easy for 
me to assert that.
    Senator Coverdell. I am going to turn to our Ranking Member 
in just a moment, but we are in an interesting time warp. We 
have now voted on another resolution expressing frustration, I 
believe, in our country and in the Congress that is beginning 
to surface about the sharing of responsibilities in Bosnia in 
general, and I think those motions, at least at the moment, 
really the activists are disconnected from their effect on 
this, but we now had two, just during the course of this 
hearing.
    It strikes me that, with the nature of the terrain and 
geography, that a forced decision has to accept substantial 
collateral casualties. Obviously, we cannot be unmindful of 
that. Do you have any comment?
    Ambassador Abramowitz. I can only offer you some thoughts. 
It is not an area--although I had worked in the Pentagon many 
years ago, it is not an area that I feel myself particularly an 
expert. I had always felt that the only force we would use if 
we had to resort to force was to focus on destroying the 
infrastructure, the communications, and the supply depots of 
the Serbian military police establishment.
    I was not focusing on putting troops into Kosovo. I was not 
in any way doing that, and I am not--I cannot say how much 
collateral damage. I know we did a similar thing in Bosnia with 
very few lives being lost. Bosnia is, of course, not Serbia. 
Serbia has a much bigger military establishment.
    I cannot really answer that with knowledge, and I cannot 
sit here and tell you that it is going to work, that a sizable 
attack will work.
    My own view is that it would, but obviously I cannot tell 
you that with certainty. The question is, what are the 
alternatives, and you cannot just look at it simply in terms of 
one way of proceeding.
    I mean, if we want certainty, then we can get out of there 
and let them fight, but there are all sorts of costs to that, 
and we lived through that already, and therefore I believe, 
while no one certainly wants to use that option, I believe we 
have reached the point where we cannot proceed without getting 
two things I believe are essential from Mr. Milosevic who, 
after all, has the power, which is an end to the violence now, 
and an immediate political change in Kosovo.
    I am not trying to determine what that political change 
should be, but that is something which has to be discussed and, 
as I said before, I think the only way to achieve that is if 
the West proposes a settlement.
    Senator Coverdell. Do you believe, if that kind of course 
is exercised on Milosevic, given where we are and the dawdling 
policy you describe, that we can convince the Albanians equally 
that the violence must stop, or are they at a point, emotion-
driven and the like, where they feel they have more to gain by 
continuing?
    Ambassador Abramowitz. That is a very good question. I do 
not feel knowledgeable enough about that to answer. My own 
instincts are that if we get those two things from Milosevic I 
believe we have the capacity to persuade the Albanians to go 
along with that. If we do not, we are in pretty sad shape.
    Senator Coverdell. Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Mr. Chairman, or Mr. Ambassador, I think a piece of this is 
always missing. I found the biggest struggle in a personal 
sense that I had in making the case here about the Balkans 
beginning in 1992 was, understandably convincing our colleagues 
and the American people what is America's security interest.
    Where does America's national interest lie? I mean, what 
difference does it make? What difference does it make whether 
or not there is a Greater Serbia that includes all of Bosnia or 
Croatia and whether or not Kosovo is the victim of an ethnic 
cleansing that works.
    I wonder if you agree with the first part of what I would 
like to discuss with you, namely that the disintegration of 
Kosovo, which is increasing geometrically every day, has the 
genuine seeds for a third Balkan War. By that Balkan War, I 
want to explain to folks who may be listening to this, I mean, 
a war that envelops Macedonia, Albania, Bulgaria, Greece, and 
Turkey.
    I mean, a serious, serious European conflict that affects 
our interest in significant ways, whether it is NATO unity, or 
the spread of that conflict within Central and Eastern Europe. 
So I think the stakes are very, very high here.
    So my first question to you is, is this really a 
humanitarian concern you are expressing, or do you believe 
there is a vital U.S. interest in settling the situation in 
Kosovo?
    Ambassador Abramowitz. No. I am expressing both. I think 
there is an extraordinary important humanitarian concern, but 
in a way, more important as a policy, looking at it from a 
policy sense, I think you have just very well described what is 
involved.
    It involves the cohesion of the alliance, the seeds of a 
possible wider conflict--both of those are inherently involved 
in this issue, and we do not know right now how this is going 
to play out, and I do not think we should take the risk of 
those two things occurring.
    But--and you also pointed out, and I could not agree with 
you more and I would argue it is one of the reasons, 
notwithstanding our leadership ultimately in Bosnia, that the 
French and the Germans acted, and that is that if, in fact, 
there is a exodus of people, and if there is a refugee problem, 
that gets the attention of our European friends.
    Ambassador Abramowitz. Particularly if you tell them to go 
on to Germany.
    Senator Biden. That is exactly right, precisely, and I 
think that is one of the reasons why the KLA is doing what they 
are doing.
    I might note parenthetically that I have it on authority 
from sources whom I put some stock in, that there is not a 
conscious policy arrived at as expressed in the New York Times 
today by the KLA to target Serb civilians.
    There is no evidence at this point that that is a concerted 
policy arrived at like the Serbs in Bosnia arrived at. About 3 
years ago on the first trip, when Senator Dole came, and my 
third trip to Bosnia they were targeting children in the Muslim 
sector of Sarajevo for the purpose of scaring parents out onto 
the streets because their children were being victimized. There 
is no sense of that at this point in Kosovo in my view, and I 
say that for the press that is here, because I do not think the 
New York Times assertion is correct.
    But the longer we wait it seems to me the closer we are to 
a pure Hobson's Choice, because the independence of Kosovo at 
this moment under these circumstances might very well find us 
in a position where we are talking about a Greater Albania, 
which would have a significant impact on destabilizing the 
region.
    So I agree with your proposition that whatever happens has 
to happen quickly, which leads me to my second question. I was 
the first guy to call for air strikes in Bosnia, and I wrote 
that lift and strike policy and all of that, so I have been 
through this before--I do not say that out of pride of 
authorship.
    I believe that significant, sustained air strikes in Serbia 
would be a very different deal than they were in Bosnia, 
because we are dealing with a much more sophisticated military. 
I think the President would have to say, that there is likely 
to be collateral civilian damage and damage to American 
forces--this will not be without cost. This will not be 
painless.
    Second, because the first thing we would have to do is 
suppress the Serbian air defense system, there is likely to be 
collateral civilian damage on the ground in Serbia, because we 
would have to strike in areas near Belgrade, maybe in Belgrade, 
but I am suggesting that if all else fails, we should do that.
    I want to be up front about this. I am not suggesting that 
this would be a painless undertaking. Are you still prepared to 
support, if all other avenues fail, and I mean in the near 
term, the use of significant air power, knowing what our 
military tells me--and I believe them--that there is likely to 
be both collateral damage as well as possibly loss of U.S. 
lives, U.S. airmen's lives?
    Ambassador Abramowitz. Obviously, like you, I certainly 
would not like to see that, but I believe the stakes are such--
and let me back track for a minute, and I cannot dispute what 
you said about the differences between bombing Serbia and 
bombing in Bosnia.
    I believe the stakes are such that if we cannot get him to 
agree to what I think are the indispensable requirements, that 
we have two choices, one of which we must do. One is to use air 
power, and the other is to undermine him and support the KLA. 
We have to do one or both of them.
    Senator Biden. Well, one of the good pieces of news is that 
I think to date Prime Minister Nano of Albania is acting very 
responsibly. As a matter of fact, he has just come out for 
Kosovo's becoming a republic within Yugoslavia, but without the 
right of secession. That happens to be exactly what I advocated 
here 2 weeks ago.
    But the point I am making is this. Nano's statement does 
not bode well for the notion of a Greater Albania. In other 
words, you do not have the Albanian prime minister making 
statements that would invite the KLA to in effect become part 
of Albania. I think this is a very helpful step in dealing with 
what is to the naked eye a very intractable problem. There are 
no good answers left here.
    Ambassador Abramowitz. I think the more we dawdle, the more 
likely the developments are in the direction of Greater 
Albania.
    Senator Biden. I do, too, but my point is that I am 
pleased, and I want to publicly acknowledge that the Albanian 
prime minister is playing a constructive role at this point. If 
Milosevic were the prime minister of Albania, he would be 
calling for a Greater Albania now. He would be calling for and 
appealing to the nationalism of all Albanians in the region.
    So I just wanted to state for the record that even though I 
said the alternative for Greater Albania is also destabilizing, 
my staff reminded me that I should point out that this is not 
what the Albanian Government is calling for.
    Ambassador Abramowitz. I applaud his statement, but he is, 
of course, not in a very strong position.
    Senator Biden. I agree with that, and that is why I would 
again reemphasize my agreement with your point that time is of 
the essence.
    Now, let me ask you one last question, if I may, and I 
appreciate the chairman's giving me this much time. By the way, 
I was not being solicitous before I left about your thoughtful 
writing.
    You know, when we were going through the debate on Bosnia 
in 1994 in the Foreign Relations Committee room in a closed 
session, I was in a very heated discussion about what we should 
be doing in lifting the embargo and using air power and 
crossing the Drina if need be. One of my colleagues asked me a 
question that brought into sharp focus something I wondered 
about all through my college and graduate school years.
    Here I was, sitting in a seat that may very well have been 
occupied by Vandenberg as the senior member of the Foreign 
Relations Committee, and I could never understand how we could 
have failed to act in the thirties in the face of what was so 
patently obvious what was going on, and then I realized how, 
and I am not being facetious when I say this.
    One of my colleagues looked at me and said, ``OK, Joe, you 
may be right. Your argument seems logical, but can you 
guarantee me that no American will be killed?'' All of a sudden 
it struck me that this must have been the standard being 
applied back in 1937 and 1938 and 1939, when we knew we had the 
force to be able to do something even as weak as we were.
    The reason I keep saying this is that I do not want to be 
accused of not having been straightforward about this from the 
outset, or of promising--not that my colleagues would put any 
more stock in my statements than anyone else's--of promising 
anyone this is an easy road, or that the price may not be 
higher using force, even if it is only air power, in Serbia, 
than it was using it in Bosnia.
    The targets, it seems to me, have to be the ones you have 
stated. One of the things I have observed about the Balkans, no 
matter what country you are talking about, is that whatever 
little booty is possessed, people are desirous of keeping it.
    Let me be more precise about that. The Yugoslav Army is 
real, but it has limited assets and resources, notwithstanding 
the fact that they are significant relative to Bosnia. I am 
operating on the assumption that Milosevic's circumstance 
politically is tenuous enough because his policies are not 
widely shared by the average citizen in Serbia in my view. 
Nonetheless, we should not misunderstand, Kosovo and Kosovo 
Field near Pristina, in particular, are viewed as the cradle of 
Serbian nationality, Serbian identity, so we should not kid 
ourselves about that.
    Still, support for his policies is not widespread. I am of 
the view that if the Serbian Officer Corps believes that the 
price they have to pay to sustain Milosevic's policy is that 
they will run the risk of being badly disabled, I think it has 
the possibility of impacting upon Milosevic.
    So my question to you is, what is your view about the 
popular reaction to dedicated air strikes on military targets 
over a period of time? Some suggest that they would just 
embolden and rally the people of Serbia around Milosevic, and 
others of us say that they are likely to be the only thing to 
get his attention, because they may very well undermine him 
with the only element of Serbian nationalism that has any oomph 
left, and that is the military.
    Do you have a view on that?
    Ambassador Abramowitz. Yes, I do, and you have very well 
stated the dilemma. There are two views. One is that it will 
cause the Serbian people, the Serbian military to rally around 
him, and the other is that it will demonstrate the terrible 
dilemma that he has led his country into.
    If I could tell you a brief story, I saw a very prominent 
Serbian political leader back in 1995 to try to ask him his 
perspective on what happened when the war in Yugoslavia, in the 
former Yugoslavia began, and I said to him, tell me, if in 1992 
NATO had--and this was a man very close to Milosevic during 
that whole period.
    If, at that time in 1992, NATO had sent an unmistakable 
message to you, or had begun to sort of mobilize forces, would 
you have started or continued the war, and he looked at me and 
laughed, and he said, are you out of your mind? Do you think we 
want a war with NATO?
    That is basically my perspective on it.
    Senator Biden. Mine as well. I thank you, and thank you, 
Mr. Chairman.
    Senator Smith. Mr. Ambassador, we apologize for the 
disruption of the vote, but we thank you for your very 
perceptive testimony, and all of you who have attended today. 
Hopefully we are helping to lay a foundation for doing 
something and getting us beyond just words but some action that 
can save some lives for our country and theirs, and so we thank 
you.
    Senator Coverdell.
    Senator Coverdell. The observations have been directly on 
Kosovo, the Serbians, and Milosevic. Do you have any 
observations as to how we might be more effective in sharing 
with our European allies the very concern that you have?
    It would strike me they, among all, would be more committed 
to this than you or we, and yet the reticence is obvious and 
apparent.
    Ambassador Abramowitz. Well, I have a perspective on that 
that may be wrong. I think the reticence is great because we 
have reticence, and if we are certain as to what we are about, 
if we can clarify our thinking on how to deal with this, I 
believe that would change things. The Europeans are reticent 
because we are, and as I said before, I am not sure where we 
are at.
    I mean, I would hope that obviously that our diplomacy 
succeeds, but right now I do not know what we are trying to do.
    Senator Coverdell. I appreciate the observation. I thank 
the chair for allowing me to intervene with a final question.
    Senator Smith. You are welcome, Senator.
    We are going to include Senator Biden's statement in the 
record, and again, we thank you all for your attendance today. 
We are adjourned.
    [The prepared statement of Senator Biden follows:]
           Prepared Statement of Senator Joseph R. Biden, Jr.
    First, Mr. Chairman, I would like to compliment you on calling this 
hearing. There is no foreign policy issue of greater urgency facing the 
United States than the crisis in Kosovo.
    Second, I would like to welcome our two distinguished witnesses, 
former Majority Leader Dole and Ambassador Abramowitz. Aside from their 
many other achievements and services to this country, Senator Dole and 
Ambassador Abramowitz are two of our leading experts on the Balkans, 
and I am looking forward to benefiting from their expertise today.
    Mr. Chairman, we all know the proximate cause for this hearing: the 
unspeakable atrocities being carried out by Serbian special police and 
Yugoslav Army units in Kosovo.
    Claiming that he is merely utilizing a country's legitimate right 
to put down domestic rebellion, Milosevic has let loose his storm 
troopers to slaughter civilians and combatants alike. Clearly the 
civilized world, led by the United States, must act quickly in order to 
prevent a repeat of the Bosnian tragedy.
    But before we act, we must confront weighty issues of fundamental 
principle, of strategy, and of tactics.
    One issue of fundamental principle is the basis for intervention in 
what, strictly speaking, is an internal affair of a state. No one 
denies that Kosovo is a province of Serbia, albeit one whose autonomy 
was illegally revoked nine years ago.
    Can intervention be justified on the grounds that Serbia is 
wantonly violating the fundamental human rights it has pledged to 
uphold as a signatory to OSCE and U.N. conventions?
    A second issue of fundamental principle is whether NATO requires a 
U.N. Security Council mandate in order to take military action.
    My own view is that the possible spread of the warfare in Kosovo 
poses a clear and present danger to vital security interests of NATO 
member states, the United States included, and therefore obviates the 
necessity to go to the U.N. for a mandate. I would like your opinions 
on this issue.
    What we do on Kosovo also has highly important strategic 
implications, above all for continued American leadership in the post-
Cold War world.
    No one--certainly not this Senator--relishes the idea of sending 
American forces into harm's way once again. But if the Kosovo situation 
is sufficiently dangerous to our security--as I believe it is--then the 
question boils down to whether or not to act now, or temporize as we 
did in Bosnia, and then have to go in later at far greater risk and 
cost in blood and treasure.
    Let us also not forget that U.S. leadership is inextricably bound 
to the very future of NATO. I would pose the following hypothetical 
question, which is rapidly becoming a real one:
    What should we do if we consider it in the vital interest of the 
United States to intervene militarily in Kosovo, but our European 
allies insist on the need for a U.N. Security Council mandate, which 
they know Russia would veto? Should we then ``go it alone'' and thereby 
risk fracturing NATO?
    Another basic strategic question we must face is how much to factor 
in Russia's outspoken opposition to possible NATO military intervention 
in Kosovo. Specifically, is the Russian Defense Ministry's warning of a 
``new Cold War'' just standard public diplomacy hyperbole, or does it 
reflect the real state of current sentiment in Moscow?
    If it is the latter, should maintenance of reasonably good 
relations with Russia outweigh other priorities in the Balkans?
    Finally, Mr. Chairman, there are tactical issues, specific to 
Kosovo, which we need to confront.
    Other than putting an immediate halt to the blood-letting, what are 
our goals in Kosovo? Autonomy within Serbia, which Kosovo enjoyed from 
1974 to 1989, could be revoked again and is, therefore, unrealistic.
    I am against independence for Kosovo because such a move would 
seriously destabilize the Former Yugoslav Republic of Macedonia, and 
thereby open the Pandora's Box of a wider Balkan conflict.
    Therefore, my own preference, which I outlined last week on the 
Senate floor, is for republic-status for Kosovo within a federal 
Yugoslavia, but without the right of secession. This outcome, however, 
must be negotiated by the Kosovars and the Serbs, not imposed from the 
outside.
    Other tactical issues concern possible military intervention.
    How effective would air strikes alone be against the Serbian 
forces?
    Would ground troops also be necessary to end hostilities and get 
serious negotiations started?
    Furthermore, is the United States even in contact with the Kosovo 
Liberation Army? Could we be certain of its cooperation in any cease 
fire we broker?
    No one should doubt the difficulty of resolving these basic 
questions--of fundamental principles, of strategy, and of tactics. But 
I anticipate that our distinguished witnesses will help us shed light 
on these and other thorny issues.
    Thank you, Mr. Chairman.

    [Whereupon, at 6 p.m., the subcommittee adjourned, subject 
to the call of the Chair.]


                            A P P E N D I X

                              ----------                              


                         Hearing of May 6, 1998

                 United States Department of State,
                                       Washington, DC 20520
                                                       May 15, 1998
The Hon. Jesse Helms,
Chairman,
Committee on Foreign Relations,
United States Senate.
Dear Mr. Chairman:
    Following the May 6, 1998 hearing at which Special Representative 
Robert Gelbard testified, additional questions were submitted for the 
record. Please find enclosed the responses to those questions.
    If you have any further questions, please do nor hesitate to 
contact us.

        Sincerely,

                                    Barbara Larkin,
                                       Assistant Secretary,
                                               Legislative Affairs.
    Reponse of Ambassador Gelbard to Question asked by Senator Biden
    Question. Why is it not legally or politically possible for the 
Bosnian election rules to be changed in time for the September 1998 
elections so that each of the three members of the joint presidency are 
elected at large, rather than just one ethnic constituency?
    Answer. Your question goes to the heart of the reason for the 
structure of the Dayton Constitution.
    A copy of Annex 4, Article V that deals with the election of the 
tripartite Presidency is attached. The Dayton Constitution ensures 
representation for all ethnic groups and preserve the ethnic balance. 
For this reason, the constitution provides for a Bosniac, a Croat and a 
Serb in the tripartite Presidency.
    A pluralistic electoral system is the major long-term political 
goal for BiH. The Office of the High Representative is charged with 
writing the Permanent Election Law that will govern future elections. 
The Peace Implementation Council anticipates using that new law to 
effect progressive change in the electoral system.
    As part of this process, the OSCE and OHE consulted legal 
authorities to see if it would be possible have a direct election for 
the Presidency without a constitutional change. Legal opinion was that 
this would not be possible. Therefore, any such change, were it to be 
proposed, would require approval as an amendment to the Constitution by 
both chambers of the Parliamentary Assembly including a two-thirds 
majority of the lower house of the Bosnian Parliament.
    It is generally considered that election of the members at large 
would be unacceptable to Bosnian Croats who, as the smallest ethnic 
group, feel they could be excluded. Such an eventuality could also 
impact directly on cooperation in the Federation.
    For the September 1998 general elections, we believe recent PEC 
rule changes should encourage further modest movement toward a 
pluralistic legislature, thus making constitutional change possible in 
the future, if that is the desired route of the signatories of the 
Dayton Accords.

                                 ______
                                 

ARTICLE V
Presidency
The Presidency of Bosnia and Herzegovina shall consist of three 
Members: one Bosniac and one Croat, each directly elected from the 
territory of the Federation, and one Serb directly elected from the 
territory of the Republika Srpska.
1. Election and Term.
  (a) Members of the Presidency shall be directly elected in each 
        Entity (with each voter voting to fill one seat on the 
        Presidency) in accordance with an election law adopted by the 
        Parliamentary Assembly. The first election, however, shall take 
        place in accordance with Annex 3 to the General Framework 
        Agreement. Any vacancy in the Presidency shall be filled from 
        the relevant Entity in accordance with a law to be adopted by 
        the Parliamentary Assembly.
  (b) The term of the Members of the Presidency elected in the first 
        election shall be two years; the term of Members subsequently 
        elected shall be four years Members shall be eligible to 
        succeed themselves once and shall thereafter be ineligible for 
        four years.
2. Procedures.
  (a) The Presidency shall determine its own rules of procedure, which 
        shall provide for adequate notice of all meetings of the 
        Presidency.
  (b) The Members of the Presidency shall appoint from their Members a 
        Chair. For the first term of the Presidency, the Chair shall be 
        the Member who received the highest number of votes. 
        Thereafter, the method of selecting the Chair, by rotation or 
        otherwise, shall be determined by the Parliamentary Assembly, 
        subiect to Article IV(3).
  (c) The Presidency shall endeavor to adopt all Presidency Decisions 
        (i.e.. those concerning matters arising under Article 
        lll(l)(a)-(e)) by consensus. Such decisions may, subject to 
        paragraph (d) below, nevertheless be adopted by two Members 
        when all efforts to reach consensus have failed.
  (d) A dissenting Member of the Presidency may declare a Presidency 
        Decision to be destructive of a vital interest of the Entity 
        from the territory from which he was elected, provided that he 
        does so within three days of its adoption. Such a Decision 
        shall be referred immediately to the National Assembly of the 
        Republika Srpska. if the declaration was made by the Member 
        from that territory; to the Bosniac Delegates of the House of 
        Peoples of the Federation, if the declaration was made by the 
        Bosniac Member; or to the Croat Delegates of that body, if the 
        declaration was made by the Croat Member. If the declaration is 
        confirmed by a two-thirds vote of those persons within ten days 
        of the referral, the challenged Presidency Decision shall not 
        take effect.
3. Powers. The Presidency shall have responsibility for:
  (a) Conducting the foreign policy of Bosnia and Herzegovina.
  (b) Appointing ambassadors and other international representatives of 
        Bosnia and Herzegovina, no more than two-thirds of whom may be 
        selected from the territory of the Federation.
  (c) Representing Bosnia and Herzegovina in international and European 
        organizations and institutions and seeking membership in such 
        organizations and institutions of which Bosnia and Herzegovina 
        is not a member.
  (d) Negotiating, denouncing, and, with the consent of the 
        Parliamentary Assembly, ratifying treaties of Bosnia and 
        Herzegovina.
  (e) Executing decisions of the Parliamentary Assembly.
  (f) Proposing, upon the recommendation of the Council of Ministers, 
        an annual budget to the Parliamentary Assembly.
  (g) Reporting as requested, but not less than annually, to the 
        Parliamentary Assembly on expenditures by the Presidency.
  (h) Coordinating as necessary with international and nongovernmental 
        organizations in Bosnia and Herzegovina.
  (i) Performing such other functions as may be necessary to carry out 
        its duties, as may be assigned to it by the Parliamentary 
        Assembly, or as may be agreed by the Entities.
4. Council of Ministers. The Presidency shall nominate the Chair of the 
        Council of Ministers, who shall take office upon the approval 
        of the House of Representatives. The Chair shall nominate a 
        Foreign Minister, a Minister for Foreign Trade, and other 
        Ministers as may be appropriate, who shall take office upon the 
        approval of the House of Representatives.
  (a) Together the Chair and the Ministers shall constitute the Council 
        of Ministers. with responsibilIty for carrying out the policies 
        and decisions of Bosnia and Herzegovina in the fields referred 
        to in Article 111(1), (4), and (5) and reporting to the 
        Parliamentary Assembly (including, at least annually, on 
        expenditures by Bosnia and Herzegovina).
  (b) No more than two-thirds of all Ministers may be appointed from 
        the territory of the Federation. The Chair shall also nominate 
        Deputy Ministers (who shall not be of the same constituent 
        people as their Ministers), who shall take office upon the 
        approval of the House of Representatives.
  (c) The Council of Ministers shall resign if at any time there is a 
        vote of no-confidence by the Parliamentary Assembly.

                                 ______
                                 

   Responses of Hon. Robert S. Gelbard to Questions Asked by Senator 
                                D'Amato
    Question. What plans does the United States have to deal with the 
humanitarian emergency that would arise if Serbian ethnic cleansing in 
Kosovo were to drive hundreds of thousands of Kosovar Albanians across 
international borders into Albania and the Former Yugoslav Republic of 
Macedonia?
    Answer. For several months, the Department has been working with 
the Macedonian and Albanian governments, as well as the UN High 
Commissioner for Refugees (UNHCR), International Committee for the Red 
Cross (ICRC) and other humanitarian organizations in Albania and 
Macedonia to ensure that contingency planning is at an appropriate 
level. The Department was pleased to see the international community's 
quick, comprehensive response in the last month to the humanitarian 
needs of the 15,000 Kosovar Albanian refugees in Albania and 65-80,000 
displaced persons in Kosovo. NATO's Civil Emergency Planning cell and 
members have been responsive to USC's call for NATO logistical support 
for humanitarian organizations. There have been no reported refugee 
flows to Macedonia.
    In response to the UN and JCRC emergency appeals, the Department's 
Bureau of Population, Refugees and Migration has contributed $3.55 
million to humanitarian organizations and will hold an additional $1.45 
million in reserve. AID/Food for Peace is finalizing an additional $1 
million contribution as well. In addition to those funds that will 
address the humanitarian needs of refugees, Albanian families hosting 
refugees and internally displaced persons, a portion of these funds 
will go to continued contingency planning and preparedness in Macedonia 
and Albania. We are confident that the international community and 
government in Macedonia will respond quickly, if there are refugee 
flows into Macedonia.
    Context: In December 1992, President Bush sent a letter to 
Milosevic warning him that ``In the event of a conflict in Kosovo 
caused by Serbian action, the U.S. will be prepared to employ military 
force against the Serbians in Kosovo and in Serbia proper.'' This 
language is classified SECRET/NODIS, but the New York Times and other 
U.S. paper have reported the warning accurately. The UNCLASS version of 
the warning notes only that ``The United States will respond in the 
event of Serb-incident violence in Kosovo'' and does not make reference 
to military intervention. The Clinton Administration reaffirmed the 
``Christmas Warning'' in early 1993, but there has been little 
reference to it since.
    Question. Is the Christmas Warning still in force? Why doesn't the 
Administration reiterate it?
    Answer. There has been no change in U.S. policy regarding our 
readiness to use force in the event of continued serious violence in 
Kosovo.
    As the President has said, all options are on the table, including 
the use of military force. That is our position--that we are prepared 
to use force. We would prefer that the situation be resolved through 
talks--peaceful dialogue--and the NATO planning is done in support of 
forceful diplomacy.
    We have also made clear to the Kosovar Albanian leadership that we 
will not tolerate violent acts committed by extremist elements in the 
Albanian community.
    Question. Is the United States actively gathering evidence on the 
conduct of Serbian and Federal Republic of Yugoslavian forces in Kosovo 
for submission if warranted to the International Criminal Tribunal for 
the Former Yugoslavia in The Hague? Has the United States found grounds 
for the submission of such evidence?
    Answer. The United States has been among the leaders in drawing the 
attention of the international community to the fact that the ongoing 
mandate of the International Criminal Tribunal for the Former 
Yugoslavia (ICTY) applies to current events in Kosovo. On March 13, 
1998, Secretary Albright announced the United States was contributing 
more than $1 million for the support of the investigations of the 
Office of the Prosecutor (QTP) in Kosovo and for other investigative 
priorities.
    The policy of the United States is to cooperate fully with the 
Tribunal and to expect all other States to do the same. The 
Administration reports to the Congress, including the House 
Appropriations and International Relations Committees as well as the 
Senate Appropriation and Foreign Relations Committees, every six months 
on information-sharing with the OTP. The last such report was provided 
in April 1998. These reports are unclassified. Information is provided 
to the OTP in response to specific requests by the OTP and in 
compliance with provisions of U.S. law and Rule 70 of the Tribunal's 
rules of procedure, which apply to the confidentiality of information. 
While the OTP has publicly disclosed its ongoing investigation into 
events in Kosovo, the existence or extent of any requests by the OTP to 
the U.S. Government for information on Kosovo are not a matter of 
public record. It is a matter of public record that the U.S. policy of 
full cooperation with the Tribunal, which has been in effect since the 
Tribunal was established in 1993, continues in effect and without 
limitation to any particular investigation.
    Question. What configuration of internal Serbian political forces 
is necessary, in your opinion, in order to permit Slobodan Milosevic to 
come to the negotiating table without preconditions to talk with 
Kosovar Albanian leaders under international mediation? When and how 
will that condition be achieved?
    Answer. From the outset of armed hostilities in Kosovo in March, 
the international community has demanded that the Serb side make a 
serious offer of dialogue with Kosovar Albanian leaders. We believe 
that Milosevic can enter a serious, substantive dialogue immediately. 
We will not accept any excuses from Milosevic or others that internal 
forces somehow render him unable to accept this baseline demand of the 
international community, which is essential for the resolution of the 
conflict.
    Question. Clearly, events in Kosovo have acquired a momentum of 
their own. Serbian armed assaults against Kosovar Albanian villages 
have boosted membership in and support for the Kosovo Liberation Army 
while undercutting the political legitimacy of established Kosovar 
Albanian political leaders. When, in your judgment, will time run out 
on realistic prospects for a peaceful, negotiated settlement?
    Answer. It is impossible to pinpoint a specific set of events that 
would make a peaceful, negotiated settlement impossible.
    Despite the deterioration of the situation on the ground in Kosovo 
and the increasing radicalization of Kosovar Albanians, we believe that 
there is still opportunity for dialogue and negotiation.
    We will continue to push to get a meaningful dialogue started 
between the government of the FRY and Kosovar Albanian leaders. We are 
working with both sides to achieve a cease-fire so that negotiations 
can go forward. The July 8 Contact Group statement calls for ``an 
immediate cessation of hostilities in Kosovo to pave the way for 
continuous talks between Belgrade and the Kosovo Albanian leadership on 
additional confidence building measures and the future status of 
Kosovo'' and says that ``Contact Group members will pursue this goal 
through immediate talks with both Belgrade and the Kosovo Albanians.''
    The main goal of U.S. policy toward Kosovo now seems to be to begin 
a negotiation between Belgrade and the Kosovar Albanians in the 
presence of an international third party. This means that we ultimately 
want to see a deal, or agreement between Milosevic and the Kosovars.
    What indication do we have that Milosevic wants to make a deal? 
Certainly he is not under the same pressure he was for Dayton and, 
absent NATO air strikes, he will not be. Furthermore, do we really 
believe he wants a way out of the Kosovo crisis, when the crisis itself 
is what seems to enhance his power and popularity in Serbia?
    Ultimately, is it not also true that we are again relying on 
Milosevic to have enough dictatorial power to be able to make a deal 
stick? Are we not perpetuating his regime by relying on it rather than 
isolating it? Does the United States believe there will ever be 
genuine, long-term stability in the Balkans as long as Milosevic is in 
power, and if not, are we considering the extent to which we are 
perpetuating his rule?
    Answer. We believe that Milosevic is under significant pressure, 
and, along with our allies, we are continuing to step up this pressure 
to force him to the negotiating table. We have already instituted 
comprehensive economic sanctions and an arms embargo. Milosevic is 
currently isolated from the international community.
    We have made it clear that sanctions and isolation will continue 
until Milosevic meets the demands of the Contact Group and makes a 
serious effort to negotiate with Kosovar Albanian leaders. The Contact 
Group has called for action in the UN Security Council to lock in the 
commitments Milosevic made to President Yeltsin as well as the 
requirements of the Contact Group.
    Much as we would prefer that Milosevic not be in charge, he is the 
person to deal with now to get a dialogue going or a settlement 
implemented. The only alternative to dialogue is war, which is 
unacceptable.
    If Milosevic fails to take the required steps, the Contact Group 
has made it clear that it will consider further action, including 
action that would require UN Security Council authorization.
    Milosevic faces a clear choice. If he fails to implement fully the 
demands of the international community and make a credible attempt to 
solve the Kosovo crisis peacefully, he will continue to face 
international isolation, sanctions, and possible military action.
    Question. It seems that the only thing Milosevic really responds to 
is a credible threat of the use of force, which demonstrates the 
resolve of the international community to stop him. Do you agree, and, 
if not, do you believe the current sanctions announced by the Contact 
Group in Bonn and Rome are credible, given clear differences between 
the Contact Group countries, or sufficiently strong to compel Milosevic 
to respond positively? If Milosevic does not respond positively, are we 
ultimately willing to reissue the warning of military intervention 
first made by President Bush and then reiterated by President Clinton? 
Is there a possibility that, now, we could issue a no-fly zone over 
Kosovo through the United Nations that would be enforced by NATO?
    Answer. We have taken decisive steps to increase the pressure on 
Milosevic to show positive movement on Kosovo. We fully support UN 
Security Council Resolution 1160, which institutes an arms embargo on 
the FRY. The U.S. and the EU have both imposed an investment ban on 
Serbia and a freeze on the funds of the FRY and Serbian governments. 
The EU is preparing to implement a ban on flights by Yugoslav air 
carriers. The U.S. has suspended indefinitely the consideration of an 
application by JAT (the Yugoslav national airline) to resume flights to 
the U.S. There are no U.S. commercial carriers flying to Belgrade at 
this time. We have made it clear to Milosevic that, if he fails to show 
positive movement, we will continue to increase the pressure on him; 
this may include further action in the UN Security Council. We will 
continue to work with our allies to ensure that sanctions are as 
effective as possible. We have exempted the pro-reform government of 
Montenegro from all sanctions.
    We are prepared to use force if the situation in Kosovo warrants 
this. As the President has said, all options remain on the table, and 
NATO military planners are in the process of developing a full range of 
options in the event NATO decides to act in response to the crisis in 
Kosovo. In addition, on July 8 the Contact Group stated that if 
Milosevic does not fully implement his commitments to President Yeltsin 
and the requirements of the Contact Group, ``the Contact Group will 
consider further action under the United Nations Charter, including 
action that may require the authorization of a UN Security Council 
resolution, to bring about compliance by those who block the process.'' 
Such actions could include, but would not be limited to, declaration 
and enforcement of a no-fly zone over Kosovo or parts of the FRY. 
However, Russian reluctance to support UN Security Council 
authorization of a more robust policy towards Kosovo is a limiting 
factor that needs to be taken into consideration.

                                 ______
                                 

 Reponse of Ambassador Gelbard to Questions asked by Senator Biden and 
                            Senator D'Amato
    Question. The OSCE has been mentioned as part of the international 
response to the Kosovo crisis, with former Spanish Prime Minister 
Felipe Gonzalez being offered as a high-level envoy and the Mission to 
Kosovo which was expelled in 1993 readied for return.
    What priority does the Administration place on OSCE involvement?
    Answer. The U.S. continues to place a high priority on OSCE 
involvement in the resolution of this crisis. FRY authorities 
continuing refusal to comply with key OSCE and Contact Group demands 
has, however, placed a practical limitation on OSCE activities within 
the FRY. Key OSCE and Contact Group conditions include acceptance of 
the OSCE Chairman-in-Office's (CiO's) Personal Representative Felipe 
Gonzalez, the return of the OSCE Missions of Long Duration, and the 
implementation of key stabilization measures. The OSCE continues to 
play an important role through its border monitoring activities in 
Albania, and its mission in FYROM. Recently, the CiO has opened 
preliminary talks with FRY authorities regarding the possible return of 
the OSCE Missions and FRY's status at the OSCE.
    Question. Is the United States giving adequate attention to the 
advantages of deploying international monitors on the ground to report 
on what is happening, regardless of whether agreement can be reached on 
the terms for a negotiation with a high level envoy?
    Answer. Yes. Regarding OSCE missions, the U.S. has continuously 
urged at high levels FRY authorities to reinstate the OSCE Missions of 
Long Duration in Kosovo, Sanjak, and Vojvodina. The return of these 
missions would serve as an important confidence building measure, and 
would provide clear, unbiased reporting from the region. FRY 
authorities have to date been unwilling to accept the return of these 
missions without unacceptable preconditions.
    The U.S. and other countries with Embassies in Belgrade have 
established a Kosovo monitoring capability, staffed by Embassy 
personnel, which have been increased for this purpose. Milosevic agreed 
to this in conversations with U.S. diplomats and confirmed it in his 
Moscow meeting with President Yeltsin. We have been monitoring the 
situation in Kosovo for several months and are increasing our presence 
there significantly, with hopes for reaching our full plan for 
operations and staffing as soon as the remaining security and 
communications provisions can be put into place. These efforts will 
help provide a clearer picture of the situation in Kosovo, as well as 
help reassure the inhabitants, of all ethnic groups, of the 
international community's concern.

                               <greek-d>

      
</pre></body></html>
